<html>
<title> - TOURISM IN AMERICA: REMOVING BARRIERS AND PROMOTING GROWTH</title>
<body><pre>[Senate Hearing 112-134]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-134
 
                 TOURISM IN AMERICA: REMOVING BARRIERS 
                          AND PROMOTING GROWTH

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
71-015                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                Rebecca Seidel, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

AMY KLOBUCHAR, Minnesota, Chairman   ROY BLUNT, Missouri, Ranking
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 JOHN THUNE, South Dakota
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2011....................................     1
Statement of Senator Klobuchar...................................     1
    Letter, dated April 4, 2011 to Senator Amy Klobuchar, from 
      Russell St. John, Senior Vice President of Global 
      Marketing, Datacard Group..................................     3
Statement of Senator Blunt.......................................     4
Statement of Senator Ensign......................................     5
Statement of Senator Ayotte......................................     6
Statement of Senator Begich......................................     6
Statement of Senator Boozman.....................................    31

                               Witnesses

Hon. Nicole Y. Lamb-Hale, Assistant Secretary of Commerce for 
  Manufacturing and Services, U.S. Department of Commerce........     7
    Prepared statement...........................................     9
David T. Donahue, Deputy Assistant Secretary of State for Visa 
  Services, U.S. Department of State.............................    11
    Prepared statement...........................................    13
John Wagner, Executive Director, Admissibility and Passenger 
  Programs, Office of Field Operations, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............    16
    Prepared statement...........................................    18
Stephen J. Cloobeck, Chairman of the Board, Corporation for 
  Travel Promotion...............................................    34
    Prepared statement...........................................    35
Nancy Johnson, Executive Vice President Development, Carlson 
  Hotels, Americas...............................................    38
    Prepared statement...........................................    39
John Sprouls, CEO, Universal Orlando Resort; and Executive Vice 
  President, Universal Parks and Resorts.........................    42
    Prepared statement...........................................    44
Roger Dow, President and CEO, U.S. Travel Association............    59
    Prepared statement...........................................    61

                                Appendix

Hon. Tom Udall, U.S. Senator from New Mexico, prepared statement.    79
Response to written questions submitted to Hon. Nicole Y. Lamb-
  Hale by:
    Hon. Amy Klobuchar...........................................    79
    Hon. Mark Begich.............................................    80
    Hon. Roy Blunt...............................................    80
Letter to Senators Klobuchar and Blunt from David T. Donahue, 
  Deputy Assistant Secretary, United States Department of State..    81
Response to written questions submitted to David T. Donahue by:
    Hon. Amy Klobuchar...........................................    83
    Hon. Mark Begich.............................................    86
    Hon. Roy Blunt...............................................    87
Response to written questions submitted to John Wagner by:
    Hon. Amy Klobuchar...........................................    89
    Hon. Mark Begich.............................................    91
    Hon. Roy Blunt...............................................    92
Response to written question submitted by Hon. Tom Udall to Roger 
  Dow............................................................    94
Written questions submitted to Stephen J. Cloobeck by:
    Hon. Tom Udall...............................................    95
    Hon. Mark Warner.............................................    95


       TOURISM IN AMERICA: REMOVING BARRIERS AND PROMOTING GROWTH

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                               U.S. Senate,
   Subcommittee on Competitiveness, Innovation and 
                                  Export Promotion,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Amy 
Klobuchar, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. OK, I think we're going to get started.
    Thank you, everyone, for coming to this important 
Subcommittee hearing on tourism. We're really excited about 
this. We have a number of Senators here; Senator Blunt, who 
just signed on to be the Ranking Member of this subcommittee: 
He has a long, long history of support for the tourism in 
Missouri, and all across the country, so I was very excited 
when I found out he was going to be the Ranking Republican. 
Senator Ayotte is here, Senator Ensign, and Senator Begich. 
Thank you for joining us.
    I also want to thank the witnesses who have come, some from 
a long way; but you guys like to travel, so you're OK with 
that.
    I think when we look at this issue, to me, this is about 
jobs, whether it's a tourist traveling for business or a family 
traveling for vacation, each foreign visitor to our country 
spends an average of $4,000.00 when they come to our country. 
You multiply that by several million, and we're talking about 
some serious money, not to mention some serious benefits for 
our economy. In 2009 alone, spending by overseas visitors 
supported some 900,000 American jobs and paid $23 billion in 
wages to American workers.
    And, so there is no question that international tourism 
represents a key force of our economy; whether it's visiting 
Las Vegas or whether it's visiting the mountains in Alaska and 
the Great Forest--there you go--Branscombe, Missouri, or--I'm 
ready for this--Lake Winnipesaukee, and I said it right. Yes. 
OK, that's good. But, I won't mention the Mall of America or 
Duluth, or any of the great things that we have.
    So, here's the story, though: While foreign travelers still 
flock to America, we are losing our share of the market to 
other countries. Between the years 2000 and 2009, the American 
share of global tourism decreased by 31 percent. Now, we know 
we've had a tough economic time, but this was going on before 
we had the tough economic time.
    This decline represented $509 billion in lost spending, 
441,000 lost jobs. So, we need to get back in the game here. 
That's what we've been working so hard on this committee to do; 
but we took a first big step with passing the Travel Promotion 
Act.
    I was proud to work on that bill. Senator Ensign played a 
major leadership role on that bill, as did Senator Dorgan, and 
we got that bill through. One of the provisions created the 
Corporation for Travel Promotion, or CTP, a public/private 
partnership passed with developing advertising campaigns to 
promote U.S. abroad and educate travelers about our country. As 
we all know, it's not going to cost us, the taxpayer, a cent of 
taxpayer money. It's paid for by a $10.00 fee on foreign visas, 
and we've been paying that for other countries to advertise 
against us, so it's time for us to get in the game; and it will 
make a major difference.
    The other thing that we want to focus on today is the Model 
Ports of Entry Program or MPOE. The goal of the MPOE is to make 
the Customs and Immigration process more favorable for 
international travelers; and the program is now operating in 20 
of our country's busiest international airports. There's still 
room for improvement. In some airports international travelers 
wait more than 2 hours before clearing customs.
    I know the Homeland Security Department is taking steps to 
make our airports more hospitable; and I was pleased that they 
are actually showing the video that we highlighted in one of 
our previous committee hearings that I chaired; and it's now 
being shown in those 20 airports. Now we have to get it on 
bigger screens, but we'll let the travel industry figure out 
how to do that.
    Visa backlog: There's another key area where we can make it 
easier for tourists to visit the United States; that is the 
visa application process. It doesn't do much good to promote 
the U.S. to foreign travelers when those foreign travelers 
can't get a visa for months to visit the United States of 
America.
    In a recent survey 73 percent of respondents said they 
would not visit the U.S. if they knew that it would take them 2 
to 3 months to get a visa. Well, sadly, in several countries--
many countries that's how long it's taking. Beijing--China, as 
a whole, it's in the 40's for how many days it takes, but 
Beijing, it can take 90 days to get a U.S. visa, and that's 
just to get an interview. Meanwhile, to visit countries like 
France, Germany, and Canada, it can take 10 days. So how do we 
fix this? Well, one way is to hire more temporary consular 
officers. I understand that the State Department is currently 
planning to do this in China and Brazil.
    And I think it's important to point out that these officers 
will more than pay for themselves through visa application fees 
And that's what we have to keep in mind as we talk about a 
tight economy and what we're dealing with right now with the 
budget, that we can pay for these people through the visa 
application fees that then get the money back to our country 
because they're going to spend--the foreign tourists are going 
to spend the money when they visit.
    Another way to streamline the application process would be 
to implement video conferencing technology for interviews so 
that potential tourists don't have to travel long distance for 
face-to-face visa interviews.
    I also think it's worth considering changes to the Visa 
Waiver Program which allows citizens from concern countries to 
visit the U.S. without a visa. Currently only nine of the 
world's 75 largest countries are part of the program.
    While keeping in mind that concern security issues are 
paramount here, I think we should consider expanding it to 
countries like Brazil, which already has reciprocal visa 
arrangements in Europe, which could be a great source of 
tourism for our country.
    These are just a few ideas for improving the game here and 
making it easier for Americans to welcome foreign tourists and 
to add jobs to our country.
    Before I start introducing the witnesses, I'd like to 
submit for the record a letter from Russell St. John, the Vice 
President of Global Marketing at the Datacard Group, which is a 
Minnesota-based technology company. The letter discusses the 
importance of creating and implementing international standards 
and best practices for verifying a person's identity during the 
visa application process. So, without objection, I hereby 
submit the letter to the record.
    [The information referred to follows:]

                                             Datacard Group
                                      Minnetonka, MN, April 4, 2011
Senator Amy Klobuchar,
Washington, DC.

Dear Senator Klobuchar,

    I'm writing this letter to offer our perspective and to express my 
appreciation and support of your efforts related to the Visa Waver 
issue. As a company that conducts business throughout the world, 
Datacard Group is frequently affected by delays and problems related to 
the issuance of travel visas.
    As you know, Datacard Group has deployed more than 350 identity 
programs in more than 95 countries worldwide. Additionally, financial 
institutions in nearly every country of the world use Datacard  card 
personalization solutions to securely issue the majority of the world's 
payment cards.
    This experience has given us a unique perspective on how the 
quality and security of a country's identity credentials--drivers' 
licenses, passports and national identity cards--is directly related 
the country's ability to issue travel visas in a timely manner.
    The establishment of a citizen's identity is one of the fundamental 
considerations when a government agency is asked to issue a travel 
visa. The visa application process requires the verification of a 
number of support or breeder documents including the citizen's 
identification credentials. If those credentials have been issued using 
a non-standardized process, the agency is forced to undertake an 
independent investigation of the citizen, which is often expensive and 
time consuming.
    However, if a country has an identification credential program that 
is based on internationally accepted standards for vetting and 
authentication of citizen identity, the Visa application could bypass 
the independent identity investigation.
    One such set of internationally recognized standards have been 
developed by the International Civil Aviation Organization (ICAO). ICAO 
is associated with the United Nations and provides tools and best 
practices for issuing secure identity documents and to verify the 
authenticity of the credential and its holder.
    Under ICAO standards, multiple mechanisms are utilized to not only 
verify identity, but also to prevent counterfeiting and fraud, 
including the use of smart chip enabled credentials. To date, nearly 
100 countries, including the United States and most of Europe have 
adopted this technology in their passport programs and other 
identification schemes. As a result of this adoption, the technology 
has become more standardized and cost effective to implement.
    Standards and best practices are driving down the cost of 
implementation of world class identification programs. These 
identification programs could be used to substantially reduce the need 
for secondary visa investigations, further lowering the cost of visa 
programs and speeding their issuance to the applying citizen.
    Through changes to its Visa Waiver Program and the resulting 
changes in the ICAO standards and recommendations, the U.S. government 
played a key early role in driving global adoption of more security in 
identification programs. However, the full benefits of these changes 
have not yet been realized. For countries that have made these changes, 
there are opportunities to use identification more efficiently. For 
those that haven't made the changes, it is time to help those countries 
realize the benefits. We believe the United States can continue to play 
a key role by taking a leadership position on these efforts by 
promoting standards and best practices while providing encouragement 
and incentive for other countries to adopt them as well.
    Senator Klobuchar, thank you once again for your work related to 
the Visa Waiver issue. If Datacard Group can be of any assistance in 
these endeavors, please do not hesitate to contact me directly.
            Sincerely,
                                          Russell St. John,
                                             Senior Vice President 
                                               of Global Marketing,
                                                        Datacard Group.

    I'd like to now introduce our first panel of witnesses. But 
first, before I do that, Senator Blunt, would you like to make 
some opening comments?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, I would, Chairman Klobuchar. First of 
all, I'd like to say thank you, for holding this hearing today. 
I look forward to working with you on this committee. I think 
it's critical in so many ways that we not only encourage 
foreign travel, but that we also encourage foreign commerce, 
and at the same time, help to secure the future of the country.
    The travel and tourism industry is an important, and 
sometimes an overlooked sector of our economy; I think there's 
a sense that somehow this just happens or isn't impacted by gas 
prices or visa programs, or other things; and we need to do 
what we can to encourage that industry in our country for a 
number of reasons.
    One reason which you've already mentioned, is that foreign 
travelers spend an average of almost $4,000.00 per visit. And 
visitors from Brazil and China, two of the world's fastest-
growing populations, spend far more; averaging about $5,000.00, 
if you're a traveler from Brazil, and $7,000.00 if you're a 
traveler from China. That multiplies in the economy in 
incredible ways, and our economy generates billions of dollars, 
and tens of thousands of jobs in tourism. So, not only do 
foreign travelers spend more than American domestic travelers, 
but they stay longer, and they almost always like us better 
than they did when they came.
    In fact, if there was no other reason to encourage foreign 
travel than the foreign policy advantages of having people 
visit our country and go home and be greater ambassadors, 
frankly, for what the United States is all about, that would be 
one of the principle reasons we'd want to encourage travel.
    From an economic standpoint it's clear that we need to 
encourage foreign travelers to come to the United States to 
grow our economy and to create that sense of who we are. That's 
why I have been a real proponent of travel promotion policies.
    I sponsored, along with Bill Delahunt, the Travel Promotion 
Act in the House, in the last Congress. I think we passed it 
three times; the third time was the Senate version, and we were 
glad that it passed the Senate version, but----
    Senator Klobuchar. I'm sure you will.
    Senator Blunt.--we kept looking for ways to get that done 
and we were glad that our friends in the Senate--you, and 
Senator Ensign, and others, were so involved in that.
    The other part of this equation, of course, is ensuring 
that the process for travel visas for foreign visitors is 
secure and streamlined, but, sometimes those two terms come in 
conflict with each other. What's the most you can do to make 
this process as simple as you can, but at the same time you 
want to be sure you don't make it more simple than you should 
in ways that don't provide the security we need?
    I'm interested, Chairman, in hearing the testimony from 
this--great panel that we have before us today. To hear them 
talk about the visa waiver system; to talk about the countries 
already enrolled in that program; perhaps we can even have a 
chance to talk about the countries that are in line, trying to 
do the things that they need to do. And I'd also be glad to 
hear what some of those things are that come up, either in your 
comments or in questions, to be sure that the countries that 
have this particular visa waiver advantage and the United 
States as well have done the things that we need to do to be 
sure that that remains an advantage for people on both ends of 
the travelers' destination, maintaining security here, but 
continuing to encourage travel from other countries as well.
    And, so, Chairman, again, thanks for holding this hearing. 
I look forward to both panels.
    And I yield back.
    Senator Klobuchar. OK. Thank you. Anyone else would like to 
make a few comments before the hearing begins?
    Senator Ensign?

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Madam Chair. I think both of you 
covered a lot of things that I would have covered in my opening 
statement. There's no question though, that the simplest, 
biggest issue right now, I think that you raised, has to do 
with the visa issue and streamlining that process, and, 
obviously, getting more of the consulars hired so that we can 
increase the number of people coming to the United States, 
because people don't realize that it's either number one or 
number two industry in the United States is tourism, and the 
more that we can help foreign travelers come into the United 
States, it improves our relations with people all over the 
world.
    It does improve commerce. When people come here, they see 
opportunities to invest, and bring dollars to the United 
States; not only what they spend in tourism dollars but also 
what they spend in investment dollars by coming to the United 
States.
    So, I think this is a very, very important hearing.
    Senator Klobuchar. OK. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you Chairman. I appreciate the 
opportunity to serve on this important subcommittee. Coming 
from the beautiful state of New Hampshire, tourism is a very 
important part of our economy. Really looking at this visa 
issue carefully so that we can streamline the process while 
protecting national security, I think is very important for our 
economy. I look forward to hearing from the witnesses today, 
and also working with members of this subcommittee to make sure 
that we can continue to encourage international visitors to 
come to our country. It is very good for our relationship with 
other countries, and also excellent for our economy. We know 
very much in our state how important it is and how much it adds 
to jobs in New Hampshire and also to our overall relationship 
with those around the world.
    So, thank you very much.
    Senator Klobuchar. Thank you.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you.
    I will pass on a statement. I'm anxious for the folks to 
testify because I have a shopping list of questions, so I'll 
just leave that.
    Senator Klobuchar. That sounds very scary for our 
witnesses.
    Senator Begich. Absolutely.
    Senator Klobuchar. OK, we'll start with the Hon. Nicole 
Lamb-Hale. She is the Assistant Secretary for Manufacturing and 
Services of the Department of Commerce, where she helps U.S. 
industries succeed internationally by strengthening their 
competitive position in foreign markets, to sustain and create 
American jobs.
    Ms. Lamb-Hale previously worked as a Deputy General Counsel 
at Commerce and as managing partner in the Detroit office of an 
international law firm. When I introduce all of you and have 
you begin.
    Next, Mr. David Donahue, who is the Deputy Assistant 
Secretary for Visa Services at the Department of State. Mr. 
Donahue has been with the State Department for quite some time. 
He has been on the front lines of the Consular Office at 
various postings around the world, and is intimately familiar 
with the challenges faced by our consular offices overseas.
    Finally, Mr. John Wagner is the Executive Director, 
Admissibility and Passenger Programs, in the Office of Field 
Operations at U.S. Customs and Border Protection--that's a 
really long title.
    Mr. Wagner has 20 years of experience in the field, 
beginning his career as a Customs Inspector, and joining the 
Office of Field Operations in 1999. At the Customs and Border 
Protection he has responsibility was for all travel-related 
policies.
    So we welcome the three of you.
    I also note that we have a second panel, Senator Begich, so 
you can keep half your shopping list for the second panel as 
well.
    All right, we'll start with you, Ms. Lamb-Hale. Thank you.

             STATEMENT OF HON. NICOLE Y. LAMB-HALE,

                ASSISTANT SECRETARY OF COMMERCE

                FOR MANUFACTURING AND SERVICES,

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Lamb-Hale. Thank you, Chairman Klobuchar, Ranking 
Member Blunt and distinguished members of the Subcommittee, 
thank you for giving me the opportunity to speak to you about 
the efforts of the International Trade Administration and the 
Department of Commerce in implementing the Travel Promotion Act 
of 2009 and encouraging travel and tourism in general. In the 
United States, travel and tourism is a $1.3 trillion sector of 
the economy, supporting 7.7 million American jobs.
    The news regarding travel and tourism continues to paint a 
positive picture for the United States.
    Secretary of Commerce Gary Locke announced on March l6 that 
a record-breaking 60 million international visitors arrived in 
the United States in 2010, shattering by 17 percent the 
previous record set in 2000. These international travelers 
spent more than $134 billion during their visits, a 12 percent 
increase from 2009. For the year 20l0, the United States had a 
trade surplus of nearly $32 billion in travel and tourism, and 
an increase of 50 percent over the 2009 surplus. The latest 
travel and tourism figures underscore the importance of this 
industry to strengthen the U.S. economy.
    Travel and tourism plays a critical role in the 
Department's export promotion strategy. This effort directly 
supports President Obama's National Export Initiative goal of 
doubling exports by the end of 2014.
    Upon the enactment of the TPA, the Department, as required 
by that Act, established the Office of Travel Promotion, or 
OTP, which is currently housed in my unit of ITA in the Office 
of the Assistant Secretary for Manufacturing and Services.
    ITA's Deputy Assistant Secretary for Services has been 
named the interim Director of the OTP. The Department has 
actively communicated progress on the TPA's implementation to 
this committee, and to industry stakeholders.
    The establishment of the OTP in ITA leverages ITA's 
longstanding and unmatched expertise, knowledge, and industry 
contacts in the travel and tourism sector, much of which 
resides in ITA's Office of Travel and Tourism Industries, or 
OTTI. As you know, the TPA dictates the creation of the 
Corporation for Travel Promotion to enhance the competitiveness 
of U.S. exports of the Travel and Tourism industry. As required 
by the TPA, the Secretary of Commerce appointed 11 members of 
the Corporation's Board of Directors in September 2010, 
following consultation with the Secretaries of State and 
Homeland Security.
    In fulfilling the OTP's liaison duties, the interim OTP 
Director and staff have formed a strong relationship with the 
Board of the Corporation. The Board holds monthly Board 
meetings, and the interim OTP Director and staff have 
participated in each one.
    In furtherance of the TPA, ITA is closely collaborating 
with the DHS and State. ITA has worked closely with DHS to 
support its efforts to implement the Electronic System for 
Travel Authorization, or ESTA, fee collection system, which 
collects federally sourced funds for the Corporation.
    Through the interagency Tourism Policy Council, ITA has 
partnered with State and DHS to disseminate information 
regarding the implementation of the ESTA fee and to explore 
ways to better facilitate and communicate improvements into 
entry process for foreign visitors into the United States.
    These efforts have also engaged the National Security 
Council's Interagency Policy Committee, or IPC.
    As mentioned earlier, President Obama's National Export 
Initiative sets the goals of doubling exports by the end of 
2014 to create several million new jobs. Export promotion is 
vital to its success.
    With a relatively small and strategic federal investment in 
export promotion, we can build upon our aggressive efforts to 
help American companies sell their American-made goods and 
services overseas.
    Investments in export promotion boast a great return on 
investment. The Fiscal Year 2012 budget request for the ITA 
includes an increase of $78.5 million to support NEI-related 
efforts, which will create a projected $4.4 billion in 
additional exports and 22,000 new jobs. The Fiscal Year 2012 
proposed budget will be critical in successfully implementing 
the goals of the TPA as well by bringing more foreign visitors 
to the U.S., and more foreign buyers, distributors, and 
partners to U.S. trade shows.
    In closing, the Department of Commerce will maintain 
consistent and open communication with the Corporation and its 
board, and with staff at DHS and State, leveraging both OTP and 
Office of Tourism--Travel and Tourism Industries. We will 
continue to coordinate with DHS and State through the IPC and 
their inter-agency TPC. We will work with the TPC's Travel 
Facilitation subcommittee to consider the Travel and Tourism 
Advisory Board's recommendations for improving the U.S. entry 
process.
    Additionally, we will continue our close collaboration with 
the Department of the Treasury and the Corporation to establish 
procedures for making disbursements to the Corporation in 
accordance with the TPA. This collaboration will ensure the 
smooth transfer of funds to the Corporation on an ongoing 
basis.
    The potential of the TPA to create new opportunities for 
U.S. travel and tourism exports plays a critical role in 
supporting the President's National Export Initiative and in 
stimulating the U.S. economy.
    This is an exciting time for the United States to engage in 
the global marketplace and proactively compete for 
international visitors. After all, more international visitors 
to the United States means more people eating in our 
restaurants, staying in our hotels, shopping in our malls, 
visiting our attractions and learning more about our values and 
people.
    Chairman Klobuchar, Ranking Member Blunt, and distinguished 
members of the Subcommittee, thank you again for inviting me to 
speak, and I will be happy to answer any questions that you 
have.
    [The prepared statement of Ms. Lamb-Hale follows:]

Prepared Statement of Hon. Nicole Y. Lamb-Hale, Assistant Secretary of 
  Commerce for Manufacturing and Services, U.S. Department of Commerce

    Chairwoman Klobuchar, Ranking Member Blunt and distinguished 
members of the Subcommittee, thank you for giving me the opportunity to 
speak before you about the efforts the International Trade 
Administration and Department of Commerce are taking in implementing 
the Travel Promotion Act and encouraging travel and tourism in general. 
In the United States, travel and tourism is a $1.3 trillion sector of 
the economy, supporting 7.7 million American jobs.
    The news regarding travel and tourism continues to paint a positive 
picture for the United States. Secretary of Commerce Gary Locke 
announced on March 16, that a record breaking 60 million international 
visitors arrived in the United States in 2010, shattering by 17 percent 
the previous record set in 2000. These international travelers spent 
more than $134 billion during their visits, a 12 percent increase from 
2009. For the year 2010, the United States had a surplus of nearly $32 
billion in travel and tourism, an increase of 50 percent over the 2009 
surplus. In addition, seven of the top 10 countries generating overseas 
visitation to the United States posted new records: Australia, Brazil, 
France, Italy, India, South Korea, and the People's Republic of China. 
These markets combined for a record 26 million overseas visitors, 
surpassing the record set by the same group of countries in 2000.
    The latest travel and tourism figures underscore the importance of 
travel and tourism to strengthening the U.S. economy. Travel and 
tourism plays a critical role in the Department of Commerce's 
(Department) export promotion strategy. This effort directly supports 
President Obama's National Export Initiative goal of doubling exports 
by the end of 2014.
    The Travel Promotion Act of 2009 (TPA), and its creation of the 
Corporation for Travel Promotion (CTP), enhances the competitiveness of 
the travel and tourism industry and promotes U.S. travel and tourism 
exports. Many other nations operate aggressive programs that actively 
market their countries as desirable destinations around the world. The 
CTP will help the United States join the game and encourage travelers 
across the globe to visit our country.
    The following is an overview of the Department's efforts to support 
the TPA through the establishment of the Office of Travel Promotion 
(OTP), to build a relationship with the CTP, and to collaborate with 
the Departments of State (State) and Homeland Security (DHS).

The Office of Travel Promotion
    The OTP has been established and is currently housed in my unit of 
the International Trade Administration (ITA), the Office of the 
Assistant Secretary for Manufacturing and Services. ITA's Deputy 
Assistant Secretary for Services has been named the interim Director of 
the OTP. The Department has actively communicated to apprise the travel 
and tourism industry of our progress on the TPA's implementation.
    As set forth in the TPA, the functions of the OTP are to: (1) serve 
as a liaison to the CTP and support and encourage the development of 
programs to increase the number of international visitors to the United 
States for business, leisure, educational, medical, exchange, and other 
purposes; (2) work with the CTP, the Secretary of State, and the 
Secretary of Homeland Security: (a) to disseminate information more 
effectively to potential international visitors about documentation and 
procedures required for admission to the United States as a visitor, 
(b) ensure, with DHS and State, that arriving international visitors 
continue to be welcomed with accurate information and in an inviting 
manner, (c) to collect accurate data on the total number of 
international visitors that visit each state, and (d) to enhance the 
entry and departure experience for international visitors through the 
use of advertising, signage, and customer service; and (3) support 
state, regional, and private sector initiatives to promote travel to 
and within the United States.
    The establishment of the OTP in ITA leverages ITA's longstanding 
and unmatched expertise, knowledge, and industry contacts in the travel 
and tourism sector, much of which resides in ITA's Office of Travel and 
Tourism Industries (OTTI). Even before the TPA was enacted, ITA was 
already actively pursuing many of the functions and responsibilities 
assigned to the OTP by the TPA, primarily through OTTI.

The Corporation for Travel Promotion
    The TPA established the CTP as a non-profit corporation with the 
purpose of promoting the United States as a travel destination. In 
accordance with the TPA, the Secretary of Commerce appointed the 11 
members of the CTP's Board of Directors (Board) in September 2010, 
following consultation with the Secretaries of State and Homeland 
Security. ITA played a key role in the process of selecting candidates 
for the Board. The initial search for applicants was well-publicized 
and included notices in the Federal Register, as well as notices to 
trade associations and the general public through ITA's industry 
listserve and the OTTI website. Our search produced many extremely 
well-qualified applicants.
    The members of the Board represent various regions of the United 
States, and each individual has experience and expertise in a specific 
sector of the U.S. travel and tourism industry as required by the TPA. 
The CTP's Board has filed articles of incorporation in the District of 
Columbia, established officers (Chair and two Vice Chairs), and 
received $2.5 million from the Department of Treasury for start-up 
costs. The Board is intent on hiring the Executive Director for the CTP 
in the immediate future, and it is actively working to define its 
annual objectives, marketing plan and strategy, and annual budget. Mr. 
Stephen Cloobeck, the Chairman of the CTP Board, will speak more 
specifically on what the CTP is doing to meet the legislative goals of 
the TPA.
    In fulfilling the OTP's liaison duties, the interim OTP Director 
and staff have formed a strong relationship with the Board of the CTP. 
The Board holds monthly Board meetings (either in person or via 
conference call), and the interim OTP Director and staff have 
participated in each one.

Collaboration with the Departments of Homeland Security and State
    ITA, through the OTP and OTTI, has worked closely with DHS to 
support DHS' efforts to implement the Electronic System for Travel 
Authorization (ESTA) fee collection system, which collects the 
federally-sourced funds for the CTP. Through the interagency Tourism 
Policy Council (TPC), ITA has partnered with DHS and State to 
disseminate information regarding the implementation of the ESTA fee 
and to explore ways to facilitate the entry process for foreign 
visitors into the United States.
    DHS and State have been actively engaged in meeting the challenges 
posed by an increase in demand for visas and an increase in the number 
of travelers to the United States. The Department of Commerce is 
working with both DHS and State on an interagency team led by the 
National Security Council's Interagency Policy Committee to more 
effectively communicate to industry and travelers the efforts the 
Departments are making to better serve the traveling public. These 
efforts include making visa processing more efficient, secure and 
customer-friendly, as well as the shifting of resources to the visa 
sections in our embassies abroad and to the U.S. ports-of-entry to 
ensure that the entry experience is efficient and welcoming. These 
efforts will also support and complement the work of the CTP in 
promoting international visitation to the United States.

Report to Congress on the Office of Travel Promotion
    As required by the TPA, Secretary Locke provided a description of 
the OTP's work to date with the CTP, the Secretary of State, and the 
Secretary of Homeland Security to the Senate Committee on Commerce, 
Science, and Transportation; the Senate Committee on Homeland Security 
and Governmental Affairs; the Senate Committee on Foreign Relations; 
the House of Representatives Committee on Energy and Commerce; the 
House of Representatives Committee on Homeland Security; and the House 
of Representatives Committee on Foreign Affairs. The report was 
transmitted to Congress on March 11, 2011.

Travel Promotion Key to the National Export Initiative
    With a relatively small and strategic federal investment in export 
promotion, we can build upon our aggressive efforts as part of the 
National Export Initiative (NEI) to help American companies sell their 
American-made goods and services overseas.
    The FY 2012 budget request for the ITA includes an increase of 
$78.5 million to support NEI related efforts, which will support a 
projected $4.4 billion in additional exports and 22,000 new jobs. The 
NEI also involves ITA's continued work to assist companies and create 
trading opportunities by identifying, overcoming, and resolving trade 
policy issues and barriers and ensuring that our trade partners fully 
meet their obligations under our trade agreements. These efforts mean 
leading more trade missions; helping U.S. companies win more foreign 
procurement bids; and providing more business to business matchmaking 
services to U.S. companies. The budget will be critical in successfully 
implementing the goals of the Travel Promotion Act as well by bringing 
more foreign visitors to the United States and more foreign buyers, 
distributors, and partners to U.S. trade shows.

Conclusion
    The Department of Commerce will maintain consistent and open 
communication with the CTP and its Board, and with staff at DHS and 
State, leveraging both the OTP and OTTI. We will continue coordination 
with DHS and State through the NSC's Interagency Policy Committee and 
the Tourism Policy Council, and we will work with the TPC's Travel 
Facilitation subcommittee to consider the recommendations of the Travel 
and Tourism Advisory Board for improving the U.S. entry process. 
Additionally, we are collaborating closely with the Department of 
Treasury and the CTP to establish procedures for making disbursements 
to the CTP in accordance with the TPA. This collaboration will ensure 
the smooth transfer of funds to the CTP under the TPA on an ongoing 
basis.
    The potential of the TPA to create new opportunities for U.S. 
travel and tourism exports plays a critical role in supporting the 
President's National Export Initiative and stimulating the U.S. 
economy. This is an exciting time for the United States to engage in 
the global marketplace and proactively compete for international 
visitors. After all, more international visitors to the United States 
means more people eating in our restaurants, staying in our hotels, 
shopping in our malls, visiting our attractions and learning about our 
values and culture.
    Chairwoman Klobuchar, Ranking Member Blunt, and distinguished 
members of the Subcommittee, thank you again for inviting me to speak. 
I will be happy to answer any questions that you have.

    Senator Klobuchar. OK, thank you very much.
    Mr. Donahue.

                 STATEMENT OF DAVID T. DONAHUE,

  DEPUTY ASSISTANT SECRETARY OF STATE FOR VISA SERVICES, U.S. 
                      DEPARTMENT OF STATE

    Mr. Donahue. Chairwoman Klobuchar, Ranking Member Blunt, 
and distinguished members of the Subcommittee, it is a distinct 
honor to share with you today the accomplishments of my 
colleagues at the State Department's Bureau of Consular Affairs 
in our efforts to facilitate the legitimate travel of millions 
of tourists, businesspeople, students, and others to the United 
States.
    This is a good news story. The good news is that 
international arrivals to the United States continue to climb. 
In 2010, 60 million international visitors entered the United 
States, a 17 percent increase from 2006. As has already been 
stated by the Senator, international tourists, business 
visitors, and students not only boost our economy, but also 
leave here with a better understanding of American culture and 
values.
    While many of those coming to the United States travel 
without visas via the Visa Waiver Program, millions need visas 
to come here. For the Bureau of Consular Affairs, our challenge 
has been to meet the increasing worldwide demand for visas 
without compromising the security of our nation's borders.
    In Fiscal Year 2010 we saw a 7.6 percent increase in visa 
demand, and issued 6.4 million visas. Through the first 5 
months of Fiscal Year 2011, worldwide visa issuances are 13.4 
percent higher compared with the same period last year.
    Demand for visas climbed at a dramatic pace in the world's 
fastest emerging economies. Since 2005, the visa issuances in 
China have doubled, and increased by 50 percent in India, 52 
percent in Russia, 24 percent in Mexico, and more than 50 
percent in the Middle East and North Africa. In Brazil, visa 
issuances have nearly tripled to more than half a million 
annually.
    In this brief statement, I will highlight some of the ways 
the Department of State and the Bureau of Consular Affairs are 
meeting this challenge through increased staffing, peak season 
temporary help, management and procedural innovation, and 
improved technology.
    My written testimony provides more detail on our efforts to 
keep pace with travel demands, especially in these fast-growing 
economies.
    Since 2007, we have created 114 new consular officer 
positions and moved another 74 existing positions from lower to 
higher priority posts, concentrated in the countries with the 
greatest needs. Twenty-four new slots went to posts in Brazil, 
and another 24 went to China, and 14 new positions went to 
India, including to staff our new consulate in Hyderabad, 
India.
    This fiscal year, at no cost to the American taxpayer, we 
will continue to add consular officers and support staff to our 
posts facing the greatest demand.
    To cope with seasonal and short-term spikes in demand in 
Brazil and China, the Bureau of Consular Affairs also makes 
extensive use of temporary duty assignments.
    We are also exploring possible alternative staffing models, 
which would be funded by visa fees, including limited, non-
career appointments for consular adjudication staff, targeting 
qualified people who already have foreign language proficiency.
    Meeting higher visa demand also means boosting many 
critical services that support our processing functions, such 
as administrative and clerical personnel, guards, and security, 
information management, communications, facilities and 
infrastructure.
    Assistant Secretary Jacobs is leading the preparation of 
twenty-year plans for China, India, and Brazil to ensure that 
we have the resources to meet both near and long-term demand 
for visas in these fast-growing economies.
    Wherever possible we have sought to maximize resources we 
have on hand. Consul managers are exploring new ways to manage 
their work flow. World-wide new technology, a global 
contracting support system, and online application forms are 
helping to boost efficiency.
    All of our overseas posts have business facilitation 
programs or other procedures to expedite visa appointments for 
business travelers with legitimate needs for earlier 
appointment dates. In addition, we give priority scheduling 
appointments for student visa applicants, so they can get to 
the United States in time to start the semester.
    We continue to work with our interagency partners to 
streamline security-related clearances processes, understanding 
that new processes can never compromise the level of scrutiny 
demanded in today's world.
    We consider each of these strategies to address higher visa 
demand. I can assure you that foremost in our minds is the need 
to maintain vigilance against travelers who want to do us harm.
    None of the provisions I'm sharing with you diminishes in 
any way, the security screening that is an essential part of 
the visa process.
    Around 90 percent of our posts currently have wait times of 
less than 20 days; 74 percent have wait times of less than 7 
days.
    While much of our consular operation is primarily funded on 
the basis of fee for services, budget cuts could reduce the 
administrative platform overseas that supports visa operation 
limiting the options available to us in the future.
    Nonetheless, the Bureau of Consular Affairs will continue 
its commitment to meet the needs of international travel and 
trade to the fullest extent possible. This is important not 
only to our Nation's economy, but maintains America's 
reputation for openness, fostering exchange, and seeking mutual 
understanding.
    Thank you, Madam Chairwoman, Ranking Member, and members of 
the Subcommittee for this opportunity to testify. I would be 
pleased to take any questions you have.
    [The prepared statement of Mr. Donahue follows:]

 Prepared Statement of David T. Donahue, Deputy Assistant Secretary of 
           State for Visa Services, U.S. Department of State

    Chairwoman Klobuchar, Ranking Member Blunt, and distinguished 
members of the Subcommittee, it is a distinct honor to share with you 
today the accomplishments of my colleagues in the Bureau of Consular 
Affairs in our efforts to facilitate the legitimate travel of millions 
of visitors, businesspeople, students, and others to the United States.
    The good news is that international arrivals to the United States 
continue to climb. In 2010, 60 million international visitors entered 
the United States, a 17 percent increase from 2006. The Department of 
Commerce predicts that by 2015, international arrivals will reach 
nearly 83 million.
    We know that international tourists, business visitors, and 
students boost our economy, but these visitors also leave here with a 
better understanding of American culture and values. According to the 
Department of Commerce, last year international visitors contributed 
$134 billion to the U.S. economy supporting more than a million jobs. 
More international travel means more spending on airlines, tours, 
hotels, services, and export purchases, all of which means more 
American jobs.
    For the Bureau of Consular Affairs, our challenge has been to meet 
the increasing worldwide visa demand from these potential visitors 
without compromising the security of our nation's borders. We are 
meeting that challenge, even as we continue to deal with new and 
growing demand for international travel.
    After September 11, overseas travel to the United States dropped by 
40 percent. Some travelers deferred trips voluntarily, while others 
experienced increases in visa processing time as we implemented new 
security requirements in 2002 and 2003. Since 2003, however, 
nonimmigrant travel to the United States has grown steadily, with 
demand for visas rising in virtually all of our 222 visa-issuing posts 
worldwide. After a slight drop in visa issuances during Fiscal Year 
2009--mainly because of global economic conditions and the addition of 
nine new countries to the Visa Waiver Program (VWP)--in Fiscal Year 
2010 we saw a 7.6 percent increase in demand, to more than 8.2 million 
visa applications. Of those, we issued 6.4 million visas.
    Through the first 5 months of Fiscal Year 2011, worldwide visa 
issuances are 13.4 percent higher compared with the same period last 
year.
    Approximately half of the total overseas visitors to the United 
States enter through the Visa Waiver Program (VWP), which allows 
nationals of certain designated countries to enter the United States 
for tourism or business for up to 90 days without obtaining a visa. The 
VWP, administered by the Department of Homeland Security in 
consultation with the Department of State, added nine new countries in 
the last 2 years bringing the current number to 36 participating 
countries.
    The greatest growth in travel comes from the world's fastest 
emerging economies, where we have seen demand for U.S. visas increase 
at a dramatic pace. Since 2005, visa issuances in China have doubled. 
During the same period visa issuances have climbed by 51 percent in 
India, 52 percent in Russia, and 24 percent in Mexico. Since 2005, 
visas issuances in the Middle East and North Africa have risen more 
than 50 percent.
    In Brazil, where we maintain four visa-issuing posts--Sao Paulo, 
Rio de Janeiro, Brasilia, and Recife--an economic boom has created a 
more prosperous middle class. In 5 years, we have seen nonimmigrant 
visa issuances nearly triple to more than half a million annually. At 
the same time, Brazilian refusal rates for visitor visas have dropped 
from 20 percent to less than 5 percent.
Department of State Responses to Burgeoning Demand
    This growth in visa demand represents a major and ongoing challenge 
for the Department of State and the Bureau of Consular Affairs. We have 
responded with increased resources, peak season temporary staffing, 
management and procedural innovation, and improved technology. We still 
face resource gaps in some of the fastest-growing economies. We 
continue to focus our efforts on assisting our posts in those 
countries.
    Since 2007, we have created 114 new consular officer positions and 
moved another 74 existing positions from lower to higher priority 
posts. We have concentrated most of our new resources in the countries 
with the greatest need. Twenty-four new slots went to posts in Brazil 
and another 24 went to China. Seventeen were added to Mexico. Another 
14 new positions went to India. In October 2008, we opened a new 
consulate in Hyderabad, India, where a twelve-officer consular section 
facilitates U.S.-India trade relationships in this hub of high-
technology business.
    This fiscal year, at no cost to the American taxpayer, we will 
continue to add consular officers to our posts facing the greatest 
demand. Of the 20 new consular officer positions created in Fiscal Year 
2011--funded through the Machine Readable Visa (MRV) fees paid by visa 
applicants--the majority are being deployed to China and Brazil. To 
cope with seasonal, short-term spikes in demand in Brazil and China, 
the Bureau of Consular Affairs also makes extensive use of temporary 
duty assignments.
    As demand continues to rise, normal intake of Foreign Service 
Officers is expected to decline. For this reason, we are exploring 
possible alternative staffing models, which would also be funded by MRV 
fees. These new models include limited non-career appointments for 
consular adjudication staff, targeted to qualified people who already 
have foreign language proficiency.
    The addition of nine new countries to the VWP allowed us to shift 
resources to other posts. While this was a welcome development, it is 
not a solution that can be widely applied. Adding countries to the VWP 
is governed by law. The countries where we have the largest resource 
needs presently do not meet the legal requirements to be considered for 
the program.
    We remain aware that meeting higher visa demand is not just a 
matter of adding more consular officers. It also means boosting the 
many critical services that support our processing functions, such as 
administrative and clerical personnel, guards and security, information 
management, and communications. It means larger and better facilities 
and infrastructure. A greater number of visa line officers also creates 
the need for more supervisors, experienced consular officers who 
provide policy and management guidance and ensure the quality and 
accountability of our work. We cannot ignore the levels of adequate 
support and supervision that are essential to the success of any visa 
operation.
    Wherever possible, another important goal is to maximize the 
resources we have on hand and consular managers are exploring new ways 
to manage their workflow. For example, posts in Brazil, India, and 
China have increased hours of operation to better utilize their 
overwhelmed facilities. Mexico expanded their facilities and developed 
more efficient procedures to handle case intake and applicant 
biometrics.
    We have implemented policy changes making it easier in Brazil, 
China, India, and Mexico for applicants to apply at any of our posts in 
their countries, not just the one covering the ``consular district'' 
where they live. This permits more efficient use of country-wide 
processing capacity.
    In addition, we have sent additional TDY officers to supplement 
posts with critical needs, including 2,128 hours of TDY time in China 
and 5,344 hours in Brazil over the last 18 months. We also instructed 
all overseas posts to establish procedures to expedite visa processing 
for business persons and students with time-sensitive travel.
    We have consolidated and improved outsourced services for managing 
visa appointments at overseas posts; finding efficiencies of scale 
through global contracts. This new system, called the Global Support 
Strategy (GSS) is already in place in a number of countries, including 
Canada and Mexico, and other countries will transition to the new 
service over the coming months.
    Increasing the validity length on visas is another strategy for 
reducing the need to re-apply for a U.S. visa. Brazilians, Indians, and 
Mexicans receive ten-year visas. Unfortunately, Chinese tourist and 
business travelers and students currently only receive 1 year visas. 
Section 221(c) of the Immigration and Nationality Act requires us to 
set visa validities ``insofar as practicable'' to accord foreign 
nationals the same treatment upon a reciprocal basis that their country 
accords to U.S. citizens. This is not just law, but in my opinion, it 
is good policy. It is not in our interest, for example, to give a 
Chinese business traveler an advantage not available to American 
business travelers. Our goal is, wherever possible, to negotiate longer 
periods of visa validity with foreign governments, but our bottom line 
is equal treatment for our own citizens. We have been working with our 
Chinese counterparts to encourage them to cooperate on expanding 
reciprocity for citizens of both our countries. We also take every 
opportunity to encourage U.S. and Chinese business leaders to make this 
point with Chinese officials.
    Meeting the demand for visa interviews is only part of our resource 
challenge. We are likewise improving our issuance process, the time it 
takes to get approved visas into travelers' hands. All nonimmigrant 
visa applicants worldwide now apply using our online form. Having 
application data in electronic format from the start allows us to 
instantly move that data throughout the process. We are developing a 
new generation of visa processing software that will automate 
additional procedures and help us further reduce our past reliance on 
paper.
    We continue to work with our interagency partners to streamline 
security-related clearance processes, understanding that new processes 
can never compromise the level of scrutiny today's world demands. In 
part, more efficient screening will help to minimize delays some 
legitimate travelers face because of false hits, caused by the 
unavoidable fact that the world is full of very common names. As we 
improve algorithms and increase the number of data elements used in 
name-based screening, we will continue to reduce the number of cases 
delayed by these false name matches.
    Eliminating some categories of applicants from the personal 
interview requirement would help cut wait times and staffing costs. 
Under INA sec. 222(h), the Secretary of State has the authority, 
subject to certain limitations, to waive the personal interview 
requirement on the basis of a U.S. national interest or if necessary 
because of unusual or emergent circumstances. We are considering 
whether there are limited categories of low-risk applicants from low-
risk countries for which the Secretary might exercise her interview 
waiver authority without compromising the security or integrity of the 
visa process. This is a step forward we will take only with concurrence 
from our law enforcement partners and with your support.
    The Bureau of Consular Affairs has studied the idea of conducting 
visa interviews by video link. While technologically possible, we 
concluded that a combination of security and productivity concerns make 
video interviews impractical in the field. The bottom line is that they 
cut rather than improve consular officer efficiency. In addition, a 
two-dimensional video does not provide the full sensory information 
gained from an in-person interview. Given the demands of our high-
volume processing environment, security and budget constraints, other 
processing and automation initiatives represent better and more 
efficient uses of our resources.
    As we consider each of these strategies to address higher visa 
demand, I can assure you that foremost in our minds is the need to 
maintain vigilance against travelers who want to do us harm. We have 
seen time and again that extremists will exploit any vulnerability. 
None of the provisions I am sharing with you have diminished in any way 
the security screening that is an essential part of the visa process. 
Some actually improve the efficiency of our security procedures. We 
believe that security and travel facilitation are not mutually 
exclusive. Along with our interagency partners, we continue to seek 
solutions that maintain an appropriate level of caution while 
minimizing disruption and inconvenience for legitimate travelers.
Appointment Wait Times
    The steady increase in visa demand worldwide has resulted in longer 
wait times to obtain visa interviews at some of our posts. The Bureau 
of Consular Affairs has set a goal that wait times for an appointment 
should not exceed 30 days. In fact, around 90 percent of our posts 
currently have wait times of less than 20 days and 74 percent have wait 
times of less than 7 days.
    Unfortunately, in about 10 percent of our posts, wait times still 
exceed 20 days and sometimes stretch longer than our 30-day target. 
This includes Brazil and some posts in China. We will continue to focus 
resources on these posts, but cannot immediately assign enough 
qualified adjudicating officers to bring down these wait times in the 
next few months.
    Despite wait times, we have seen trade with and tourism from these 
countries surge ahead unchecked. In fact, the number of U.S. arrivals 
from countries with higher visa appointment wait times--Brazil, China, 
and India--boomed last year, and even grew at a rate faster than 
arrivals coming from most VWP countries. Moreover, U.S. exports to 
Brazil, China, and India also continue to climb. Assistant Secretary 
Jacobs has mandated that we develop a twenty-year plan to meet visa 
demand in China, Brazil and India. We are just completing our plan for 
China with ambitious goals in staffing, facilities and other resources. 
We expect that, by continuing to streamline our visa processing 
systems, and by carefully allocating our resources, we will cut back on 
the wait times and continue to facilitate travel and trade in these 
countries.
    All of our overseas posts have business facilitation programs or 
other procedures to expedite visa appointments for business travelers 
with legitimate needs for earlier dates. In addition, we give priority 
in scheduling appointments for student visa applicants, so they can get 
to the United States in time for the start of the semester.
    As we work to transform our visa operations to meet an ever-growing 
demand for travel, the Bureau of Consular Affairs will continue to 
consult with the trade and business communities and the travel 
industry. We understand that foreign tourism and business are important 
economic engines. We recognize the value American business places on 
emerging markets such as in China and India. While in China last March, 
I met with American business leaders in Beijing and American Chamber of 
Commerce members in Guangzhou. Assistant Secretary Janice Jacobs has 
also recently visited our posts in Brazil, India, and China.
    While much of our consular operation is primarily funded on the 
basis of fee-for-services, deep budget cuts could reduce the 
administrative platform overseas that supports visa operations and 
limit the options available to us in the future.
    The Bureau of Consular Affairs will continue its commitment to meet 
the needs of international travel and trade to the extent possible. 
This is important not only to our Nation's economy, but maintains 
America's reputation for openness, fostering exchange, and seeking 
mutual understanding.

    Senator Klobuchar. Thank you, very much, Mr. Donahue.
    Mr. Wagner.

         STATEMENT OF JOHN WAGNER, EXECUTIVE DIRECTOR,

        ADMISSIBILITY AND PASSENGER PROGRAMS, OFFICE OF

           FIELD OPERATIONS, U.S. CUSTOMS AND BORDER

        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Chairwoman Klobuchar, Ranking Member Blunt and 
distinguished members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the roles of U.S. 
Customs and Border Protection in the implementation of the 
Travel Promotion Act and CBP's efforts to facilitate legitimate 
trade and travel while securing our nation's borders.
    CBP is responsible for securing our nation's borders while 
facilitating the movement of legitimate travel and trade vital 
to our economy. CBP is the largest uniformed federal law 
enforcement agency in the country, with about 20,000 CBP 
officers stationed at air, land, and seaports nationwide. These 
forces are supplemented with approximately 2,300 agriculture 
specialists and other professionals.
    On average, CBP processes approximately 352 million 
travelers a year at ports of entry, and processes 25.8 million 
in trade entities annually.
    To counter the threat of terrorism and secure our borders, 
CBP relies on a balanced mix of professional law enforcement 
personnel, advanced technologies, and modernized facilities and 
infrastructure both at and in between the ports of entry. Using 
Advanced Passenger Information and our National Targeting 
Centers, CBP Officers utilize advanced targeting, screening, 
and inspection technologies to quickly identify persons or 
cargo that warrant additional security, and address document 
deficiencies without unduly impeding the traveling public or 
commerce.
    In January 2006, the Department of Homeland Security in 
collaboration with the Department of State introduced a vision 
to enhance border security while streamlining security 
processes and facilitating legitimate travel.
    As a result, the Model Ports Initiative was developed by 
CBP in partnership with industry stakeholders to improve the 
arrival experience for international travelers through 
improvements to staffing, signage, brochures, instructional 
videos, and technology. The initiative has been a great 
success, and there are now 20 model airports in the continental 
United States.
    A key part of this has been the Passenger Service Managers. 
Passenger Service Managers have been designated at each model 
port to ensure that any customer concerns during the inspection 
process are immediately addressed. Posters displaying the name 
and contact information of the Port Director and the Passenger 
Service Manager are displayed throughout the inspection 
processing area.
    Model ports have also established joint working groups with 
airport authorities and carriers to improve wait times.
    CBP is currently piloting two initiatives to more 
efficiently process travelers and reduce wait times.
    In May 2010, CBP designated primary inspection lanes for 
international travelers arriving at Houston's Intercontinental 
Airport without checked baggage. This pilot program called One 
Stop allows approximately 800 passengers per day to bypass the 
baggage carousels and exit the federal inspection service area 
more quickly. Initial results suggest that users of One Stop 
will save approximately 17 minutes per trip as a result of 
participation in the program.
    Further, passengers with luggage will also benefit from 
shorter wait times due to the fewer number of passengers in the 
main lanes.
    Another program, called ``Express Connection'' designates 
primary inspection lanes for travelers with closely scheduled 
connecting flights. Airline personnel or the terminal operator 
identify eligible travelers and direct them to designated 
primary lines for CBP processing. Express Connection is 
currently operational at five of CBP's model ports and we are 
currently using the best practices learned at these locations 
to develop a set of guidelines for implementation at other 
ports around the U.S.
    Initial results suggest that the Express Connection program 
could save the air carriers $2.2 million to $3.5 million per 
year by reducing the number of missed connections. This cost 
savings are a result of avoided overnight stay, passenger 
reimbursements, or rebooking costs.
    In an effort to further improve model ports, CBP, in 
coordination with the DHS private sector office, and travel 
industry representatives have developed a customer service 
survey that will be conducted this spring.
    Currently we also use common cards that are available at 
all ports of entry, and will be used in addition to the survey 
to serve as a benchmark for passenger satisfaction, and CBP 
professionalism at the 20 model ports.
    We're continuing to enhance and expand our trusted traveler 
programs so that we can better focus our attention on higher 
risk, unknown travelers. Global entry is aimed at facilitating 
lower risk travelers in the air environment. Global entry 
members use automated kiosks at the 20 designated airports or 
the model ports to complete their CBP declarations, allowing 
travelers to bypass the regular passport control queues, 
helping to reduce overall wait times for other travelers as 
well.
    Today global entry has 121,000 members, reduced the average 
wait times for participants by more than 70 percent with 131 
kiosks, used nearly 800,000 times, approximately 16,600 CBP 
inspectional processing hours have been saved.
    Similar to global entry, Nexus, a bilateral program with 
the Canadian Border Services Agency, offers pre-approved low-
risk travelers' expedited travel between the U.S. and Canada, 
through designated lanes and kiosks at the land borders and at 
airports.
    The Sentry Program offers the same benefits at the U.S.-
Mexico land border ports.
    CBP is currently working to integrate these trusted 
traveler programs into a single application process that will 
allow members to choose benefits in the various travel 
environments based on their particular needs.
    Also helping to expedite land border travel, CBP has been 
launching ready lanes. A Ready Lane is a vehicle primary lane 
that accepts only RFID-enabled travel documents.
    In June 2010, CBP launched a Ready Lane pilot at the 
Ambassador Bridge in Detroit. On the southern border the first 
lane opened in October 2010, in Del Rio, Texas. In December 
2010, we opened a lane in El Paso.
    Just last week we opened lanes in Donna-Rio Bravo in 
Progresso, Texas as well, and we're opening lanes in Arizona 
this week.
    The results to date suggest that this program successfully 
expedites the flow of legitimate travel. Vehicle through put 
has increased by as much as 25 percent in these lanes and wait 
times for travelers with RFID-enabled documents to have been 
reduced by an average of 12 seconds per vehicle. CBP plans to 
deploy ready lanes in additional high-volume lane-crossings in 
the near future.
    The successful implementation of ESTA has also helped us to 
facilitate the flow of legitimate travel. ESTA is used to 
determine the eligibility of visitors to travel to the U.S. 
under the Visa Waiver Program.
    It provides DHS with the ability to conduct advance 
screening of VWP travelers, enabling DHS to preclude some 
travelers who are ineligible for the VWP from initiating travel 
to the United States.
    We've even used the electronic information gathered through 
ESTA to eliminate the Form I-94W, which is a paper form that 
provides a record of VWP arrivals and departures for foreign 
visitors.
    Automation of the I-94W was completed in the summer of 2010 
and resulted in up to a 58 percent reduction in inspection 
processing time for VWP applicants.
    Senator Klobuchar. Mr. Wagner, you've gone over your time.
    Mr. Wagner. OK.
    Senator Klobuchar. If you just sum it up here?
    Mr. Wagner. Yes. With that I thank you for the opportunity 
to testify on behalf of CBP.
    [The prepared statement Mr. Wagner follows:]

 Prepared Statement of John Wagner, Executive Director, Admissibility 
 and Passenger Programs, Office of Field Operations, U.S. Customs and 
        Border Protection, U.S. Department of Homeland Security

Introduction
    Chairman Klobuchar, Ranking Member Blunt, and distinguished members 
of the Subcommittee: thank you for the opportunity to appear today to 
discuss the role of U.S. Customs and Border Protection (CBP) in the 
implementation of the Travel Promotion Act and CBP's efforts to 
facilitate legitimate trade and travel while securing our Nation's 
borders.
    CBP is responsible for securing our Nation's borders while 
facilitating the movement of legitimate travel and trade vital to our 
economy. Our purview spans more than 3,900 miles of border with Canada, 
1,900 miles of border with Mexico, and 2,600 miles of shoreline. CBP is 
the largest uniformed federal law enforcement agency in the country, 
with over 20,700 Border Patrol Agents operating between the ports of 
entry and more than 20,600 CBP officers stationed at air, land, and sea 
ports nationwide. These forces are supplemented with approximately 
1,200 Air and Marine agents and 2,300 agricultural specialists and 
other professionals. On average, CBP processes approximately 352 
million travelers a year at ports of entry and processes 25.8 million 
in trade entities annually.
    To counter the threat of terrorism and secure our borders, CBP 
relies on a balanced mix of professional law enforcement personnel, 
advanced technologies and modernized facilities and infrastructure both 
at and between the ports of entry. Using Advanced Passenger Information 
and our National Targeting Centers, CBP Officers utilize advanced 
targeting, screening and inspection technologies to quickly identify 
persons or cargo that warrant additional scrutiny and address document 
deficiencies without unduly impeding the traveling public or commerce.

Model Ports Initiative
    In January 2006, the Department of Homeland Security (DHS) and the 
Department of State (DOS) introduced a joint vision to enhance border 
security while streamlining security processes and facilitating 
legitimate travel. As a result, the Model Ports Initiative was 
developed by CBP in partnership with industry stakeholders to improve 
the arrival experience for international travelers through improvements 
to staffing, signage, brochures, instructional videos, and technology. 
The initiative has been a great success and there are now 20 Model 
Airports in the continental United States.
    In addition, Passenger Service Managers (PSM) have been designated 
at each Model Port to ensure that any customer concerns during the 
inspection process are immediately addressed. Posters displaying the 
name and contact information of the Port Director and PSM are displayed 
throughout the inspection processing area, allowing travelers to 
contact port management regarding their experience during the 
inspection process. PSMs have been given training on de-escalating 
stressful situations and are tasked with providing professionalism and 
cultural sensitivity updates and training to CBP officers.
    The Model Ports have established joint working groups with airport 
authorities and carriers to improve wait times. New line posts and 
other modifications have been made to improve queuing efficiency and 
ultimately reduce overall processing time. CBP is currently piloting 
two initiatives to more efficiently process travelers and reduce wait 
times, including a pilot to provide designated processing areas for 
passengers arriving with no checked baggage and a new process for 
passengers arriving with tight connections to coordinate with air 
carriers in order to decrease the number of missed connections from 
international flights. I will discuss these pilots in more detail later 
in my testimony.
    CBP is constantly working to further improve the Model Ports. In 
coordination with the DHS Private Sector Office and travel industry 
representatives, we have developed a customer service survey to allow 
us to evaluate and improve the Model Ports Initiative. The survey will 
be conducted in the spring of 2011 and results should be available 
within a few months. Customer feedback is also collected through the 
Comment Card program. Comment Cards are available and distributed at 
all ports of entry and results are distributed monthly to the ports of 
entry so that managers can appropriately adjust procedures in order to 
ensure efficient processing. The Comment Card program and the upcoming 
survey will serve to benchmark passenger satisfaction and CBP 
professionalism at the 20 Model Ports of Entry.

Global Entry
    We are continuing to enhance and expand our trusted traveler 
programs, which expedite the processing of known, low-risk travelers so 
that we can better focus our attention on higher-risk, unknown 
travelers. Global Entry, CBP's newest trusted traveler program, which 
launched in 2008, is aimed at facilitating low-risk travelers in the 
air environment. To use Global Entry, applicants must pass a thorough 
security assessment to include biographic- and fingerprint-based 
database checks and an interview with a CBP officer. Applications for 
membership in the program can be submitted online using CBP's Global 
Online Enrollment System. Using automated kiosks at the 20 designated 
airports of the Model Ports Initiative, Global Entry Members may bypass 
the regular passport control queues, and complete their CBP 
declarations via touch screen.
    To date, more than 121,000 travelers have enrolled in the Global 
Entry program. Global Entry has reduced average wait times for Global 
Entry users by more than 70 percent for the participants, with more 
than 75 percent of travelers using Global Entry processed in less than 
5 minutes. The 131 Global Entry kiosks have been used nearly 800,000 
times, equal to approximately 16,600 CBP inspectional processing hours. 
These hours are then expended on the normal passenger processing, 
helping to reduce overall wait times.
    Global Entry membership is currently limited to U.S. citizens, U.S. 
lawful permanent residents (LPRs), Canadian citizens, and Mexican 
citizens. Additionally, in a joint arrangement with the Netherlands, 
CBP allows Dutch citizens to participate in Global Entry, and U.S. 
citizens to participate in the Dutch trusted traveler program, FLUX. 
CBP is also engaging in discussions with several other countries--
including the United Kingdom, Germany, Korea and Japan--for similar 
arrangements to exchange trusted traveler membership benefits.
    Global Entry provides similar benefits as the NEXUS and SENTRI 
trusted traveler programs. NEXUS is a bilateral program with the 
Canadian Border Services Agency (CBSA), which offers pre-approved, low-
risk travelers expedited travel between the U.S. and Canada through 
designated lanes and kiosks at the land border and in airports. SENTRI 
offers pre-approved, low-risk travelers expedited entry into the U.S. 
through designated lanes at the U.S.-Mexico land border ports. Like 
Global Entry, membership in these programs is valid for 5 years, and 
the application process, membership requirements, and standard of 
vetting are the same. Beginning in December 2010, all NEXUS members and 
all U.S. citizens and LPRs in SENTRI were extended Global Entry 
benefits at no additional fee. In addition, Global Entry eligibility 
was extended to qualifying Mexican citizens. CBP is currently working 
to integrate all of its trusted traveler programs into a single 
application process that will allow members to choose benefits in the 
various travel environments based on their particular needs.

Ready Lanes
    A Ready Lane is a vehicle primary lane that only accepts travelers 
using RFID-enabled travel documents. In June 2010, CBP launched a Ready 
Lane pilot at the Ambassador Bridge in Detroit. In October 2010, the 
first Ready Lane along the southern border opened in Del Rio, Texas, 
and in December 2010, a Ready Lane opened in El Paso, Texas. The 
results to date suggest that this program successfully expedites the 
flow of legitimate travel. Vehicle throughput has increased as much as 
25 percent in these lanes and wait times for travelers with RFID-
enabled documents have been reduced by an average of 12 seconds per 
vehicle. CBP plans to deploy Ready Lanes to additional high volume land 
crossings in the near future.

Private Sector Partnerships and Innovations
    As I mentioned earlier, CBP, in coordination with our private 
sector partners, is currently piloting two initiatives to more 
efficiently process travelers and reduce wait times. Starting in May 
2010, CBP designated primary inspection lanes for international 
travelers arriving at Houston's George Bush/Houston Intercontinental 
Airport without checked baggage. Under this program--called 
``OneStop''--approximately 800 passengers per day are allowed to bypass 
the baggage carousel and exit the federal inspection service area more 
quickly. Initial results suggest that users of OneStop will save 
approximately 17 minutes per trip as a result of participation in the 
program. Further, the initial results suggest that passengers with 
luggage will also benefit from shorter wait times due to the fewer 
number of passengers in the main lines.
    Another program, called ``Express Connection,'' designates primary 
inspection lanes for travelers with closely scheduled connecting 
flights. Airline personnel or the terminal operator identify eligible 
travelers and direct them to designated primary lanes for CBP 
processing. ``Express Connection'' is currently operational at five of 
CBP's Model Ports of Entry and we are currently using the best 
practices learned at these locations to develop a set of guidelines for 
implementation at other ports of entry around the U.S. Initial results 
suggest that the ``Express Connection'' program could save air carriers 
$2.2 million to $3.5 million per year by reducing the number of missed 
connections. This cost savings manifest as avoided overnight stay 
passenger reimbursements or rebooking costs.

ESTA
    The Electronic System for Travel Authorization (ESTA) was one of 
the security enhancements mandated by the Implementing Recommendations 
of the 9/11 Commission Act of 2007. ESTA is an automated system used to 
determine the eligibility of visitors to travel to the United States 
under the Visa Waiver Program (VWP) and whether such travel poses a law 
enforcement or security risk. ESTA provides DHS with the ability to 
conduct advance screening of VWP travelers, enabling DHS to preclude 
some travelers who are ineligible for the VWP from initiating travel to 
the United States. Prior to ESTA, VWP travelers did not undergo any 
screening prior to their arrival in the United States--their 
application for entry to the United States occurred upon arrival.
    To facilitate the ESTA application process for VWP travelers, the 
ESTA website is available in 21 languages in addition to English and 
contains links or pop-up windows with additional information. The 
implementation of ESTA has been very successful, with a compliance rate 
of more than 99 percent and with more than 99 percent of applications 
receiving an immediate decision.
    The Travel Promotion Act of 2009 required that DHS establish a fee 
for the use of ESTA, consisting of $10 per travel authorization to fund 
travel promotion activities, plus an amount that will ensure recovery 
of the costs of providing and administering ESTA. CBP conducted an ESTA 
fee analysis and determined that a $4 fee is necessary to ensure 
recovery of the full costs of providing and administering ESTA. 
Therefore, effective September 8, 2010, CBP began collecting a $14 fee 
for each ESTA application.
    The successful implementation of ESTA has helped us to facilitate 
the flow of legitimate travel. We now use the electronic information 
gathered through ESTA to eliminate the Form I-94W--a paper form that 
provides a record of VWP arrivals and departures--for foreign visitors 
arriving by air and sea. Automation of the I-94W was completed in the 
summer of 2010 and resulted in a 58 percent reduction in the inspection 
time for VWP applicants for admission--streamlining passenger 
processing and improving the overall traveler experience at our ports 
of entry.
    CBP is currently looking into the possibility of automating the 
regular Form I-94--the paper record of arrivals and departures by non-
VWP travelers--by using data from the Advanced Passenger Information 
System (APIS) program. APIS collects biographic information on a 
person's travel document--enabling air carriers to submit pre-arrival 
and departure manifest data on all passengers and crew members.

IAP
    The Immigration Advisory Program (IAP) is part of CBP's layered 
border strategy designed to prevent terrorists and other high-risk 
travelers from boarding commercial aircraft bound for the United 
States. IAP officers are posted in a number of foreign airports and use 
the full array of CBP's pre-departure screening capabilities, as well 
as skills in passenger analysis, interviewing, and document 
examination, to identify high-risk passengers prior to departure.
    IAP officers make a ``no board'' recommendation to carriers and 
host governments regarding passengers bound for the U.S. IAP and ESTA 
reduce the number of passengers who are declared inadmissible upon 
arrival in the United States. In addition to the clear security benefit 
of this advanced screening, these programs help air carriers avoid 
penalties for transporting inadmissible passengers and having to 
provide for the cost of transporting the passenger to their origin 
point.
    In addition to IAP, CBP Regional Carrier Liaison Groups (RCLG) 
located in Honolulu, New York (JFK), and Miami are now involved in pre-
departure targeting for all high-risk travelers. RCLGs assist CBP in 
denying boarding to mala fide passengers on all flights destined to the 
United States from foreign locations that do not have an IAP presence. 
This expands the Nation's zone of security beyond our physical borders 
by preventing passengers who may be inadmissible, or who possess 
fraudulent documents, from traveling to the United States. The RCLGs 
also work with carriers to facilitate the boarding of U.S. citizens and 
other bona fide travelers who may encounter issues with their travel 
documents, and provide 24/7 assistance on other immigration related 
issues.

Conclusion
    Chairman Klobuchar, Ranking Member Blunt, and distinguished members 
of the Subcommittee, thank you again for this opportunity to testify on 
behalf of U.S. Customs and Border Protection. DHS is committed to 
securing our Nation's borders while facilitating the movement of 
legitimate travel and trade so vital to our economy. I would be pleased 
to answer your questions.

    Senator Klobuchar. That's a really nice summary.
    [Laughter.]
    Senator Klobuchar. All right. Well, I first wanted to thank 
all of you. I mean, clearly, this has been on your mind. I know 
that we've been working with you for years on this, and I want 
to appreciate it.
    I also am thinking of your boss, Secretary Locke, will be 
on the front line, we hope in China, actually dealing with 
this, so this is going to be good. He's going to be able to 
like put his work into practice when he gets to China.
    And, that, obviously Secretary Clinton and Secretary 
Napolitano, both come from states where tourism is near and 
dear to their hearts. So, I appreciate the work that's being 
done.
    I wanted to first get to Mr. Donahue about the visa wait 
times; and I appreciated those numbers about how tourism has 
been. We've seen the increases with the economy improving. 
That's great. Probably some of your work has helped, but the 
international market has improved; and I think you said 16 
percent increase, something like that, Ms. Lamb-Hale, but the 
issues is that our share is still not where it was back in, 
say, 2000.
    I think the number we had was that if we could get back to 
our market share now with the improved numbers that we could 
get an additional 19 million visitors by 2015.
    So, I'm glad we're doing a little better, but we have to do 
much better.
    So one area of concern is the recent spike in visa 
processing times in certain countries. We have a chart here, I 
think, that we were going to show. Wait times last year in 
China and Brazil exceeded the State Department guideline of 30 
days.
    As you can see, what happened--this snapshot of China and 
Brazil, 48 days, 101 days, and you compare that to the U.K., 
and you can see why a visitor might choose to go to the U.K., 
instead of going to the United States.
    I guess a few questions: Why does the State Department 
decide on a 30-day guideline, and why does it compare so 
unfavorably with processing times for other countries in their 
China consulates?
    And I know you're doing things to improve it, but that's my 
question.
    Mr. Donahue. Thank you very much for the question. First of 
all, I'd like to say that the times do change during the year, 
but those were certainly the--some of the worst times we saw in 
China and Brazil, and that those are things that we try to 
fight against.
    The comparison with the U.K.'s is quite different because 
of the different theory of visa adjudication. They do interview 
by exception, which means that in most cases people do not come 
in for an interview. We do, almost universal interview, and 
that makes a big difference.
    So, in the case of China, they have visa application 
acceptance centers, but those applicants don't go to an embassy 
or consulate in China to meet with a British officer, to have 
their visa eligibility determined. So, that's probably the 
biggest difference in the difference in wait times.
    Senator Klobuchar. OK; and we know one of the ideas--I 
tossed out some ideas here at the beginnings of how we can deal 
with this, getting more consular officers--temporary consular 
officers when you have, sort of hot spots like this, where we 
want to meet the demand, and it can be paid for, I understand, 
from the visa application fees.
    Could you explain how that works, and would we need any 
Congressional action to ensure that the additional temporary 
consular officers will be self-funded through the increased 
fees that they would generate, so we're not taking it off the 
backs of taxpayers?
    Mr. Donahue. We are looking at every option for sending 
more officers overseas, having more visa-adjudicating officers.
    We start with our officers we have. As I said, we 
repositioned a number of officers. For example, when Korea went 
to visa waiver, we moved a number of those officers into other 
posts that had a greater demand.
    We're looking at all of our posts to make sure that the 
officers there need to be there; whether we can do with one 
officer rather than two in some of our--our smaller posts, so 
that we have those officers. In addition to that----
    Senator Klobuchar. I'm just trying to think outside----
    Mr. Donahue. Yes. No----
    Senator Klobuchar.--the box before we have that so that----
    Mr. Donahue. Right.
    Senator Klobuchar.--we meet this demand and get these 
people to come to our country instead of Great Britain.
    Mr. Donahue. Right. In addition to that, we are--we are 
looking at the idea--well, not looking at the idea--we're 
moving forward with a plan to hire limited non-career 
appointments. These will be language scholars. We would 
envision people who already have Portuguese or Chinese, who 
would be hired for a limited maximum of 5 year-appointments. 
They would go through the same training, and they would have 
most of the same requirements to enter into the program as a 
foreign service officer would be, but they would not be life-
long career people expected to have a life-long career in the 
Foreign Service.
    Senator Klobuchar. So, would you need Congressional 
authorization to get more of those or----
    Mr. Donahue. No, we would not.
    Senator Klobuchar.--to do that.
    And they could just pay for themselves with these visa 
applications?
    Mr. Donahue. They will be able to pay for themselves, their 
salaries, their individual costs through visa operations. There 
are--as I mentioned earlier, there are a number of systemic 
issues at the platform.
    All the things that go with having a physical place to be, 
those generally are not paid for out of visa fees, and they 
would come out of the State Department budget if we had to have 
more windows, if we build more buildings. And we're looking at 
that.
    Senator Klobuchar. OK. Because we know we get a lot of 
money out of this when they come to our country, so I'm just 
trying to figure out one other issue. How about extending the 
certain low-risk visas' length? For example, why should a high-
level Chinese business executive, making repeated trips to the 
U.S., need to re-apply for a visa every single year? What do 
you think about the idea of allowing consular officials the 
flexibility to grant longer visa validating periods?
    Mr. Donahue. Well, we fully support the idea of having 
maximum validities with our partner countries, and, of course, 
we have 10-year visas in both Brazil and India, and many, many 
other countries.
    China has been a difficult situation, because by law we're 
required to have visas issued in the validity that matches that 
of the country that--of how that country treats Americans going 
to that country. And we have been in negotiations with the 
Chinese.
    And I welcome anything that you can do, that the members 
here can do, that our business colleagues can do to encourage 
China to open up, allow Americans to have long-term visas, to 
travel to China; and we look forward to extending the visa 
validity because we're----
    Senator Klobuchar. OK, very good. I'm going to turn it over 
to my colleagues here, but just two things we suggested: One 
would be an agreement with China, but the first, a temporary--
temporary consular officials, you could just do that on your 
own, if you wanted. And it's just you have some issues with 
space and management; but I just wanted to make that clear.
    Mr. Donahue. Yes.
    Senator Klobuchar. All right, thank you very much.
    Senator Blunt.
    Senator Blunt. What is the China time-frame for Americans 
visiting China?
    Mr. Donahue. Americans visiting China, I think they can get 
up to 1 year--a business person can, but it is very rare. We 
don't see that very often. Quite often we see a single entry, 3 
months; and we are pushing very hard that they need to extend 
their visa.
    Senator Blunt. And we give a visa for how long?
    Mr. Donahue. We usually give 1 year.
    Senator Blunt. One year----
    Mr. Donahue. Multiple entries.
    Senator Blunt.--their maximum time.
    Mr. Donahue. Yes, correct.
    Senator Blunt. Mr. Wagner, on the model ports, are we 
moving toward more model ports of entry? How many other ports 
are there, and what--are we moving toward having all our ports 
be model ports of entry?
    Mr. Wagner. Yes, some of the things we've implemented under 
the Model Ports Initiative we are looking at broader 
application.
    The 20 model ports covers the great majority of the air 
traffic to the United States. So, it's some of the less-busy 
airports that would not be considered in that topic.
    Senator Blunt. Have they all met the model port standards; 
and what have you learned from the 20 different applications of 
model ports?
    Mr. Wagner. We've learned a lot of things. We've changed 
the way we queue people up and line them; we've taken a lot of 
lessons from the private industry, just on how we queue people 
through. We have a lot of work to do, still on some of the 
conditions of the facilities.
    We're working closely with the airport authorities to make 
the physical environment more welcoming and more open and--and 
really just a nicer environment to arrive in, when they come 
into the United States, that's the first thing you see on 
arrival.
    We've made great progress in some of the airports with 
that. They've been very well worked with us with clearer 
signage, bright, open, friendly, welcoming physical 
environments as well.
    We've redesigned our entire basic inspection academy for 
new officers with a renewed focus on professionalism, just in 
how they carry their day-to-day activities, how they answer 
people. We've given the officers in the front lines specific 
scripts, like to say, welcome home, or welcome to the United 
States; and we're finding just those little key things that, 
you know, we thought we were doing a much better job than we 
were. We just need to remind the officers to continue to focus 
on that, because they have a very, very difficult job to do; 
and when those tired and irritated travelers arrive at those 
ports, it's a very fine line of what we have to do not to set 
them off further, right, at irritableness, and you know, just 
like little things, like welcome home or welcome to the United 
States, goes a long way to----
    Senator Blunt. Ms. Lamb-Hale, under the Travel Promotion 
Act, is there any of that funding be available for physical 
improvements in some of these facilities?
    I think your mike is not on.
    Ms. Lamb-Hale. Thank you so much for the question. Under 
the Travel Promotion Act, the ESTA fees that we mentioned are 
available to fund the activities of the Corporation for Travel 
Promotion to promote the United States. We really need to work 
together with industry to improve the facilities that folks who 
visit our ports of entry see and to help with that, making that 
experience better.
    Senator Blunt. I think that we'll talk if we have the 
people who are on the Board up later, but I think maybe some of 
that could be used to even encourage some kind of matching 
program at some of these facilities, because I think what Mr. 
Wagner mentioned is really a key to the first place you see in 
the United States is often not what you'd hoped to see at the 
place you've invested your time and money to come and visit.
    Mr. Donahue, how many countries are on the Visa Waiver 
Program?
    Mr. Donahue. Thirty-six.
    Senator Blunt. And, what was the last country that we 
added?
    Mr. Donahue. The last country was----
    Senator Blunt. Was it Malta? Have we added anything since 
Malta?
    Mr. Donahue.--I'm thinking Greece was the very last one.
    Senator Blunt. And that was what, then?
    Mr. Donahue. That was 2010.
    Senator Blunt. 2010 we did add Greece in 2010? And whose--
is there a list, now, of countries that are trying to get 
there?
    Mr. Donahue. I can defer to my colleague from CBP, but we 
are talking to a number of countries who are interested. There 
are a number of steps. But we are not in--right now we are 
looking at the countries who came on. We brought in nine new 
countries in 2009-2010, and we are getting them up to speed--
are getting the old countries, the countries that have been in 
for a long time, to meet the same standards as the new 
countries we brought on.
    Senator Blunt. And, is that done by Mr. Wagner's 
organization, as opposed to yours?
    Mr. Donahue. It's--it's an interagency. But we work closely 
with our colleagues in CBP and other agencies--with the 
interagency.
    Senator Blunt. That's what I thought, and I was a little 
confused when you'd defer on that----
    Mr. Donahue. Yes.
    Senator Blunt.--to them.
    So, what's the list look like, now, of countries that are 
in the process? Does anybody have that?
    Mr. Wagner. I don't have it offhand.
    Senator Blunt. If you don't, would you get it?
    Mr. Wagner. Yes, we can get it.
    Senator Blunt. I'd like to know which countries you're 
working with, and some sense of where they are in the process 
of accommodating the way they have to change their procedure 
for us to be comfortable with that procedure; and in the 
countries that we have added to the visa waiver list in the 
last 4 or 5 years, I'd also be interested in any increase in 
travel from those countries; do either of you have that?
    Mr. Wagner. I don't have that today. I know that, in 
particularly in Korea, the last year has seen a huge increase 
in travel to the United States.
    Senator Blunt. Yes. Give me those numbers of the people 
we've added since 2005--the countries we've added, rather; and 
what's happened with the travel from those countries as they 
have been able to benefit from visa waiver.
    And, then Ms. Lamb-Hale, as I recall the Travel Promotion 
Act, the fee that's used for that Act is a fee on individuals 
from visa waiver countries, right? Is that right?
    Ms. Lamb-Hale. It's correct. It's part of the travel 
authorization system, and that fee does not come from taxpayer 
dollars.
    Senator Blunt. Right.
    Ms. Lamb-Hale. It comes from the travelers.
    Senator Blunt. It comes from the travelers----
    Ms. Lamb-Hale. Yes.
    Senator Blunt.--and we anticipate will amount to how much 
annually?
    Ms. Lamb-Hale. You know, I can certainly get that number to 
you. I know that those numbers are pretty impressive, though, 
Senator.
    So, I think that we'll have a great opportunity to use 
those funds to really improve the experience of folks who are 
traveling to the United States.
    Senator Blunt. Have you----
    Ms. Lamb-Hale. But I can certainly provide that.
    Senator Blunt.--have you given the new Board a number to 
work with this first year, of money they should anticipate 
coming in?
    Ms. Lamb-Hale. I can get that to you, Senator.
    Senator Blunt. All right.
    Ms. Lamb-Hale. I don't have the exact figure.
    Senator Blunt. Maybe if you don't have it, they will. I 
think they'll be up next, but if not, I'd like to see that.
    Ms. Lamb-Hale. Yes, we can get that to you.
    Senator Blunt. Thank you, Chairman.
    Senator Klobuchar. Very good. Thank you.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Donahue. Do we have any 
statistics on, like for everyone you add, how many more 
tourists we could bring to the United States each year?
    Mr. Donahue. We don't have a figure for that, and a visa 
officer can do somewhere between 8 and 12, depending on--
thousand visas a year, depending on the country where they're 
serving. So, it varies quite a bit. And, I think it's important 
to know that if you issue a visa in most countries, maybe you 
only see that person once in their whole life because we can, 
again, renew the visa even after those 10 years, without them 
coming in.
    So, there's a multiplier effect on those who have--once 
they have their visa.
    Senator Ensign. The reason I bring that up is it seems like 
a pretty easy numbers game to justify, you know, hiring the 
extra staff to do, basically, whatever it takes, especially in 
these kind of economic times. I mean, my state's not the only 
one that's very tourism-dependent. The entire country benefits 
greatly from these overseas travelers, and even when they come 
to visit one of our specific states, international travelers 
usually travel to several places in the United States.
    So, I think just from an encouragement standpoint, we can't 
encourage you enough. I can't tell you, across my state, how 
many people have told me that their customers wait, and wait, 
and wait, to get to the United States.
    You're seeing the huge explosion of gaming in Macau. A lot 
of those people actually want to come to the United States. And 
we talk about the balance of trade, you know, and those are 
dollars that come to the United States instead of dollars that 
obviously go to Macau; and those can create jobs here. And, 
it's not just obviously gaming; it's all of the other, you 
know, benefits; the people that come here to do that also go to 
the Grand Canyon; they go to the Mall of America; they, you 
know, people like to visit Alaska. All of those other places 
that we have, the reason that we wanted the Travel Promotion 
Act in the first place, because we know we have so much to sell 
here in the United States.
    So, you know, I want to add my voice to the Chairman here, 
that it is critical that we start adding some of these people, 
and do it as quickly as possible. And, you know, I've talked to 
quite a few people who are now learning Mandarin just because 
of the opportunities, not only in China, but some of them are 
actually having trouble finding jobs; so you may want to 
advertise this. If this is something that you all are going to 
be hiring for, you may want to get the word out there, because 
there are a lot of people who are looking for jobs, and this 
may be a place where they could find some of those.
    Some of the proposals being advocated by the private sector 
include doubling the number of visas by some of these 
countries--China, Brazil, and India--and allowing Brazil to 
enter the Visa Waiver Program, taking greater advantages the 
Chairman talked about, about video-conferencing.
    Can you discuss some of those issues, what you all are 
doing?
    Mr. Donahue. Sure. As I mentioned earlier, the first thing 
we're trying to do is make sure that we can get those people in 
and get the interviews quickly. And, we share your concern for 
doing that. We understand the importance to our economy, as 
does Secretary Clinton.
    The idea of video conferencing is one that we have tried. 
It does not--there are two problems with it: we don't think it 
will be more efficient; in other words, we will not interview 
more people--won't bring more people in, and in fact, will have 
just the opposite effect--impact. We believe that the process 
of video interviewing will--an officer will be able to do less 
interviews a day.
    In addition, the purpose of the in-person interview is to 
really assess the person who's standing in front of you, to 
make a determination whether they're going to use the visa 
properly. And, in a two-dimensional Skype-type situation, even 
with the best technologies, we don't believe that we'll be able 
to make those decisions, because it's a three-dimension live 
presence that we feel is very important.
    Senator Ensign. Why do they feel safer than we do? What was 
the decisionmaking process there?
    Mr. Donahue. Yes. This is a different theory, I think, when 
you look at that. We made a decision, after 9/11 that we needed 
to have that personal interview when we were going to issue a 
visa to someone. We felt that that was very important to our 
national security, and it was placed in the law following 9/11.
    So, it's a different theory. I think there's another thing 
about the vastness of our country and the openness of our 
society, the fact that we don't have national identification 
cards. We're a free and open society, so that once you've 
arrived here, if your intention is to stay, it's pretty easy to 
do so.
    Senator Ensign. I see my time is up, Madam Chair. I 
appreciate it.
    Senator Klobuchar. Thank you. Senator Begich?
    Senator Begich. Thank you, Madam Chair. Thanks for holding 
this meeting. To the new Ranking Member, thank you also for 
your work on the House side in regards to the tourism industry.
    Let me--several questions, but first, just let me say thank 
you all very much for being here, and being part of helping 
promote the country in getting more visitors here.
    In Alaska, it's a $2 billion business for us; and someone--
in our family we're also in the tourism business a little bit, 
so we know some degree of it. So, let me first--a couple 
questions first to John, if I can--Mr. Wagner, if I could ask 
you--and I'm going to give you a specific issue in Alaska, and 
maybe you could follow up with this, and that is, we have a new 
chartered airline from Europe, it goes from Zurich and 
Whitehouse--or Whitehorse in Canada, but it has a stopover in 
Anchorage.
    But, in 2003 we got rid of a program called IT--ITI, which 
allowed people to get off that plane in a secure area, not 
getting, you know, out of the secure area, and then getting 
back on the plane as they moved back over to their final 
destination, whichever side it was going to.
    Now, if they do that, everyone is required to have a visa. 
When this program was suspended in 2003 there was discussion 
that you revisited it, and to be very frank with you, now the 
airline is considering not doing the stopover in Anchorage 
because of that, honestly, burdensome--they're not leaving the 
secure area, but everyone on the plane will be required to have 
a visa in order for it to have that stopover and to disembark.
    Are you--one, are you familiar with the ITI program, and 
are their efforts to revisit this, I mean from our perspective, 
obviously, that has a direct negative impact on our economy, 
even though it's small, but their landing fees are built to 
refuel there, and also if they stop off in those duty-free 
shops there to shop and spending money in the economy?
    Can you respond to that?
    Mr. Wagner. Yes, thank you for the question. And, in 2003 
in coordination with the Department of State, we did suspend 
the international to international ITI and the transit without 
visa programs based on some very specific credible intelligence 
we had that said that people were going to try to exploit that 
lack of a visa to try to get here and--and do us harm.
    We have not yet re-implemented that program, either one of 
the two. We recognize the--the interest in the carrier 
industry, in the airport industry, to re-employ those kinds of 
programs. I don't think we're comfortable yet with the types of 
security arrangements that I think we would need to re-
implement that type of a program.
    Senator Begich. Have you engaged with the carrier industry 
at all?
    Mr. Wagner. We've had a lot of discussions with them. I'm 
actually headed to LAX later this week to talk with New Zealand 
Air about what they're trying to do through a transit process 
there.
    I'd like to be able to find a way to do it, it's just that 
intelligence is still credible today, and having people coming 
here without the benefits of either a visa or going through the 
ESTA Program for the visa waiver travelers, just doesn't give 
us that visibility into who's here and who's coming, and who's 
arriving, and what their intentions are. So, it's difficult.
    Senator Begich. Are you--but you're not closed to 
continuing trying to find an opportunity for these carriers who 
want to have stopovers in the U.S.?
    Mr. Wagner. Oh, absolutely discuss ideas and--and continue 
to discuss it.
    Senator Begich. Will you keep our office informed as to how 
you progress on some of these discussions you're having?
    Mr. Wagner. Yes, sir.
    Senator Begich. Mr. Donahue, I want to first say, I'm not 
sure I buy the VTC argument, but I'll leave that. I'll tell you 
all the business we do in Alaska, a lot of it we have to do 
through video teleconferencing, but I'll leave that for another 
discussion.
    My question is more of a broader--and that is--and you 
answered a lot about in regards to the expanding the temporary 
or limited time hires. What's the plan? In other words, 
everyone has some concerns, so when are you going to bring 
folks onboard, and what's the volume of people that you'll 
bring onboard; when will they be trained; when will they start 
doing this?
    Mr. Donahue. Well, it's a constant process, and we brought, 
as I mentioned, a number onboard every year. Ramping that up is 
the next step, and so we're looking at--we have a plan that 
shows, you know, as anyone would do, we look at where we think 
the visas are going to go, and in consultation with our folks--
our friends in Commerce, and then we try to make sure that 
we're going to be staffed up to meet that demand. And, it's, 
you know--and we have quite a spreadsheet of how many more 
we'll need at each of the posts we have in China and Brazil.
    Senator Begich. Can I hold you there? Can you share that 
with the Committee?
    Mr. Donahue. I think we can, sure.
    Senator Begich. OK, great. I'm almost out of time, but I 
just have one quick question--or actually, a quick question and 
then just a comment from folks.
    First, Ms. Lamb-Hale, thank you very much for being here, 
and I know, Helen, thank you for traveling to Alaska and going 
on a whirlwind tour. We appreciate that.
    When will you have the permanent position of Director for 
the Office of Travel Promotion in place?
    Ms. Lamb-Hale. Thank you for the question, Mr. Begich. We, 
as I mentioned, do have an interim Director; our Deputy 
Assistant Secretary for Services is currently the Director, and 
we are working through the process, and we do believe, in a 
very short period we will have a permanent Director.
    Senator Begich. Short measure, weeks? Months?
    Ms. Lamb-Hale. I would say in a very short period of time, 
Mr. Begich. I don't want to commit to an exact frame, 
timeframe, but I can tell you that we're very focused on ways 
to maximize the work of the OTP and our existing office that 
Helen Marano runs, of Office of Travel and Tourism industries, 
just to make sure that what we do is efficient and maximizes 
the use of taxpayers' dollars.
    Senator Begich. I'm going to hold you to it to shorten it.
    Ms. Lamb-Hale. OK.
    Senator Begich. And, I'll leave it there, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Begich. The only question I had--but I know this 
panel has to go--and that is, I would just want, maybe for the 
record, very quickly, if there's a government shutdown, what 
happens to the services you all offer, and how many visas will 
not be processed?
    You don't have to answer now, because I think we're out 
of--I'm out of time. I think it's a great--it's an important 
question because I think----
    Senator Klobuchar. So, we'll have them answer that, what, a 
week from now?
    Senator Begich. Yes, because they won't have time, but I 
would love--I mean, if time allows after the--I know Mr.--
Senator Boozman's here, and I don't want to allow him--invade 
on his time, but I'd be very curious, because you're going to 
have thousands of people who won't get visas, I'm guessing, but 
maybe I'm wrong.
    Mr. Donahue. It's a big problem because of, again, our 
officers are paid from fees, but our platform is not--is paid 
from appropriated funds.
    Senator Klobuchar. OK, thank you very much.
    We now move on to Senator Boozman from the state of 
Arkansas, home of tourism spots like the Ozark Mountains and 
Mammoth Hot Springs.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Very good.
    Senator Klobuchar. Thank you.
    Senator Boozman. The Clinton Library and numerous other 
hotspots.
    Senator Klobuchar. Thank you.
    Senator Boozman. But, I do appreciate you and Senator Blunt 
having this hearing.
    I think this is a great example, you know, have a lot of 
stuff going on here, where there's some acrimony, but this is 
an area that, in a very bipartisan way, we all agree, that 
we've got to get this straight.
    And, I think, we talk a lot about the economy and stuff and 
the benefit there, but also there's tremendous benefit from 
people from other countries coming here, experiencing America, 
the image that--I think that's a very positive image.
    So, I'd like to ask just a couple things: One of the things 
that I'm always concerned about, are we working together, to 
get these things done--Commerce Department--and hopefully, this 
is the case--feels like we're going to have a significant 
increase in travel to our country if we can get here.
    Can you tell us a little bit about how you are working 
together to anticipate and meet the growth that we're going to 
have in the future?
    Mr. Donahue. Thank you for the question, Senator. We work 
very closely; in fact, I spend probably as much time with 
Commerce as I do with any agency in the U.S. government. We 
are--I'm on the Travel and Tourism Advisory Board as an ex-
officio member. I'll be going out to--I attend their 
conferences, and we share information. I work with them on--the 
Travel and Tourism Advisory Board on their advice to Secretary 
Locke on what we need to do to improve the visa issuance 
policy. So, I think it's a very close working relationship, and 
we look for ideas with the industry; spend a lot of time with 
the industry.
    Mr. Lamb-Hale. If I could add to that, Senator. By the way, 
I wanted to tell you that my family is from Arkansas, so I know 
Arkansas very well.
    Senator Boozman. Whereabouts?
    Ms. Lamb-Hale. Camden, actually.
    Senator Boozman. Oh, very good.
    Ms. Lamb-Hale. But, what I did want to say is, to echo what 
Mr. Donahue said, we work very closely. We have the Travel 
Policy Committee Council that is an interagency group. Through 
the National Security Council we work very closely in an 
interagency policy committee to discuss ways to make the travel 
experience to the United States much better.
    The Travel and Tourism Advisory Board was also mentioned. 
That really provides policy advice to the Secretary of Commerce 
that can then be used by the Corporation as it begins to--its 
work on promoting the United States.
    So, I think that we've really done quite a good job of 
collaborating. The White House has been involved. There's a big 
recognition that this industry is important and it drives job 
growth.
    Senator Boozman. Mr. Donahue, I was a member of the NATO 
Parliament, and so I traveled extensively in that in the House, 
and have been to a number of different entities overseas and 
I'm always amazed. I understand very much how hard those--our 
Ambassadors and their staffs work to represent us and do all 
these things.
    I guess what I would like to know is that--that consular 
officers, that are taking care of these, they do have a lot of 
different responsibilities. In a 40-hour work period, how much 
time is there--are they devoted, as far as taking care of visas 
and things like that?
    Mr. Donahue. The consular officers, depending on the post 
and--and the demand for visa services, may spend the entire--
their entire workweek doing nothing but visas. In other posts 
where the demand is less, they may do American citizen 
services; they may provide--do fraud work; they may do 
emergency services, passports. So, it just depends.
    But, in large posts, the posts we're talking about today, 
most of the officers who are visa officers spend their entire 
workweek doing visas.
    Senator Boozman. And, that's allocated--the time that they 
spend, is that allocated at that facility, or does it come out 
of Washington, or----
    Mr. Donahue. No, they're--they're--they're assigned to the 
consulate abroad.
    Senator Boozman. No, I understand that, but once they're 
there, does the--does the entity there decide how much time is 
going to be spent on visas, or does that come out of Washington 
as to how much time?
    In other words, who decides how much time the consular 
official is going to spend working on visas?
    Mr. Donahue. Well, the embassy is--is--you know, works in a 
collegial manner with the Department as far as deciding where 
the work goes, but consular officers are there to do consular 
work and spend most of their time doing consular work. A 
political officer would be doing political work.
    So, when we assign someone, and we're paying for it from 
MRV fees, we expect to be spending the vast majority of their 
time doing visas, doing consular work.
    Senator Boozman. And, for the most part, we've got enough 
people to get that done?
    Mr. Donahue. Well, we--in most posts--in 90 percent of the 
posts we have wait times under 20 days, and in 74 percent I 
think they're under 7 days. So, in most places I think we're 
OK. It's just this huge ramp up of demand in these two 
countries that have been a challenge to us.
    Senator Boozman. Can you send us a list besides the two 
countries where we're struggling?
    Mr. Donahue. Sure. I can send you the list.
    Senator Boozman. Thank you, Madam Chair.
    Senator Klobuchar. We're going to move onto our next panel 
now, but I wanted to just remind you all of what we're talking 
about here, when--even though we have seen increases in the 
last few years, we want to see even better increases because of 
all the jobs, and just this--I thought this chart, while it 
looks complicated, it's interesting.
    So, our current market share right now of the international 
travel industry is 28.5 percent; and if we had saved our 2000 
market share, right, it was 42.8. Now, we know we're going to 
see some decreases, but we shouldn't have seen that big of a 
decrease.
    And, that's what we're trying to change, and if we could 
just get up to that market share, or anywhere close to it, we 
could get an additional $60 billion in spending in the United 
States of America.
    So, as we look at how to expand this economy, I believe 
it's private sector jobs. I believe a lot of it has to do with 
exports; and tourism is one of our export treasures. So, that's 
what we have to think about as we move forward, is how we are 
going to get that market share back. And, so, that's what I 
want to leave you with as you all go back to your jobs.
    Mr. Wagner, I just wanted to mention, I'm a big fan of your 
TSA people. I know they've got a lot of grief, so I always like 
to say that any moment, that they've got tough jobs, which they 
remind me of every time I go through the airport.
    OK, thank you, the three of you. We will have our next 
panel up. Thank you.
    OK, we're going to get started here, and I will give all 
the introductions for our second panel, and they're going to 
talk about what they're seeing out there in the field as we 
look at ways to recapture our country's share of the global 
tourism market.
    First of all, we have Mr. Stephen Cloobeck, who is the 
Chairman and CEO of the Diamond Resorts Corporation, which 
includes Diamond Resorts International, a hospitality brand 
with over 190 branded and affiliated resorts in 28 countries 
around the world.
    Mr. Cloobeck has over 25 years of experience in the tourism 
area. He has also recently been elected as the Chairman of the 
Corporation for Travel Promotion that we've been discussing 
today.
    Second, Ms. Nancy Johnson is the Executive Vice President 
for Development at Carlson Hotels, headquartered in my home 
state of Minnesota. She has worked in various roles at Carlson 
since 1989, including as Executive Vice President for Carlson 
Select Service Hotels and several management roles with Carlson 
Country Inn Suites Hotel chain.
    Third, Mr. John Sprouls is the CEO of Universal Orlando 
Resorts and Executive Vice President at Universal Parks and 
Resorts, where he has 15 years experience. He is also a member 
of the U.S. Travel Association and U.S. Secretary of Commerce's 
Travel and Tourism Advisory Board.
    And, finally, Mr. Roger Dow is the President and CEO of the 
U.S. Travel Association, a role he has had since 2005. He 
previously spent 34 years at Marriot International where he 
served as a summer lifeguard at a Marriot Hotel and ended up as 
Senior Vice President for Global and Field Sales.
    OK, that would be like when I started as a waitress at 
Baker's Square Pie Shop, but I spilled 12 iced teas on one 
customer, and that was the end of my career there.
    But, you made it up through the ranks, Mr. Dow. 
Congratulations.
    Mr. Dow. Thank you.
    Senator Klobuchar. OK, we'll start with Mr. Cloobeck.

  STATEMENT OF STEPHEN J. CLOOBECK, CHAIRMAN, CORPORATION FOR 
                        TRAVEL PROMOTION

    Mr. Cloobeck. Thank you, Madam Chairperson, and Ranking 
Member Blunt.
    I've already submitted my testimony in advance. I'm not 
going to bore you all with the details that we've reviewed 
before by members of the Administration.
    I thought I'd give you just an open dialogue as to what 
we've accomplished so far.
    We have a diverse 11-member board with a high level of 
expertise in all fields of travel and tourism. We were 
appointed in late last fall. We met--our first meeting, I 
believe, in October, and we tried to coalesce as quick as we 
could. We were all appointed to organize ourselves without any 
government support.
    I'm proud to say, quickly, we were incorporated in D.C., 
created our bylaws and articles of incorporation, and created a 
position of Chairperson, which I ascended to, and two Vice-
Chairs, Carolyn Bateta of California Tourism, and George 
Fertitta of New York and Co.
    We wanted to make sure when we created this organization 
that we were open, we were transparent; so we decided to have 
open board meetings, which we have on a monthly basis, some via 
phone, some throughout the United States. We're moving the 
corporation all over the United States.
    We made sure that all of meeting minutes are on our 
website, the corporationfortravelpromotion.org, and you're 
welcome to see any of those meeting minutes.
    We've also made sure that all stakeholders have been 
included--all states, all territories.
    In addition to that, we've reached out to all of the 
constituent groups; we talked to TTAB policy; we've worked very 
closely with Helen Marano at Commerce, with regard to research.
    We have made sure that we're using all these dollars that 
were given to us in a very wise fashion. To date, we've been 
given $10 million in administrative funds, two and a half 
million dollars, which has been given to us; and I can tell you 
today we've only spent $180,000.
    We've asked for a lot of pro bono and in-kind work from 
various law firms and other folks within the travel and tourism 
industry.
    It's our mission not to squander these funds. We are 
looking at this based on the return-on-investment capital, and 
I know that's kind of a funky concept here in Washington, but 
in business, that's the concept that we use every single day.
    So, for every dollar we spend, we look at that return back 
to us, and what we're getting for that. We've made a lot of 
progress with regard to putting forth what our message will be. 
None of those $10 million are authorized for us to use toward 
marketing, pursuant to the statute.
    So, we would ask you to think about, today, if we are ready 
to put forth some marketing efforts throughout the world, how 
we access some of those $10 million, since we have--we've 
really not squandered any of the dollars, and we've got them to 
spend, we'd like to spend them on marketing moneys.
    But, herein lies an issue: In working with the President's 
Export Council and other interagencies we've been extremely 
collaborative; we are concerned with this budget that could 
swell as large as $200 million to spend on international 
marketing efforts. In our total collaboration what we do to 
spend that money has to be thought of based on return-on-
investment capital, as I said; and because of that, I'm 
concerned a little bit about what we found, candidly.
    You mentioned some of these issues before: Visa wait times; 
why don't we adopt the U.K. system? We've really put up 
tremendous borders with regard to, you know, what we'd like to 
do in promoting the United States. And, if we want to use these 
dollars wisely, we, of course, can look at all the visa waiver 
countries, but for us to sit back and wait for China to have a 
bilateral treaty with the United States--I don't think we do 
that in business. We're looking at 21--twenty-to-one return on 
invested capital here. We're not spending any CAPEX. The 
country's built. All we're asking folks to do is show up.
    And, we have to really worry about how we're representing 
ourselves when we're interviewing for visas. And, if we make 
somebody wait 20 days, 30 days, 40 days, 120 days, are we 
really being inviting?
    So, I would ask you to think about that, and perhaps sit 
down with the State Department. We're trying to do as much as 
we can to facilitate a great collaboration, and I think we're 
doing a good job. We should have an Executive Director hired 
within the next, you know, 30 days; and you're going to see 
some tremendous efforts from us going forward.
    And, I look forward to any of your questions.
    [The prepared statement of Mr. Cloobeck follows:]

   Prepared Statement by Stephen J. Cloobeck, Chairman of the Board, 
                    Corporation for Travel Promotion

    Chairwoman Klobuchar, Ranking Member Blunt, and honorable members 
of the Subcommittee, thank you for your leadership on the issue of 
growing the U.S. economy through travel and tourism. By helping the 
U.S. compete in the world travel market we will create jobs and drive 
economic growth here at home.
    My name is Stephen J. Cloobeck. I am Chairman and Chief Executive 
Officer of Diamond Resorts International, a global destination resort 
business based in Las Vegas. We have nearly 200 resorts in 28 countries 
around the world, including destinations throughout the continental 
United States and Hawaii, Canada, Mexico, the Caribbean, Europe, Asia, 
Australia and Africa.
    I am also the Chairman of the Board of the Corporation for Travel 
Promotion (CTP), which, thanks to your leadership, was established to 
help the United States capture a greater share of international travel 
and the spending it brings. Senator Klobuchar--a stalwart champion for 
this industry--and Senator Blunt--lead co-sponsor of the Travel 
Promotion Act in the House--I thank you both and this subcommittee for 
your leadership and courage on behalf of the CTP Board and the travel 
industry as a whole. I have a strong personal belief that travel 
promotion will make America more competitive in the global marketplace 
and that the work of the CTP will boost our country's economy. I 
believe we share this perspective, and I look forward to continuing the 
partnership with like-minded leaders in Congress like you.
    Today I will provide you with an update on the Board's progress 
since our appointment by Commerce Secretary Gary Locke in late fall 
2010. We are off to an excellent start as we work toward the 
legislative goals of providing useful information to those interested 
in traveling to the United States, identifying and addressing 
perceptions regarding U.S. entry policies, and maximizing the economic 
and diplomatic benefits of travel to all areas of the United States.
Why We Must Compete for International Travel
    Travel is America's largest service sector export, representing 25 
percent of all U.S. service exports and 7 percent of all goods and 
services exported in 2010. When international visitors come to the 
U.S., they spend close to $4,000 per person on hotels, restaurants, 
attractions, retail and other activities. This added up to $134 billion 
last year, which supported hundreds of thousands of jobs in communities 
across the country.
    But despite this good news, the U.S. should have done much better.
    The U.S. has been losing share in the long-haul international 
travel market for many years as travel globally has boomed. Our failure 
to simply keep pace with the growth of the rest of the world has cost 
the U.S. an estimated 68 million ``lost'' arrivals, $509 billion in 
total spending, $32 billion in direct tax receipts and 441,000 travel-
related jobs that could have been created or sustained in the years 
over the past decade.
    There are several reasons for this. First, other countries and 
destinations have grown more competitive; they are spending more on 
marketing and promotion. For example, in 2009, Mexico spent $173.8 
million, Australia spent $106.7 million, and France spent $96.0 million 
on their respective national travel promotion programs. Second, there 
are simply more destinations for travelers to choose from now. And 
until this year, the U.S. has been one of the only industrialized 
nations in the world that lacks a nationally coordinated program to 
attract international travel.
    Now, thanks to your leadership, we have a program that is designed 
to address that competitive shortcoming.

About the Corporation for Travel Promotion
    No taxpayer dollars are used to fund the Corporation for Travel 
Promotion. The first 50 percent of the program's funding is required to 
come from the private sector. For every dollar that the private sector 
contributes to the program, an additional dollar of funding is 
contributed through a nominal $10 fee paid by those visitors who have 
been exempted from paying the $140 fee to acquire a visa.
    This funding will be used to create a world-class marketing and 
promotion program designed to attract more visitor spending to the 
U.S., in order to drive economic growth and job creation.
    While it is still too early to say exactly what the marketing 
campaign will look like, the range of tactics will include advertising, 
social media, outreach to intermediaries, trade show presence and many 
other activities in key international markets, as deemed most effective 
to yield the highest possible return on investment.
    Oxford Economics, a globally respected economics firm, estimates 
that this program could deliver a return on investment of 20:1. That 
includes 1.6 million new visitors annually, $4 billion in new annual 
spending, and 40,000 new U.S. jobs.

What We Have Accomplished So Far
    Last fall, U.S. Secretary of Commerce Gary Locke appointed the 
Board of Directors, and in October we held our first meeting to discuss 
a work plan and move toward formation of the Corporation.
    At the outset, the Board agreed on two core principles. The first 
is transparency in all our actions and decisions; our monthly Board 
meetings are open to the public, and meeting records are posted on our 
website. The second is a commitment to maximizing return on invested 
capital (ROIC); we will make use of all existing resources from the 
government and industry partners, such as market research. We look for 
free or donated meeting spaces, so that every single dollar of the 
Travel Promotion Fund can be used to maximize ROIC for the U.S. 
economy.
    Since our first meeting, the 11-member Board has been working to 
achieve a number of milestones on an accelerated timetable and engage 
in regular activities to keep the public informed of our actions and 
the program moving forward. Our progress to date includes:

  <bullet> Monthly Board meetings--emphasizing full transparency--that 
        are open to the public for comments and questions;

  <bullet> Completion of various legal filings, including non-profit 
        status;

  <bullet> Initiation of the 501(c)(6) filing;

  <bullet> Hiring of firms to conduct third-party audits and perform 
        day-to-day accounting functions;

  <bullet> Issuance of request for proposals (RFPs) for legal counsel;

  <bullet> Evaluation of resources and needs, with an eye toward 
        developing a strategic plan to guide the early years of the 
        entity;

  <bullet> Creation of Board committees and request for industry 
        participation on advisory boards to expand the CTP's expertise;

  <bullet> Meeting with Canadian Tourism Commission and numerous U.S. 
        destinations to help develop in-kind contribution standards;

  <bullet> Memorandum of understanding (MOU) with the Departments of 
        Treasury and Commerce regarding in-kind contributions, to be 
        finalized upon review of third-party auditors;

  <bullet> Meetings with and continued communication and cooperation 
        with the Departments of Commerce, State and Homeland Security 
        and Customs and Border Protection;

  <bullet> Cooperation with the Travel and Tourism Advisory Board and 
        the President's Exports Council to align goals and strategies;

  <bullet> Analysis of existing market research from sources including 
        the Office of Travel and Tourism Industries, Oxford Economics 
        and numerous destinations, and identification of future 
        research needs;

  <bullet> First promotional video to be revealed next month;

  <bullet> Creation of a website 
        (www.corporationfortravelpromotion.com) to inform stakeholders 
        and other interested parties about our ongoing progress; and

  <bullet> Ongoing outreach to policymakers and inclusiveness with 
        industry stakeholders in all states and territories for input 
        and advice.

What Is Ahead
    We are committed to using resources as efficiently and effectively 
as possible, in order to maximize the return for the U.S. economy. The 
CTP has spent only a fraction of a percent of the original funding from 
the Department of the Treasury. Wherever possible we have leveraged 
available resources from government agencies, our Board members and the 
industry at large.
    Moving forward, the marketing money we spend will be based on 
return on invested capital. And we look forward to launching our in-
kind contributions campaign in the coming months, so that when matching 
funds become available on October 1, we will be able to hit the ground 
running with our marketing program. Our Board members and members of 
our staffs have already donated hundreds of hours in services to the 
CTP, in addition to more than $70,000 worth of travel and meeting 
expenses that will be available for matching.
    Our next major step is to hire an executive director and senior 
staff. That search is well underway, and we hope to make an 
announcement soon.
    As we work to ensure that international visitors are invited and 
encouraged to come to America, we will also work simultaneously with 
the Departments of State and Homeland Security to ensure that this new 
influx of travelers can be accommodated by our visa and entry systems. 
From new consular offices where backlogs are high to finding more 
efficient alternatives to in-person visa interviews, and from loosening 
bottlenecks at our Nation's airports to a simple ``Welcome to the 
United States'' greeting from CBP, we pledge to work with Congress and 
the administration to find creative and secure solutions--for both the 
short-term and long-term--to improve our existing systems so that this 
important economic opportunity is not wasted.
    To close, I want to reiterate that we are 100 percent committed to 
transparency, and I invite you all to visit our website and review our 
minutes from past meetings and mark your calendars for our future 
meetings.
    By business standards, the CTP has gotten off to a rapid start that 
makes us well poised to achieve the maximum return on investment 
generated from America's greatest export--travel and tourism. The CTP 
has a critical job ahead of us, and we are up to the task. I would like 
to thank you again for your leadership and look forward to our 
continued partnership and collaboration with Congress and the 
administration.

    Senator Klobuchar. Thank you very much.
    Ms. Johnson?

     STATEMENT OF NANCY JOHNSON, EXECUTIVE VICE PRESIDENT 
             DEVELOPMENT, CARLSON HOTELS, AMERICAS

    Ms. Johnson. Thank you, Chairman Klobuchar, Ranking Member 
Blunt, and other distinguished members.
    I come to you with a little bit of a discussion that you've 
already heard on the importance of the travel and tourism issue 
that we are addressing, but also for a request for better 
government efficiencies and a better sense of urgency to the 
problem.
    I represent Carlson Companies, which is a family-owned 
business that has over 1,070 hotels and 900 restaurants, and a 
major owner of Carlson Wagonlit Travel. We have 150,000 
employees in over 150 countries, and today, Carlson is lead by 
Chair, Marilyn Carlson Nelson and CEO, Hubert Joly.
    It was my distinct pleasure to work with Hubert in his 
position sitting on the Travel and Tourism Advisory Board and 
as Chair of the Subcommittee for Travel Facilitation.
    Travel, and in particular, international tourism is a vital 
part of our economy. And, that has been said time and time 
again. But it is tourism in general that oftentimes gets 
overlooked, and is an invisible export.
    Now, President Obama's goal of doubling the exports over 
the next 5 years can quite easily and logically be addressed by 
paying attention to tourism, but all we have to do is to make 
sure that, as was stated, facilitate visa processing; and then 
when they come to our borders, welcome them as guests to our 
country.
    And, that is the key issue. I've been in the hospitality 
business for over 40 years, and in our hotels, if we did not 
treat every customer that walked through that door as if they 
were a guest in our house, they would go stay somewhere else. 
And that is what our international travelers are doing to us 
today.
    Now, today, while some issues surrounding impediments to 
tourism are looked at as being perception rather than reality, 
it is a fact that international tourists find the United States 
less inviting; and it is more difficult to enter than other 
countries.
    Given that, I think Senator Klobuchar pointed out the 
dollars that are involved in bringing in these international 
visitors. We need to make sure we pay particular attention at 
our ports-of-entry on how we greet these customers.
    Treating tourists in a respectful and efficient manner at 
our borders is important for at least two reasons: Studies show 
that some potential tourists choose to not visit our country 
because there is a negative general perception by international 
visitors as how they will be treated; and then the second 
problem is the delay in the passengers meeting--making their 
connecting flights. They're worried that they will not be able 
to connect through and get onto their connecting flights, which 
is a great loss of revenue to our airline industry.
    In 2009, 39 percent of overseas travelers to the United 
States waited more than 30 minutes, and some have waited as 
long as 2 hours. This is simply too long. The visa point of 
entry problem has run--has been brought forward to government 
bodies many times in the past.
    After September 11, Mr. Bill Marriott and Marilyn Carlson 
Nelson testified at a hearing very similar to this one on the 
importance of tourism to the national economic recovery. In 
2009, the Travel and Tourism Advisory Board made a 
recommendation to the Secretary of Commerce that is very 
similar to the ones that our subcommittee made to Secretary 
Locke.
    And, even President Obama has gathered tourism industry 
leaders to advise him on how to improve travel and tourism 
export deficiencies.
    I believe, and I ask this panel--this committee to listen 
to these industry leaders. It is time that we pay attention to 
this valuable asset that we have in travel and tourism; and 
together we can make a difference.
    Addressing the visa and customer service experience is 
something that has already been done, as was mentioned by the 
previous panel. We've done--made some improvements, but the big 
problem is, is that we have not established key benchmarks in 
gathering metrics that allow us to set goals for improvement. 
That has to be done across government agencies; and it is 
critical for us to move forward. So, collecting the number of 
overseas international visitors and our market--establishing 
our market share; monitoring wait times; number of travelers 
enrolled in our Global Entry Program; and, in addition, the 
recommendation has been made to the Secretary of Commerce to 
establish goals, solid goals that a wait time of less than 20 
minutes at our ports of entry, to strengthen our model 
airports.
    To correct a misstatement before, only 2 out of the 20 
airports are actually established with the model airport entry.
    And then to ramp up our Global Entry Program.
    In her book, How We Lead Matters, Marilyn Carlson Nelson 
reflects on a conversation with former Prime Minister of 
Israel, Shimon Peres regarding the impact that tourism could 
have on peace in the Middle East. Marilyn reflected, ``I have 
always felt privileged to be associated with an industry that 
raises living standards and provides entry-level jobs as well 
as lifetime careers. As the Prime Minister reminded me, its 
contribution is even greater. Through the continuing exposure 
facilitated by the tourism industry to others of different 
cultural, religious and political backgrounds, there is hope 
that we can chip away at the hatred and prejudice that separate 
us. There is, indeed, work to be done.''
    Thank you. And, I look forward to your questions.
    [The prepared statement of Ms. Johnson follows:]

     Prepared Statement of Nancy Johnson, Executive Vice President 
                 Development, Carlson Hotels, Americas

    Thank you, Senator Klobuchar and Senator Blunt, for holding this 
very important hearing.

Background
    My name is Nancy Johnson, Executive Vice President of Development 
for Carlson Hotels and the incoming chair of the American Hotel & 
Lodging Association which represents nine thousand hotel members.
    I have worked in the hotel industry for 40 years and I have had the 
privilege of working for Carlson for 22 years. Carlson is a family-
owned, global hospitality and travel company. Headquartered in 
Minneapolis, Minnesota, Carlson encompasses more than 1,070 hotels in 
77 countries; more than 900 restaurants in 60 countries; and a majority 
stake in Carlson Wagonlit Travel, the global leader in business travel 
management. Carlson operates in more than 150 countries and its brands 
employ about 150,000 people.
    Today Carlson is lead by Chairwoman, Marilyn Carlson Nelson and 
CEO, Hubert Joly. Hubert Joly also sits on the Travel and Tourism 
Advisory Board (TTAB), which reports to the Department of Commerce. 
Hubert is Chairman of the Travel Facilitation subcommittee of TTAB. The 
TTAB was formed to advise the Secretary of Commerce on opportunities to 
stimulate travel and tourism and subsequently increase jobs and 
economic growth.

The Importance of Travel
    Travel, and in particular international tourism, is a vital part of 
our economy. International travelers stay in our hotels, rent cars, go 
to our theme parks, eat in our restaurants, shop at our stores, and 
hire our tour operators. Research shows that International tourists 
spend on average between $3,000 and $4,000 during each of their trips 
to our country.
    Tourism oftentimes does not get the attention it deserves. Tourism 
has been referred to as the ``invisible export'' because its benefits 
are often overlooked even though it generates more export revenue than 
automobiles and computers. It surpasses agricultural exports by two to 
one. This spending supports approximately 900,000 jobs and $23 billion 
in wages. Put simply, overseas visitors create jobs and economic 
opportunity in communities across the United States.
    Increasing international tourism is one of the easiest ways to help 
achieve President Obama's goal of doubling exports over the next 5 
years. To increase tourism, we do not need to build a new factory. We 
just need to find ways to get more legitimate travelers into our 
country. Equally important--we need to make sure they have a positive 
experience when they visit the United States.
    As other witnesses have discussed, more and more countries are 
competing for the same international tourists to come to their country. 
So, if a potential tourist has a negative perception of how they will 
be treated in the United States, they will choose to spend their money 
in a different country. It is in our national interest to ensure 
international tourists have a positive experience during their visit to 
the United States.
    Today, while some issues surrounding impediments to tourism may be 
perception versus reality, and while progress is being made, the U.S. 
does suffer from a real performance gap as it relates to the way we 
treat visitors.

Impediments to Increasing International Tourism--Getting Tourists 
        through the Border
    In particular, the experience of international visitors at the 
country's borders is a source of concern. Being a Global company, 
Carlson is uniquely qualified to give testimony to the port of entry 
experience our employees and business associates realize regularly. In 
the hotel industry if we are not hospitable to people--if we do not put 
on a friendly face--our customers will go somewhere else.
    We look at our borders the same way. If a person has a bad 
experience entering the country they probably will not come back. And 
when they go home, they will tell their friends and neighbors about 
their bad experience. In a world where other countries are vigorously 
competing for tourist dollars, we have to make their experience in our 
country--from beginning to end--pleasant and enjoyable. Treating 
tourists in a respectful and efficient manner at our borders is 
important for at least two reasons:

        1. Studies show that some potential tourists choose to not 
        visit our country because there is a general negative 
        perception by international visitors as to how they will be 
        treated by U.S. border officials; and

        2. Delays in passenger screening is the major cause of missed 
        international connections, which is a significant source of 
        loss for U.S. airlines.

    It is vital to our economy that our government recognizes the 
importance of addressing these problems, which is one of the reasons 
that I am here today. I am not generally active in politics. However, a 
conference call with several government agency representatives last 
year galvanized my interest in the travel facilitation issue. The 
conference call was scheduled to discuss how to increase international 
tourism. During the call, an executive suggested several measures that 
would be more efficient and financially self-sustaining. We were told 
by government officials that the government does not look at the travel 
facilitation issues with an ``eye toward return on investment.'' You 
can understand why this conversation called me to action.
Clearance Time for International Tourists
    In 2009, 39 percent of overseas travelers to the U.S. waited more 
than 30 minutes to be cleared through immigration at the Nation's 
airports. And there are far too many instances of people having to wait 
up to 2 hours to simply get through the customs and immigration lines. 
This is simply too long.
    Moreover, these statistics are based on incomplete data, because we 
do not keep good data at our borders. This makes it very hard for us to 
pinpoint a lot of our problems and come up with the best solutions.
    In the hotel industry, that attitude toward data collection would 
lose market share and brand positioning. For instance, at our hotel 
call center in Omaha we know exactly how long it takes a reservation 
agent to serve a customer and how many customers an agent can handle in 
an hour and how many agents we need to staff for peak call times. I can 
tell you that our average talk time is 187 seconds resulting in an 
average of 19 calls per hour. It is keeping data like this that allows 
Carlson to be a world leader in hospitality.

But All is Not Lost
    The visa and port of entry problem has been brought forward to 
government bodies many times in the past; after September 11, 2001, Mr. 
Bill Marriott and Marilyn Carlson Nelson testified at a hearing very 
similar to this one on the importance of tourism to the national 
economic recovery. In 2009, the Travel and Tourism Advisory Board made 
recommendations to the Secretary of Commerce that are very similar to 
the ones industry representatives are presenting today. And, President 
Obama has gathered tourism industry leaders to advise him on how to 
improve travel and tourism export deficiencies.
    I believe it is time to listen to these industry leaders that have 
so graciously donated their time and talent to help the United States 
improve. Together we can make a difference . . . together, we can 
improve both the perception and the actual image of the United States, 
and consequently improve our economic position among the leading 
nations around the globe. This problem is not insurmountable. With the 
cooperation of our government counterparts we can right the ship.
    Addressing the visa and customer service experience related issues 
can be done through a few measures at minimal net direct cost to the 
U.S. tax-payers and an effective partnership with the State Department, 
the Department of Homeland Security, Congress, local airport 
authorities and the travel & tourism industry.
    First, we need to establish key metrics:

  <bullet> Number of overseas international visitors and market share

  <bullet> Wait times at visa processing centers in key emerging 
        countries

  <bullet> Number of visa processing locations in key emerging 
        countries

  <bullet> Number of countries added to the Visa Waiver program

  <bullet> Wait times at model ports

  <bullet> Number of travelers enrolled in Global Entry Program

  <bullet> Number of countries with reciprocal agreements

  <bullet> Traveler satisfaction at the Nation's borders

  <bullet> Image of the U.S. amongst international travelers

    In addition, the Travel Facilitation subcommittee of TTAB has made 
recommendations to address the issues related to the customer service 
experience at the Nation's borders, including:

        1. Establish a goal for wait time at international airports and 
        cruise terminals of less than 20 minutes and measure the 
        performance against that goal;

        2. Strengthen the implementation of the Model Ports of Entry 
        program, through an increased staffing flexibility and customer 
        service focus and through a public/private partnership 
        established at each model port (``Adopt an airport program'');

        3. Ramp up the Global Entry Program for U.S. citizens, 
        permanent residents, and trusted international visitors to 
        reach a number of participants sufficient to materially reduce 
        the workload of the Customs and Board Protection officers.

    The tourism industry has offered to share industry best practices 
on staffing models and marketing solutions to various branches of 
government to improve our port of entry process. We are hopeful that 
the administration will take advantage of our offers. If the United 
States is to improve our standing as a world leader in the tourism 
industry, we need to be the best in the world in visa and port of entry 
operations.
    In her book How We Lead Matters: Reflections on a Life of 
Leadership, Marilyn Carlson Nelson reflects on a conversation with the 
former Prime Minister of Israel Shimon Peres regarding the impact 
tourism could have on peace in the Middle East. She wrote, ``I have 
always felt privileged to be associated with an industry that raises 
living standards and provides entry-level jobs as well as lifetime 
careers. As the Prime Minister reminded me that day, its contribution 
is even greater. Through the continuing exposure facilitated by the 
tourism industry to others of different cultural, religious and 
political backgrounds, there is hope that we can chip away at the 
hatred and prejudice that separate us. There's work to be done.''
    Thank you and I look forward to answering your questions.

    Senator Klobuchar. Thank you, Ms. Johnson.
    Mr. Sprouls.

 STATEMENT OF JOHN SPROULS, CEO, UNIVERSAL ORLANDO RESORT; AND 
     EXECUTIVE VICE PRESIDENT, UNIVERSAL PARKS AND RESORTS

    Mr. Sprouls. Thank you, Chairwoman Klobuchar, Ranking 
Member Blunt, and members of the Subcommittee, for this 
opportunity to focus on tourism as a key driver in the United 
States economy.
    As our country emerges from difficult economic times, our 
industry stands ready to play a leadership role in job 
creation.
    Universal Orlando, alone, recently made a tremendous 
investment toward our own growth in the growth of the Central 
Florida economy with a project called ``The Wizarding World of 
Harry Potter.''
    Because our business is both national and international, 
our investment has helped to grow travel both to Central 
Florida and to the United States. This increased visitation 
required us to hire more than 1,000 new workers in 2010.
    A large percentage of our growth and our hope for the 
future comes from the international market. If we and the 
entire industry are to continue to grow, we will need to work 
with you to remove the significant regulatory barriers that 
exist in some of the top international travel markets.
    I am talking about the process of gaining entry into the 
United States for those tourists who are foreign nationals 
traveling to the U.S. from a non Visa Waiver Country.
    I respectfully request, Madame Chair, that a copy of a 
February 1, 2011, letter and study presented to Secretary Locke 
on behalf of the Tourism and Travel Advisory Board's Travel 
Facilitation Subcommittee be placed into the record of this 
committee meeting. The report outlines many of the issues and 
potential solutions being discussed today.
    [The information referred to is attached to Mr. Sproul's 
statement.]
    The President's recent comments during his visit to Brazil 
provide the industry with hope that these recommendations are 
being taken seriously within the Administration.
    Let me be clear about an important point: Our industry 
absolutely supports having a secure border. We absolutely agree 
that security has to come first and foremost in the eyes of the 
federal government. But we don't believe that position must be 
at odds with creating an efficient, user-friendly process for 
international travelers who want to visit the United States.
    If travelers from a specific country demonstrate continued 
respect for our rules, including low overstay rates and low 
visa processing denials, then there has to be an easier way for 
that country to gain entry into the Visa Waiver Program.
    If we don't follow an objective process, we will continue 
to lag behind others in realizing the economic gains from 
emerging foreign markets critical to our continued growth.
    We must start by making the visa application process more 
timely and efficient for the applicant. As booking cycles for 
leisure and business travels continue to compress, we can't 
continue to condone the wait times of today. Like everyone 
else, travelers will follow the path of least resistance and go 
where they feel welcome.
    And while I give those at the State Department high marks 
for trying to address the situation, current wait times for 
visa applicants in our embassies and consulates in certain 
regions of the world are simply not acceptable. This situation 
will only become worse when the Corporation for Travel 
Promotion starts targeting specific regions with the new travel 
promotion funds.
    The Corporation and State Department must work closely 
together to ensure one doesn't drive demand that the other 
can't handle, otherwise, both private and federal marketing 
dollars will not see the return-on-investment.
    An example of two key emerging markets is identified on 
this chart to my right. Brazil and China are being looked at by 
those countries competing for tourism business as strong 
opportunities to take business away from the United States. For 
example, if you look at the chart, Rio currently has a 107-day 
wait period for a visa interview. As travel booking cycles 
become shorter and shorter, visa processing times, such as 
those in Rio, are simply outside acceptable parameters. 
Brazilian travelers from Rio who typically vacation in the 
states during the July through August summer time frame now 
fall outside the booking cycle for summer 20ll travel.
    [The information referred to is attached to Mr. Sproul's 
statement.]
    These same travelers will now most likely find alternative 
destinations. A wait time of that duration screams for urgent 
attention, and in the future we must trigger automatic manpower 
shifts or technology upgrades within the embassy and consulate 
corps to address.
    The TTAB's recommendation was to immediately add a few 
hundred officers to these areas of most urgent need.
    Distance becomes a problem in many of these emerging 
markets. Mature markets tend to have sufficient embassies and 
consulates to address the needs of a specific country, but in 
the case of emerging markets we've not reacted quickly enough 
to establish our outreach locations. An example in Brazil would 
be the City of Manuas, with a population of more than 2 million 
people, and it's located more than 1,000 miles from the closest 
consulate. We expect a family to travel a greater distance than 
I flew to attend this committee hearing on the chance they will 
be awarded a visa to come to our shores.
    The cost in time and money simply places an artificial 
barrier in the way of these important travelers, who spend an 
average of over $5,000 per person over during their visits.
    We're very pleased that during President Obama's visit to 
Brazil he agreed that more progress needs to be made on these 
visa concerns, and we stand ready to work with him and Congress 
on this task. The most important step that can be taken with 
the Brazilian market is to stop requiring visas from Brazilians 
all together.
    All of South America, the European Union and Russia have 
already granted Brazilians visa-free travel privileges for 
short visits. While Brazil does not currently qualify for visa-
free privileges with the U.S., it is likely that Brazil could 
meet the requirements in the next couple of years.
    Therefore we urge Congress to press the State Department to 
form a formal working group with Brazil that will outline 
specific actions that Brazil could begin to take today to meet 
the visa waiver requirements. Through this working group, 
progress in meeting the program's qualifications can then be 
measured and evaluated.
    We also urge the Committee to support S. 497, which is 
bipartisan legislation recently introduced by Senators Mikulski 
and Kirk, that updates the Visa Waiver Program framework to 
reflect improved capabilities to track travelers entering and 
exiting the U.S.
    The simple math alone tell us we need to look at the issue 
of visas differently.
    Brazilians have spent $3 billion in international 
destinations globally during January and February 2011, a 38 
percent increase over the same 2010 period. Our tourism sector 
stands prepared to welcome these visitors, but first we need 
our partners in government to work with the industry to ensure 
these people are welcomed.
    The private sector, Congress, and the Executive Branch are 
partners in what must be a seamless travel experience. Working 
together we can create thousands of new jobs while increasing 
the image of America across the globe.
    I look forward to answering any questions you may have, and 
again thank you for this opportunity.
    [The prepared statement of Mr. Sprouls follows:]

Prepared Statement of John Sprouls, CEO, Universal Orlando Resort; and 
         Executive Vice President, Universal Parks and Resorts

    Thank you, Chairwoman Klobuchar, Ranking Member Blunt and members 
of the Subcommittee. My name is John Sprouls, and I appear before you 
today as CEO of Universal Orlando Resort and EVP of Administration 
worldwide for Universal Parks and Resorts. We currently have theme 
parks in Orlando, Hollywood, Japan and Singapore as well as on-going 
contractual arrangements in Korea and Dubai. I also have the honor of 
serving as a member of the U.S. Travel Association and United States 
Secretary of Commerce's Travel and Tourism Advisory Board (TTAB) 
focusing my time on the Travel Facilitation Subcommittee.
    I want to commend the Subcommittee on showing the foresight to 
focus on tourism as a key driver in the United States economy. As our 
country emerges from difficult economic times, our industry stands 
ready to play a leadership role in job creation. Universal Orlando 
alone recently made a tremendous investment toward our own growth and 
the growth of the Central Florida economy with a project called ``The 
Wizarding World of Harry Potter.'' Because our business is both 
national and international, our investment has helped to grow travel 
both to Central Florida and to the United States. This increased 
visitation required Universal Orlando to hire more than 1,000 new 
workers in 2010.
    A large percentage of our growth--and hope for the future--comes 
from the international market. If we--and the entire industry--are to 
continue to grow, we will need to work with you to remove significant 
regulatory barriers that exist in some of our top international travel 
markets.
    I am talking about the process of gaining entry into the United 
States for those tourists who are foreign nationals traveling to the 
United States from a non Visa Waiver Country. I respectfully request 
Madame Chair, that a copy of a February 1, 2011 letter and study 
presented to Secretary Locke on behalf of the TTAB's Travel 
Facilitation Subcommittee be placed into the record of this committee 
meeting (Attachment A). The report outlines many of the issues and 
potential solutions being discussed today. The President's recent 
comments during his visit to Brazil provide the industry with hope that 
these recommendations are being taken seriously within the 
Administration.
    Let me be clear about an important point: Our industry absolutely 
supports having a secure border. We absolutely agree that security has 
to come first and foremost in the eyes of the federal government. But 
we don't believe that position must be at odds with creating an 
efficient, user-friendly process for international travelers who want 
to visit the United States. If travelers from a specific country 
demonstrate continued respect of our rules, including low overstay 
rates and low visa processing denials, then there has to be an easier 
way for that country to gain entry into the Visa Waiver Program. The 
process should be based solely upon benchmarks previously mentioned, 
rather than the political winds of the day. If we don't follow an 
objective process, we will continue to lag behind others in realizing 
the economic gains from emerging foreign markets critical to our 
continued growth.
    We must start by making the visa application process more timely 
and efficient for the applicant. As booking cycles for leisure and 
business travel continue to compress, we can't continue to condone the 
wait times of today. Like everyone else, travelers will follow the path 
of least resistance and go where they feel welcome. And while I give 
those at the State Department high marks for trying to address the 
situation, current wait times for visa applicants in our embassies and 
consulates in certain regions of the world are simply not acceptable. 
This situation will only become worse when the Corporation for Travel 
Promotion starts targeting specific regions with the new travel 
promotion funds. The Corporation and State Department must work closely 
together to ensure one doesn't drive demand the other can't handle. 
Otherwise both private and federal marketing dollars will not see their 
return on investment.
    An example of two key emerging markets is identified on this chart 
(Attachment B--Brazil and China). Brazil and China are being looked at 
by those countries competing for tourism business as strong 
opportunities to take business away from the United States. Please note 
Rio in particular currently has a 113-day wait period for a visa 
interview. As travel booking cycles become shorter and shorter, visa 
processing times such as those in Rio are simply outside acceptable 
parameters. Brazilian travelers from Rio who typically vacation in the 
States during the July through August time-frame now fall outside the 
booking cycle for summer 2011 travel. These same travelers, without 
current visas, will now most likely find alternative destinations. A 
wait time of that duration screams for urgent attention and in the 
future must trigger automatic manpower shifts or technology upgrades 
within the embassy/consulate corps to address. The TTAB's 
recommendation was to immediately add a few hundred officers to these 
areas of most urgent need.
    Distance becomes a problem in many of these emerging markets. 
Mature markets tend to have sufficient embassy/consulates to address 
the needs of a specific country. In the case of emerging markets we 
have not reacted quickly enough to establish our outreach locations. An 
example in Brazil would be the City of Manaus, with a population of 
more than 2 million, is located more than 1,000 miles from the closest 
consulate. We expect a family to travel a greater distance than I flew 
to attend this committee hearing on the chance they will be awarded a 
visa to come to our shores. The cost in time and money simply places an 
artificial barrier in the way of these important travelers, who spend 
an average of $5,100 per person over 10 days during their visits.
    We are very pleased that during President Obama's visit to Brazil 
he agreed that more progress needs to be made on these visa concerns 
and we stand ready to work with him and Congress on this task. The most 
important step that can be taken with the Brazilian market is to stop 
requiring visas from Brazilians all together. All of South America, the 
EU and Russia have already granted Brazilians visa-free travel 
privileges for short visits.
    While Brazil does not currently qualify for visa-free privileges 
with the U.S., it is likely that Brazil could meet the requirements in 
the next couple of years. Therefore we urge Congress to press the State 
Department to form a formal working group with Brazil that will outline 
specific actions that Brazil could begin to take today to meet the visa 
waiver requirements. Through this working group, progress in meeting 
the program's qualifications can then be measured and evaluated.
    We also urge the Committee to support S. 497, bipartisan 
legislation recently introduced by Senators Mikulski and Kirk that 
updates the Visa Waiver Program framework to reflect improved 
capabilities to track travelers entering and exiting the U.S. and 
improves annual reporting to increase oversight and transparency of the 
program.
    Other countries have decided to make the investment in these 
emerging markets. In China, where the United States has placed five 
embassy/consulate locations to process visas, the United Kingdom has 
twelve, France and Canada have six each, Germany five and Italy four. 
Each of these countries has a lower intent-to-visit factor versus the 
United States, but yet has a greater or similar outreach footprint as 
this Country. Until the United States can determine a way to adjust 
processing locations to meet current demand, Universal will support 
utilizing technology to assist in solutions, i.e., visa 
videoconferencing where interviews can be conducted over a secure 
channel.
    Universal supports making two changes to on-going State Department 
operations. We support allowing the State Department to develop a 
smaller consulate footprint that will serve singularly as a processing 
center. Congress would need to authorize these processing centers while 
allowing the State Department to keep funds generated from applicants 
to offset start-up costs and staffing. We also believe greater latitude 
needs to be provided to State, in consultation with the Department of 
Homeland Security, in determining when to waive the personal interview 
requirement. Two examples provided in the TTAB's report are Brazilian 
teens younger than 16 or Chinese students re-applying for student 
visas. Neither of these categories should automatically call for an 
interview when paperwork and backgrounds are in order.
    The simple math alone tells us we need to look at the issue of 
visas differently. Brazilians have spent $3.07 billion in international 
destinations globally during January and February 2011, a 38 percent 
increase over the same 2010 period (source: Brazil's Central Bank). The 
United States tourism sector stands prepared to welcome these visitors 
to our shore, but first we need our partners in government to work as 
one with the industry to ensure these travelers are welcomed with open 
arms. The private sector, Congress and the Executive Branch are 
partners in what must be a seamless travel experience. Working together 
we can create thousands of new jobs while increasing the image of 
America around the globe.
    I look forward to answering any questions you may have and again 
thank you for this opportunity to appear in front of the Subcommittee.


                              Attachment A
                      The Travel and Tourism Advisory Board
                                                   February 1, 2011
Secretary Gary Locke,
U.S. Department of Commerce,
Washington, DC.

Dear Secretary Locke,

    On behalf of the Travel and Tourism Advisory Board, we would like 
to thank you for your ongoing support to the travel and tourism 
industry and the opportunity you have given us to contribute to its 
development by appointing us to this Advisory Board. Through this 
letter, we are respectfully submitting the conclusions of our work on 
facilitating international travel to the United States.
    In short, we believe that facilitating international travel to the 
United States offers the opportunity to contribute in a major way to 
President Obama's goal to ``double the country's exports over the next 
5 years, an increase that will support two million jobs in America.''
    Specifically, we have reached three conclusions:

        1. The U.S. has the opportunity to create up to 500,000 new 
        jobs and generate up to USD 60 billion in additional exports 
        annually if it can recapture its lost market share of overseas 
        international travel by 2015, or, said differently, if it can 
        grow the number of international visitors from overseas from 
        23.8 million in 2009 to 40 million in 2015. Irrespective of the 
        target that one would like to select, it should be noted that 
        each additional million international visitors from overseas 
        generates USD 3.2 billion in additional exports and creates 
        27,000 new jobs (see Appendix A for details);

        2. Challenges with visas and the experience crossing the 
        country's borders are important obstacles to travel to the U.S. 
        At a time when the country is in the process of beginning to 
        promote travel to the U.S. in international markets, it seems 
        quite appropriate to address these obstacles (see Appendix B 
        for details);

        3. Addressing the visa and customer service experience related 
        issues can be done through a few measures at minimal net direct 
        cost to the U.S. tax-payers and an effective partnership with 
        the State Department, the Department of Homeland Security, 
        Congress, local airport authorities and the travel and tourism 
        industry.

    While our findings and recommendations are detailed in the attached 
report, we would like to summarize our recommendations here.
    Building on a number of efforts that have been initiated by the 
administration and Congress to address some of the visa and border 
issues,\1\ the Travel and Tourism Advisory Board has developed 10 
concrete recommendations to address key visa and customer service 
issues. At the risk of repetition, increasing the number of 
international visitors from overseas to the U.S. to more than 40 
million by 2015 would create up to 500,000 new jobs and generate up to 
USD 60 billion in additional exports annually (Exhibit 1).
---------------------------------------------------------------------------
    \1\ This includes trusted traveler programs, a few pilot efforts in 
some model airports, the ramp up of the visa waiver program, the Travel 
Promotion Act, and various efforts to improve visa processing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Specifically, the Board has the following seven recommendations to 
address the key visa-related issues. The first four recommendations are 
focused on improving the quality of service as it relates to visa 
processing. The following three recommendations would drastically 
reduce the need for in-person interviews for visa processing, which is 
a major source of issues and workload today.
    Recommendation number 1: Establish a maximum wait time of 5 days 
for visa processing to make it competitive with the European countries.
    Out of the 222 overseas posts that the State Department operates, 
the wait time for an in-person interview was less than 7 days at 164 
posts. However, the wait time in China, Brazil, and to a lesser extent 
India, have tended to be quite long (i.e., several weeks) and 
significantly higher than the wait times for the countries that the 
U.S. is competing with (Exhibit 2). Reducing the wait time in these 
critically important countries to 5 days would help make travel to the 
U.S. more competitive.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recommendation number 2: Add a few hundred officers in visa 
processing centers in key emerging countries to reduce wait time and 
meet growing demand.
    We recommend that you encourage the State Department to quickly 
ramp up the staffing of visa processing centers in key emerging 
countries (notably China, Brazil and India) by a few hundred officers. 
Across China and Brazil, 500-600 additional officers would seem 
sufficient to meet growing demand and reduce wait times (Exhibit 3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The net cost to the U.S. tax-payers to add these resources is non-
existent as each officer generates about USD 1.5 million in fees per 
year (Exhibit 4).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to the State Department, this incremental staffing should 
take the form of officers with a limited time contract to avoid 
creating a glut of permanent State Department employees. Also, the 
State Department should consider the extent to which implementing video 
conferencing would be helpful in optimizing the deployment of its 
staff. The actual staffing requirement may eventually be reduced if and 
when recommendations number 5, 6 and 7 are implemented. We believe that 
this is not a reason to delay the immediate addition of incremental 
staff because of the attractive return and the flexibility of limited 
time contracts.
    Recommendation number 3: Add 4-6 visa processing locations each in 
China, Brazil and India. We recommend that you ask the State Department 
to quickly increase the number of processing locations in the key 
emerging countries, probably adding 4-6 visa processing locations each 
in China, Brazil and India (Exhibit 5). The key criteria for choosing 
the additional cities should be their size and economic importance. 
Priority cities in China should probably include: Chongqing, Dalian, 
Shenzhen, Tianjin, and Wuhan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recommendation number 4: Enable the State Department to retain all 
the visa processing and consular fees to cover the costs of its 
consular staffing and visa processing activities.
    The rationale for this recommendation and the expected benefits are 
to enable the State Department to develop its visa processing 
activities with a profit center focus, i.e., keep adding officers until 
profitable demand is met.
    Recommendation number 5: Increase the validity of non-immigrant 
visas for Chinese visitors to 10 years.
    The rationale for this recommendation and its expected benefits are 
to reduce the workload of the officers as visa renewals represent a 
significant share (30 percent) of the current workload in China and to 
reduce the burden for Chinese visitors. We note that such a measure has 
been taken for other countries, including Brazil and India.
    Recommendation number 6: Give the State Department more discretion 
as it relates to in-person interviews.
    We recommend that you work with Congress to give the State 
Department more discretion as it relates to in-person interviews. 
Congress should find out from State and Homeland Security whether in-
person interviews are necessary and appropriate for 100 percent of 
prospective visitors from non-visa waiver countries or whether 
technology and judgment could enable the State Department to grant 
visas to certain visitors without an in-person interview and without 
compromising security.
    One option would be to move to a principle of interview-by-
exception, i.e., the practice of many of the countries we compete with. 
Another option would be for the Secretary of State to take greater 
advantage of the authority she has under INA sec. 222(h), subject to 
certain limitations, to waive the personal interview requirement on the 
basis of a U.S. national interest or if necessary because of unusual or 
emergent circumstances. The State Department is in fact considering 
possible categories of applicants for whom the Secretary might exercise 
her interview waiver authority (for example, Brazilian teens younger 
than 16 or Chinese students reapplying for student visas).
    Recommendation number 7: Restore the ability of the Secretary of 
Homeland Security to admit countries into the Visa Waiver Program (VWP) 
with a refusal rate of 10 percent or less by decoupling the air exit 
requirement from the VWP. Work with key strategic partners to 
facilitate their entry into the program.
    As was experienced with South Korea, including a country in the 
visa waiver program has a large positive impact on the volume of 
international travel from that country to the U.S.
    We recommend that you ask the State Department to nominate 
additional countries for inclusion in the visa waiver program over the 
next few years. To this end, The TTAB recommends that you ask Congress 
to separate the requirement to implement a biometric air exit system 
from the Visa Waiver Program. Such a change would once again allow the 
Secretary of Homeland Security to designate new countries as Visa 
Waiver Program members by restoring the visa refusal rate cutoff of 10 
percent. This action would pave the way for several strategic markets 
to join the program, facilitating the entry of millions of new visitors 
to the United States.
    Major international partners around the world that merit 
consideration include, in particular, Brazil as well as other key 
countries from South America, e.g., Argentina and Chile (Exhibit 6). 
According to the Department of Homeland Security, there are other 
factors, beyond the refusal rate issue, which make Brazil, Argentina, 
and Chile ineligible for VWP membership under current law. For example, 
they have not signed the required information sharing agreements (PCSC 
and HSPD-6); the required reporting of lost and stolen passports to 
INTERPOL is either rare (in the case of Brazil) or non-existent 
(Argentina, Chile); Brazil does not offer visa-free travel to U.S. 
passport holders, and charges a combined $160 fee for entry; and only 
Brazil currently issues biometric passports--another legal requirement 
for entry into the VWP.
    While it may take a while before these countries are ready, we 
recommend that the administration take a proactive approach to moving 
the process forward, given the economic weight of these countries and 
that Brazilian citizens do not need a visa to visit the Schengen 
countries today.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Travel and Tourism Advisory Board then has three 
recommendations to address the issues related to the customer service 
experience at the Nation's borders:
    Recommendation number 8: Establish a goal for wait time at 
international airports and cruise terminals of less than 20 minutes and 
measure the performance against that goal (Exhibit 7).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recommendation number 9: Strengthen the implementation of the Model 
Ports of Entry program, through an increased staffing flexibility and 
customer service focus and through a public/private partnership 
established at each model port (``Adopt an airport program'').
    Building on a number of current initiatives, steps can be taken to 
reduce peak wait times and improve the customer service experience at 
key ports. They include:

  <bullet> Increasing staffing flexibility of the CBP officers, e.g., 
        enabling the use of flexible working hours and part-time labor 
        to be better able to meet fluctuations in the number of 
        incoming travelers, and enhancing the use of scheduling system 
        and staffing models;

  <bullet> Enhancing the overall customer service focus, e.g., 
        deploying the traveler satisfaction survey developed by the 
        Department of Homeland Security, updating the Explore America 
        International Travelers survey last conducted in 2006, 
        continuing to deploy customer service training, and directing 
        CBP officers to greet arriving passengers with ``Welcome to the 
        United States'' or ``Welcome home.''

    A promising approach to get this done, and make the arrival 
experience more welcoming, would be to establish a public/private 
partnership at port level with the local port authority, DHS 
representatives, and main relevant airlines and local travel and 
tourism companies, to make the arrival experience more welcoming.
    We, therefore, recommend that you work with the Department of 
Homeland Security, local port authorities and the travel and tourism 
industry to initiate such public/private partnerships for each key 
port.
    Recommendation number 10: Ramp up the Global Entry Program for U.S. 
citizens, permanent residents, and trusted international visitors to 
reach a number of participants sufficient to materially reduce the 
workload of the Customs and Border Protection officers (i.e., 10 
million). This entails specifically working with the Department of 
Homeland Security to:

  <bullet> Ramp up the Global Entry Program for U.S. citizens and 
        permanent residents, e.g., by:

    <ctr-circle> Enhancing marketing efforts, including encouraging the 
            State Department to provide information about Global Entry 
            to people who are applying for a U.S. passport; and by 
            leveraging the loyalty program of global travel and tourism 
            industry players;

    <ctr-circle> Continuing to increase the number of participating 
            airports, e.g., by adding the Minneapolis-Saint Paul 
            International airport;

    <ctr-circle> Ensuring that the Global Entry kiosks are well placed 
            in the arrival halls of participating airports;

    <ctr-circle> Utilizing the Department of Commerce posts around the 
            world to educate travelers about the program.

  <bullet> Expand the Global Entry Program to international visitors, 
        e.g., by:

    <ctr-circle> Finalizing negotiations with the U.K., France, Germany 
            and Japan to allow reciprocal use of the Global Entry 
            Program;

    <ctr-circle> Opening the Global Entry Program to holders of long-
            term, non-immigrant visas such as E, L or O visas;

    <ctr-circle> Integrating the APEC Business Travel Card (ABTC) in 
            the program. The ABTC allows travelers designated by 
            governments of the APEC region as key business leaders to 
            receive expedited visa interviews and to use specialized 
            entry lines upon arrival in APEC countries.

    Finally, the Committee suggests a number of steps to accelerate 
progress and follow through on these recommendations. Specifically, we 
believe the following steps could be quite impactful:

  <bullet> Organize early in 2011 a joint meeting of President Obama 
        with yourself, the Secretary of State and the Secretary of 
        Homeland Security focused on setting the goal of achieving more 
        than 40 million overseas visitors per year by 2015 and taking 
        the measures necessary to facilitate international travel to 
        the U.S.;

  <bullet> Ensure the participation of President Obama and yourself at 
        the World Travel and Tourism Summit to be held in Las Vegas on 
        May 17-19, 2011, which can provide a great platform for the 
        administration to send the right message to the world;

  <bullet> Establish a public/private partnership or working group with 
        the mission to drive progress in the implementation of the 
        above recommendations and toward the goal of achieving more 
        than 40 million international visitors per year by 2015:

    <ctr-circle> Its members could include: representatives of the 
            White House, the State Department, the Department of 
            Homeland Security, the Department of Commerce, the 
            Corporation for Travel Promotion, the U.S. Travel 
            Association, the Air Transport Association, and a few U.S. 
            airlines and travel and tourism enterprises;

    <ctr-circle> It would establish and track a set of key performance 
            indicators to monitor progress on the above mentioned 
            issues (Exhibit 8);

    <ctr-circle> It would meet quarterly to discuss progress and 
            issues, and would report annually to the President and 
            Congress.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
    Mr. Secretary, we believe that the country has a unique opportunity 
to create a large number of jobs and stimulate its exports by taking 
these measures. We are ready to discuss these recommendations in 
greater detail and to work with your staff, the State Department and 
the Department of Homeland Security on next steps. We thank you for 
focusing your time on these matters and giving us the opportunity to 
have a positive impact.
            Sincerely,
                                         Rossi Ralenkotter,
                                                          Chairman,
                                       Travel & Tourism Advisory Board.
                                               Hubert Joly,
                                                          Chairman,
                                      Travel Facilitation Subcommittee.
                                 ______
                                 
                               Appendix A
    The U.S. has the opportunity to create up to 500,000 new jobs and 
generate up to USD 60 billion in additional exports annually if it can 
recapture its lost market share of overseas international travel, or, 
said differently, if it can grow the number of international visitors 
from overseas from 23.8 million in 2009 to 40 million in 2015. 
Irrespective of the target that one would like to select, it should be 
noted that each additional million international visitors from overseas 
generates USD 3.2 billion in additional exports and creates 27,000 new 
jobs.
    International travel to the U.S. is already a major source of 
exports and jobs today. In 2009, there were 23.8 million overseas 
arrivals in the U.S. These overseas visitors generated USD 75 billion 
in spending in the country (excluding international air travel), 
representing about 700,000 jobs. In addition, international travel to 
the U.S. indirectly contributes to exports, as some of these visitors 
decide to acquire U.S. products and services when they visit trade 
shows and/or potential suppliers.
    However, the U.S. has lost a third of its market share in the last 
10 years (Exhibit A-1). Compared to 25.9 million in 2000, the U.S. 
would have had 34 million overseas visitors in 2009 instead of 23.8 
million if it had held share, i.e., almost 50 percent more. While part 
of the market share loss can be explained by competition from an 
increasingly diverse set of countries, it is striking that most of the 
market share loss happened in the 2001-2 timeframe, coinciding with 
heightened security concerns by the U.S.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Particularly noteworthy for the future is the fact that the U.S. 
performance has lost ground in the key BRIC countries that represent 
the fastest growing part of the world's economy and of the 
international travel market. As an example, the number of annual visits 
from China to Europe is around 3 million versus 500,000 to the U.S. 
Similar gaps exist for the other BRIC countries (Exhibit A-2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is particularly troubling as the BRIC countries in general and 
Asia in particular represent a major, fast growing part of the world's 
economy and of the international travel market. As a group, the GDP of 
the BRIC countries is expected to represent 20 percent of the world's 
GDP in 2014 versus 15 percent in 2009 and 7 percent in 1999. The 
middle-class of China and India will soon reach several hundred million 
individuals with a purchasing power comparable to that of the developed 
countries, many of whom are and will be eager to travel 
internationally. This represents a dual opportunity for the United 
States: the opportunity to sell U.S. products and services to these 
countries; and the opportunity to attract visitors from these countries 
who are interested in visiting the United States as tourists or as 
business people. It is critical that the United States does not miss 
this opportunity.
    Looking ahead, the value to the U.S. economy of recapturing the 
lost market share of international travel from overseas is the creation 
of up to 500,000 new jobs and the generation of up to USD 60 billion in 
additional exports annually, as every additional million visitors from 
overseas generates USD 3.2 billion in additional revenue or export and 
creates 27,000 jobs (Exhibit A-3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                               Appendix B

    Challenges with visas and the experience crossing the country's 
borders are important obstacles to travel to the U.S. At a time when 
the country is in the process of beginning to promote travel to the 
U.S. in international markets, it seems quite appropriate to address 
these obstacles.
    This is highlighted by various pieces of market research and 
benchmark data detailed in the attached report. As an example, 
according to a survey conducted by Explore America in 2006, 39 percent 
of international travelers believe that the United States is the worst 
country or region when it comes to being traveler-friendly in terms of 
obtaining necessary documents or visas, and having immigration 
officials who are respectful toward foreign visitors. This compared 
with 16 percent for the Middle East, 12 percent for Africa, and 6 
percent for Europe (Exhibit B-1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While some of the issue may be perception versus reality, and while 
some progress may have recently been accomplished, the U.S. does suffer 
from a real performance gap as it relates to the way it treats 
potential visitors. As an example, a Chinese citizen wanting to travel 
to the United States needs to wait several weeks to have an appointment 
for the required in-person interview. This compares to 5-12 calendar 
days for a trip to a European country. This is quite an obstacle 
(Exhibit B-2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    An aggravating factor is the fact that the United States has visa 
processing centers in only five cities, compared to 12 for the United 
Kingdom. As a result, there are 10 cities in China with more than 2 
million urban inhabitants who do not have a U.S. visa processing center 
(Exhibit B-3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As it relates to Brazil, the competitive issue is even more 
serious. The European Schengen countries do not require a visa for 
Brazilian citizens to visit them. In contrast, a Brazilian citizen will 
need to make an appointment at one of four U.S. visa processing centers 
and wait several months for that appointment (wait times in Brazil have 
been quite high). This means that a trip to the United States often 
requires a Brazilian citizen to make two trips if he or she wants to 
travel to the U.S.--one trip to a city with a visa processing center 
and then the trip to the U.S. itself. This is an expensive and 
cumbersome process (USD 2,600 for a family of four from Manaus needing 
to go to Brasilia to get their visa).
    The situation of wait times is somewhat better in India, although 
quite uneven across visa processing centers. However, the number of 
U.S. visa processing centers is five compared to 11 for the U.K. As a 
result, there are eight cities in India with more than two million 
inhabitants who do not have a U.S. visa processing center.
    The experience of international visitors at the country's borders 
is also a source of concern for two main reasons: the general 
perception of international visitors as relates to processing time and 
the way they may be treated at the border is quite mixed; in addition, 
delays in passenger screening is the major cause of missed 
international connections, which is a significant source of loss for 
U.S. airlines. In 2009, 39 percent of overseas travelers to the U.S. 
waited more than 30 minutes to be cleared through immigration at the 
Nation's airports (Exhibit B-4).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition, wait times are quite unpredictable and peaks can be 
quite extreme (Exhibit B-5).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While it would be inappropriate to assume that the visa wait time 
and travel required to a visa processing center are the only drivers of 
the difference in number of visitors, every element counts. 
Specifically, as the global economy becomes more integrated, being able 
to fly to and from the key partners of the global economy--at short 
notice and efficiently--becomes increasingly important.

                              Attachment B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Klobuchar. Thank you very much, Mr. Sprouls.
    Mr. Dow.

          STATEMENT OF ROGER DOW, PRESIDENT AND CEO, 
                    U.S. TRAVEL ASSOCIATION

    Mr. Dow. Well, thank you very much, Chairman Klobuchar, and 
Senator Blunt, and the esteemed members of the Subcommittee.
    I'm pleased to offer testimony today on behalf of the U.S. 
Travel Association, which is a non-profit association which 
represents America's 790 billion travel industry. And, our 
mission is simple: To increase travel to and within the United 
States. Last year this industry generated $1.8 trillion in 
economic output and 14 million good domestic jobs that cannot 
be outsourced.
    I thank you for holding this hearing today because it shows 
a critical role that international travel plays in both meeting 
the nation's export goals and improving our economy.
    Since we're talking about competitiveness here in the 
international sector, I'd like to show you a short video clip 
that illustrates the steep hurdles that international visitors 
face when they plan travel to the United States.
    This is a short news segment that was played on national TV 
in Brazil on the eve of President Obama's visit last month, and 
it records the reactions of Brazilians who are attempting to 
apply for a visa in the U.S. Consulate.
    I think this is the reality you'd like to see.
    Senator Klobuchar. Good.
    Good morning, Brazil, is that the name of the show?
    [Video Presentation.]
    Mr. Dow. So, I think if you look at this, it shows vividly 
that the U.S.'s entry process is frustrating, bureaucratic, 
inefficient, and costly to the potential traveler; and this is 
no way to present our country to friendly visitors from 
outside. And, as you pointed out, other countries are taking 
big advantage of this.
    To quickly boost U.S. exports, accelerate U.S. economic 
growth, and create new American jobs that can't be outsourced, 
we have to address self-imposed barriers, and it would not 
reduce security, and would not cost the taxpayers a dime, as 
Mr. Cloobeck has mentioned.
    If America were to reclaim our historic share, as you've 
said, of overseas travelers by 2015 and maintain that share for 
5 years, that adds $100 billion to the U.S. economy during the 
next decade and creates 700,000 needed new American jobs.
    Travel is already America's largest export industry. Its 
$134 billion in exports in 2010 created a $32 billion trade 
surplus. If you look at this chart that we have over here, that 
large, purplish line, is basically a million jobs coming from 
the travel sector. The other shorter lines are from 
transportation equipment, like Boeing planes; machinery, like 
Caterpillar Tractors, 300,000 jobs each; or electronics, 
300,000 jobs. So, you see, this is equal to all those added 
together.
    And, we're outperforming America's top manufacturing 
industries, and is this a very labor-intensive industry. So, 
you basically have $110,000 spent by a traveler equating to a 
single job created.
    So, we've got to put an end to these barriers that are 
going on; and one of the ways to solve that is quickly through 
increased promotion, which has been talked about; another would 
be to improve this inefficient process that we have. If a 
traveler can't predict what's going to happen, then they can't 
plan their trip; and these 100-day delays that Mr. Sprouls was 
talking about don't allow for planning.
    If you look at what's going on with the competition, I want 
to address a couple of things that were said: One, Mr. Ensign 
asked, is there an example of what visa reforms did? Yes. South 
Korea in 2009 and 2010 when they got visa waiver status 
increased 49 percent, while the rest of the world was almost 
flat, or decreased. And, that was over a 38 percent increase 
over the year before. So, this would be a huge increase.
    I'd also like to address video conferencing. It was said 
that video conferencing isn't efficient. I was told by the 
State Department that once a farmer had calluses on his hand; 
he said he was a farmer but he didn't have calluses on his 
hand. They spotted it. The next day I sent a picture to the New 
York Times of a physician in New York City examining an eyeball 
of someone in Los Angeles.
    The State Department's own testimony has said that this 
works, and does not take away efficiency. And, that was said in 
2009.
    And, last, we're willing to put up with this frustration 
that people experience, and that's a shame, because while 
Brazil did increase travel to the U.S., Brazil's travel to 
Western Europe, has increased 225 percent during the same time.
    So, the bottom line is that we can't be satisfied with, 
well, it is okay to make travelers a little uncomfortable 
because numbers are going up. We've got to address this, and I 
implore this group to make this a high priority.
    Thank you.
    [The prepared statement of Mr. Dow follows:]

          Prepared Statement of Roger Dow, President and CEO, 
                        U.S. Travel Association

Introduction
    Chairman Klobuchar, Ranking Member Blunt and members of the 
Subcommittee: I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the national, non-profit organization 
representing all sectors of America's travel industry. U.S. Travel's 
mission is to increase travel to and within the United States. Last 
year the $759 billion travel industry generated a total of $1.8 
trillion in total economic output.
    I applaud you for holding today's hearing to discuss the critical 
role that international travel plays in meeting the nation's export 
goals and improving the U.S. economy. I would also like to thank you 
for the strong bipartisan leadership you have demonstrated on travel 
issues during your time here in Washington.

The Economic Opportunities of Travel
    Travel provides good, domestic jobs that cannot be outsourced. In 
2010, travel supported 14.1 million jobs and is among the top 10 
employers in 48 U.S. states and the District of Columbia. For example, 
travel directly employs more than 140,000 Minnesotans, contributes $11 
billion annually to the Minnesota economy and generates more than $3 
billion in state and local tax revenues in Minnesota. Similarly, travel 
directly employs more than 125,000 Missourians, contributes more than 
$12 billion to the Missouri economy and generates nearly $2 billion in 
tax receipts in Missouri. In every state and county across America, 
travel helps pay the salaries of police, firefighters and teachers 
without creating much new demand for those public services.
    I am here today to tell you that increasing travel to the United 
States is the most effective form of economic stimulus--and it doesn't 
cost taxpayers a dime. International travel is the export sector that 
is easiest to boost. When visitors travel to the United States from 
abroad, they inject new money into the U.S. economy by staying in U.S. 
hotels, spending in U.S. stores, visiting U.S. attractions and eating 
at U.S. restaurants--purchases that are all chalked up as U.S. exports 
that contribute positively to America's trade balance.
    Larry Summers, the former director of the National Economic 
Council, recently observed that ``the easiest way to increase exports 
and close the trade gap is by increasing international travel to the 
United States.''
    Our own analysis shows that if the U.S. recaptured its historic 
share of worldwide overseas--or long-haul--travel by 2015 and 
maintained that share through 2020, it would add nearly $100 billion to 
the economy over the next decade and create nearly 700,000 more U.S. 
jobs. Increasing America's share of worldwide long-haul travel is a no-
brainer and, with the right policies, should be relatively easy to do.
    International travel is already America's largest export, 
representing 8.7 percent of U.S. exports of goods and services in 2010 
and nearly one-fourth of services exports alone. The travel industry's 
$134.4 billion in exports contributed more than any other industry to 
America's $1.8 trillion worth of total goods and services exports. And 
in a time of yawning national trade deficits, the travel sector enjoys 
an overall trade surplus: $31.7 billion in 2010.
    Increasing travel exports is more than just a sound economic goal, 
American livelihoods depend on it. Last year, every $110,000 of 
overseas visitor spending in the United States supported one new U.S. 
job. Thus, for every 37 new visitors spending on average $3,000, one 
new job is created. In comparison, every one million dollars spent on 
manufacturing goods supported less than three jobs last year. 
Therefore, compared to each of the top five export-related 
manufacturing industries, the travel industry delivered significantly 
more jobs (see Appendix A).
    Unlike other goods and services, the barriers to travel are 
primarily self-imposed. There are no trade agreements to be negotiated 
or tariffs to reduce with other countries. The principle barriers to 
increased travel to the United States are the inefficiencies, 
uncertainties and delays that characterize our visa and entry process 
and that discourage foreign tourists and business travelers from 
visiting the United States.
    If this country is serious about achieving the national goal of 
doubling exports within 5 years, Congress and the Administration have 
to show America welcomes legitimate international visitors by reducing 
barriers to their entry. The stakes are enormous. The 10 years from 
2001 through 2010 were a lost decade for America's travel industry and 
the U.S. economy. While global international travel grew over the last 
decade, America failed to keep pace. The opportunity costs of this 
slippage are staggering. If America had kept pace with the growth in 
global long-haul international travel between 2000 and 2010, 78 million 
more travelers would have visited the United States, adding $606 
billion to the U.S. economy and supporting more than 467,000 additional 
U.S. jobs.
    It is unconscionable that in a time of weak economic growth, 
followed by deep recession, government neglect of this booming export 
sector caused America to leave so much economic prosperity on the 
table. We cannot afford to make the same mistake in this current 
decade. As described below, these lost opportunities are not a tradeoff 
with security--we can have robust, growing and secure travel.
    On a worldwide basis, total international tourist arrivals are 
projected to grow 36 percent between 2010 and 2020, resulting in $2.2 
trillion in direct travel spending and 62 million jobs. Over the same 
period, international travel revenue as a share of global GDP is 
forecast to increase by 10 percent.
    The most lucrative segment of international travel is overseas 
travel because they stay longer and spend more money. Each overseas 
visitor to the United States spends an average of $3,000 at hotels, 
restaurants, retail and other U.S. businesses--and that doesn't even 
count the value of goods purchased and deals done while here. It is 
time for America to compete in a serious way for these valuable 
international traveler dollars.
    Increasing secure travel to the United States also is an integral 
part of a successful foreign policy. As noted by a federal advisory 
committee to the Departments of Homeland Security and State in 2008:

        Our long-term success requires not only that we deter and 
        detect determined adversaries, but also that we persuade 
        millions of people around the globe of our ideals--democratic 
        freedom, private enterprise, human rights, intellectual 
        pursuit, technological achievement. That persuasion requires 
        human interaction, and each visitor to the United States 
        represents such an opportunity. Raw statistics are important in 
        analyzing our achievements and challenges, but so are the 
        attitudes we display. Treating prospective and actual visitors 
        with dignity and respect will reinforce, not diminish, our 
        security.

    Our efforts must include three key elements: first, overseas 
promotion of America as a premier travel destination; second a 
reduction in visa barriers to inbound international visitation, which 
includes expansion of the Visa Waiver Program to new allies; and third, 
a streamlined and more welcoming customs clearance process at major 
U.S. ports of entry for our international guests. I will discuss each 
element in turn.

International Travel Promotion
    This committee, including Senator Klobuchar, and the House Energy 
and Commerce Committee, including then-Representative Blunt, led the 
effort last year to pass the Travel Promotion Act and create a public-
private partnership to explain U.S. travel and security policies and 
welcome more visitors to the United States. Oxford Economics estimates 
that the travel promotion program authorized by the Act could attract 
as many as 1.6 million new visitors each year generate as much as $4 
billion in new visitor spending annually and create 40,000 new U.S. 
jobs. Facing a global competitive disadvantage, Congress showed a will 
to act, and America will reap the rewards for years to come. We are 
confident that travel promotion will be a success and will help attract 
more international visitors to the United States.

The Visa System
    The single greatest roadblock to increased overseas visitation is 
an inefficient visa system that can discourage travelers from 
considering the United States as a preferred destination. Promoting 
America as a desirable travel destination and streamlining the 
immigration clearance process will not lead to increased visitation if 
travelers are unable to obtain a required U.S. visitor's visa.
    Look at the situation from a leisure or business traveler's point 
of view. In some countries, the wait time for U.S. visas can be as long 
as 100 days. The $140 visa application fee is non-refundable and, of 
course, applying for a visa is no guarantee that a visa will be issued 
with nearly 20 percent of applicants being refused. The real cost of 
obtaining a U.S. visa is far greater, particularly when potential 
visitors do not live near a consular post issuing visas and therefore 
must travel hundreds if not thousands of miles and pay for a flight and 
hotel to make a mandatory trip to a U.S. consulate, and then wait hours 
for an interview that, on average, lasts for 3 minutes.
    Another disturbing aspect of the visa process is the lack of 
transparency, even in the way that visa interview dates are issued. 
Recent interviews with tour operators in China and India confirm what 
the GAO discovered in 2007: that some consulates artificially limit the 
availability of interview dates to cutoff the queue and mask the 
backlog--making it next-to-impossible for people to assess how long 
they will have to wait before they can actually travel to the United 
States. This lack of accurate information has obvious ramifications for 
all kinds of travelers: How can you schedule a business trip or 
vacation if you do not know how long it will take for your visa to come 
through? Our research suggests that there is no predicting how long the 
visa application process will take--and there is no getting your money 
back if you fail.
    U.S. Travel and the entire travel community understand that issuing 
visas is a complex and sensitive process, but there are many 
opportunities to increase efficiency without compromising security. On 
multiple occasions over the past decade, the U.S. Government 
Accountability Office (GAO), the U.S. Department of State Office of 
Inspector General (OIG), and federal advisory committees and non-
partisan think tanks have noted that the Department of State does not 
have a long-term strategy for managing visa operations, and have 
recommended initiatives to improve efficiency and reduce interview wait 
times. While the Department of State has made progress on some fronts, 
its efforts to date seem to be band-aids rather than permanent 
solutions, and many long-standing recommendations have yet to be 
implemented.
    Congress and the Administration have an opportunity to take the 
lead and accelerate reform by focusing on improving the visa system's 
efficiency and productivity while maintaining strict security 
standards. Needed reforms include:

  <bullet> Improved applicant processing. Reassigning existing consular 
        officers to, or hiring temporary commissioned consular officers 
        for, the consulates with the heaviest visa demand, such as 
        consulates in Brazil, China and India.

  <bullet> Greater access to U.S. Consulates. Piloting the use of 
        secure videoconferencing technology to conduct visa interviews 
        remotely.

  <bullet> Increased efficiency. Negotiating longer visa terms with 
        China. Currently, the U.S. and China only provide each other 
        one-year visa terms. In contrast, the United States has 10-year 
        visa terms with Brazil and India. This change would reduce the 
        visa workload of U.S. consulates in China, which would allow 
        them to process U.S. visas more efficiently. This change will 
        not cost any new tax dollars nor reduce U.S. security, yet it 
        would have a significant economic benefit.

    In addition, the Executive Branch should increase its efforts to 
expand the Visa Waiver Program (VWP) to qualified countries. The VWP 
offers significant security benefits to the United States by requiring 
participating countries to meet stringent criteria related to law 
enforcement cooperation, information-sharing agreements, travel 
document standards, and in-country inspection. As Marc Frey, the former 
director of the VWP Program at DHS wrote recently, ``the security value 
of conducting a visa interview with every one of millions of travelers 
is vastly outweighed by the security benefits of the Visa Waiver 
Program that pinpoints data about who poses a threat, provides 
documents that are harder to forge, enhances foreign security 
standards, and allows routine auditing of those standards by the U.S. 
Government.''
    Brazil is currently one of the most obvious candidates for 
potential inclusion in the program. While Brazil does not currently 
qualify for visa-free travel status, it is likely that Brazil could 
meet the requirements in the foreseeable future. Establishing a ``road 
map'' process for countries to improve their security posture for 
eventual evaluation for the VWP can provide a useful structure for 
countries to be considered.

  <bullet> Institute formal VWP working groups. Therefore, we urge that 
        Congress press the State Department to form a formal working 
        group with Brazil and other potential candidates that will 
        outline specific actions that each country could begin to take 
        today to meet the visa waiver requirements. Through this 
        working group progress in meeting the program's qualifications 
        can then be measured and evaluated.

  <bullet> Enact The Secure Travel and Counterterrorism Partnership 
        Program Act of 2011. We also urge the Committee to support 
        bipartisan legislation recently introduced by Senators Barbara 
        Mikulski and Mark Kirk (S. 497) that updates the VWP framework 
        to reflect improved capabilities to track travelers entering 
        and exiting the United States and improves annual reporting to 
        increase oversight and transparency of the program.

    All of these reforms can be implemented quickly and at little or no 
cost. The payoff in increased visitation, new tax revenues, U.S. jobs 
and economic growth would be substantial.
    America's greatest opportunity to increase travel exports lie with 
the rapidly growing economies of Brazil, China and India. These three 
countries have burgeoning middle-class populations that are spending 
billions on overseas travel, and they represent the lion's share of the 
projected future growth in international travel. Having grown more than 
140 percent from 2000 to 2010, global long-haul outbound travel from 
Brazil, India and China shows no signs of slowing and is projected to 
more than double in the next 10 years, growing by an estimated 107 
percent.
    U.S. Travel is currently working to complete a comprehensive report 
on the U.S. visa process for visitors from Brazil, China and India and 
offer more details on these and other recommendations for a 10-year 
strategy to increase U.S. travel exports. We expect to issue the report 
in May and hope to work with this Committee and other committee in 
Congress to enact the report's recommendations.

Immigration Processing upon Arrival into the United States
    Over the last decade, as recommended by the 9/11 Commission, the 
U.S. Government has rightly built additional layers of security into 
America's border entry process. However, the way some of these policies 
are implemented has had the unintended effect of alienating some 
international travelers. Overseas visitors complain about hour long 
waits at the inspection areas at airports and of unfriendly treatment 
by inspection officials.
    This negative perception of the U.S. entry process was on full 
display in 2009 when President Obama traveled to Copenhagen to help 
promote Chicago's bid for the Olympic Games. An International Olympic 
Committee (IOC) member from Pakistan, in the question-and-answer 
session following Chicago's official presentation, pointed out to the 
President that entering the United States can be ``a rather harrowing 
experience.''
    When IOC members are expressing concern to our President about the 
kind of welcome international visitors would get from airport officials 
when they arrive in this country to attend the Olympic Games, we need 
to take seriously the challenge of reforming our entry process to make 
sure we are welcoming our friends around the world, even as we ensure a 
secure system.
    Since 2006, our industry has partnered with the Department of 
Homeland Security's U.S. Customs and Border Protection (CBP) agency 
offering strategic advice from private-sector experts on how to provide 
improved customer service and increased efficiency in traveler 
facilitation. CBP has implemented some recommendations quite 
effectively, such as the adoption of a welcome video--produced by 
Disney--that is now played at all major international U.S. airports, 
and the creation of the Global Entry Program to fast-track previously 
vetted Americans and select international visitors returning from 
international trips. We intend to continue our partnership with CBP to 
ensure additional progress is made to the entry process in key areas 
such as:

  <bullet> Passenger screening throughput.

    <ctr-circle> Direct that 150 of the 300 CBP officers in the 
            President's Fiscal Year 2012 budget request be assigned to 
            the top 20 international U.S. airports.

    <ctr-circle> Establish a passenger wait time goal of 20 minutes per 
            individual and use it as a performance measure to help CBP 
            assess whether staffing levels are sufficient to address 
            passenger volume and develop a more accurate method for 
            collecting passenger wait time information for travelers.

  <bullet> Implementation of a customer service improvement strategy.

    <ctr-circle> Develop comprehensive CBP customer service reports and 
            include them in the Air Travel Consumer Report issued by 
            Department of Transportation's Office of Aviation 
            Enforcement and Proceedings (OAEP).

    <ctr-circle> Work with the private sector to review existing 
            customer service training and provide new training 
            recommendations.

    <ctr-circle> Establish metrics to measure the customer service 
            performance of CBP air ports of entry, and provide rewards 
            to ports that demonstrate exceptional performance.

    <ctr-circle> Direct CBP Officers to greet passengers arriving at 
            primary inspections with ``Welcome to the United States'' 
            or ``Welcome home.''

  <bullet> Transparency and Oversight. Issue quarterly reports to 
        Congress on the Model Ports of Entry Program that includes 
        specific actions taken by CBP at each of the 20 participating 
        airports and includes metrics used by CBP to measure progress.

    In addition, U.S. Travel released a report last month that presents 
a comprehensive review of aviation security conducted by a blue ribbon 
panel of experts representing all essential stakeholders that--for the 
very first time--takes account of the traveler's point of view. That 
report examines the problems that add to the ``hassle factor'' of air 
travel within the United States and lays out a comprehensive checklist 
of recommendations for Congress on aviation security reform that will 
maintain security while making the system more efficient. Several of 
the recommendations are aimed at smoothing the process for 
international visitors arriving in the U.S., especially those who need 
to connect to additional flights within the U.S. including:

  <bullet> Reduce Duplicative TSA Screening for International Arrivals. 
        DHS should enable certain low-risk passengers who are traveling 
        to another domestic airport to forego checked baggage and 
        passenger screening upon landing in the U.S.

  <bullet> Expand trusted traveler programs to qualified international 
        passengers. DHS should expand access to international trusted 
        traveler programs for international passengers entering the 
        U.S., as well as lead efforts to establish a multinational 
        network of streamlined entry procedures for low-risk travelers.

  <bullet> Eliminate duplication between TSA and Customs and Border 
        Protection (CBP). DHS should streamline its operations at U.S. 
        international airports to reduce unnecessary duplication and 
        leverages CBP and TSA resources, authorities, and capabilities.

  <bullet> Push for international cooperation with U.S. security 
        standards. The federal government must continue to push for 
        international cooperation in the development of international 
        aviation security, including both bilateral and multilateral 
        approaches, as well as with organizations such as the 
        International Civil Aviation Organization (ICAO), to strengthen 
        aviation security efforts while promoting travel and protecting 
        travelers' rights.

Conclusion
    In summary, we believe that travel exports offer the best 
opportunity to boost U.S. exports over the next 5 years. We also 
believe that increased travel offers the best, lowest cost, most 
efficient means of boosting U.S. economic growth and creating new U.S. 
jobs. The economic data on travel supports our conclusions.
    We look forward to working with the members of this Subcommittee to 
ensure that America is harnessing the power of travel to create 
economic opportunity, accelerated growth and job creation.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you might have.

                               Appendix A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Klobuchar. Very, very good. That was a good 
response.
    Senator Blunt, do you want to go first?
    Senator Blunt. Well, thank you, Chairman, and thank the 
four of you for being here; and Mr. Cloobeck, particularly, 
good luck with this effort you're starting. Very seldom do you 
have an opportunity to start something like this, and I'm glad 
to see you and your board engaging in this.
    What you will be able to do with travel promotion, with 
marketing later in the year, I know you said you'd like to be 
doing that quicker, but where are you on your plans on how 
you're going to allocate funds? Are you going to have some 
kinds of partnerships; will you be able to develop; and what 
are some of the guidelines for those partnerships, where, I 
assume you anticipate you would have private sector dollars 
working along with these public sector dollars that you're 
going to be allocated?
    Mr. Cloobeck. That's correct, Senator. The first $10 
million that we're looking for is in cash. If you look at the 
statute, we have to raise $10 million in cash first; and 
hopefully, we'll raise another $40 million in-kind for our 
double-match year one, starting fiscal 12, which starts in 
October.
    We always--we have tremendous support with--and with 
working with USTA and the stakeholders and Tourism and Travel. 
We anticipate receiving tens of millions of dollars of in-kind 
dollars.
    With regard to working with the Canadian Tourism 
Corporation, working with the state of California, working with 
New York, and Florida, finding the best ways of collecting 
research, not reproducing it, we believe the Commerce 
Department's numbers are just fine. And, the government pays a 
lot of money for that; so we're using those.
    And, you know, we believe that we're off to a fast start. 
What we're concerned about is, yes, we can spend those dollars 
in visa-waiver countries, but when we sit with the President's 
Export Council, and we sit with USTA and other stakeholders, 
we're finding that there are certain folks in Washington, 
bluntly, Senator, that don't want to say yes. They're afraid of 
that word.
    In business we have to take risks; and if we want to grow 
GNP jobs through tourism and travel, we're going to have to 
take a little bit of risk. We're going to have to open up our 
borders and show people this great country that we have.
    We don't have to spend any money to do it, other than the 
marketing dollars that we have putting forth through the ESTA 
fees.
    Senator Blunt. Let me be just as blunt here--maybe even 
more so----
    Mr. Cloobeck. Please.
    Senator Blunt.--since I start out the day pretty blunt.
    [Laughter.]
    Senator Blunt. I think that's good--what you're talking 
about is good--a good thing for your board to understand, but 
there are a lot of places in the world where people can come 
without visa obstacles, and if I was you, I'd be very focused 
on that. I think you hear the other panel members and the 
people up here concerned as you are about what we do to make 
the visa process work better.
    There are plenty of people that can come from other 
countries, though, and--my sense would be--your focus is trying 
to do what you can to get travelers to come where travelers are 
going to be coming from; and I know you're going to do that.
    I just don't want you to get so frustrated in this other 
element that we don't take full advantage of this great 
opportunity. And, I know you will, but we want to be looking 
for how we market, you know, Mr. Dow and I spend a lot of time 
over the course of about 4 years talking about how other 
countries market in our country, to encourage Americans to 
travel there, and we didn't have any similar program going on. 
And, so, this is a great opportunity. I know you're absolutely 
capable of being the best Chairman that we can possibly have 
for this effort, and I look forward to that.
    I imagine there are people here from the agencies of the 
three former--the three other panelists. They all left before 
they heard your testimony, but we'll see that they have 
attention drawn to the things you've drawn attention to.
    And, Mr. Dow, in terms of the kind of marketing, what do 
you hear from your members that they'd like to see this new 
agency do; and how do they partner up with that?
    Mr. Dow. Well, first of all, Mr. Blunt, I appreciate your 
approving the Travel Promotion Act three times, and you were 
threatening to also vote for it when you got to the Senate. So, 
thank you, but you didn't have to.
    Senator Blunt. I thought it would be the Blunt Bill in the 
House and the Blunt Bill in the Senate, but we got that taken 
care of, with----
    Mr. Dow. Mr. Sprouls is here and represents attractions in 
Florida and et cetera, and people tend to come to Florida, New 
York, Las Vegas, California, et cetera, and, I think the big 
opportunity here at this office is to level the playing field 
for areas like Missouri, Minnesota, and Alaska to get that 
second or third experience because one thing we have are 
options while many countries are one-trick ponies.
    Senator Blunt. Right.
    Mr. Dow. What we have is what people look for in authentic 
travel. So, I think what this is going to do, it's going to 
push those trips out and level the playing field for a lot of 
the secondary locations that don't have the dollars themselves.
    Senator Blunt. More days stayed, more places visited.
    Mr. Dow. You got it.
    Senator Blunt. Thank you, Chairman.
    Senator Klobuchar. Thank you.
    Senator Ensign?
    Senator Ensign. Well, thank you.
    I have a big concern, and Steve, I want to welcome, by the 
way, and I'm proud of the job that you're doing with your 
board.
    But, when we saw something like the video that Mr. Dow 
showed, when you spend your marketing dollars, and then they 
have those kind of things happen in those countries, that 
blunts the good will that you can, sometimes--you know, people 
can remember a bad story a lot more than they do a good story. 
And, I'm very concerned about that there is this perception out 
there. It's one of the reasons we wanted the Travel Promotion 
Act in the first place, was to try to overcome some of the 
perceptions. But, some of those perceptions are actually 
reality, as we've seen with the wait times; and I guess if 
you're out there promoting, do you fear that the wait times 
will just get worse if the bureaucracy doesn't get out of the 
way?
    Mr. Cloobeck. Well, therein lies, you know, a conundrum of 
business. If we create tremendous demand, can we keep up? And, 
we are concerned that there is a, you know, a philosophy within 
State; and if we were to handle that in business, we would go 
hire 500 or 1,000 more people; whereas the State Department 
said, ``well, we're hiring 120.''
    And, candidly, we wouldn't operate that way in business. 
And, it is a very big concern that we have, because we are 
going to create marketing messages and promote this country, 
Brand U.S.A. for the first time, and do so in a way to dispel 
those messages. We're going to educate folks in other countries 
on how wonderful our land is, and how easy that process is; and 
you will be greeted nicely when you show up. But, we--we can't 
have videos like that like as USTA has presented today.
    Senator Ensign. Well--go ahead.
    Ms. Johnson. Senator Ensign, if I could interject here, on 
that, the presentation that was made to Secretary Locke--and I 
want to submit this for the record--it states that the metrics 
have to be obtained, and we have to establish goals.
    To your point, we need an end and we need to fix the 
process, measure and establish goals for improvement and 
market. And, then, you know, it has to all be done 
simultaneously in a rather urgent fashion, to be able to gain 
the economic growth that we're looking for.
    Mr. Cloobeck. I can tell you this, Senators, that I have 
visited the ports with Customs and Borders. I have personally 
been there. I have looked at the Trusted Traveler Program, 
which is fantastic, but we're market--not even marketing that 
well enough for the United States yet; and hopefully Customs 
and Borders will do a good job.
    But, they are working hard, and the Department of Homeland 
Security is extremely open-armed with regard to their 
hospitality sector, helping them come in and script and train. 
So, it's not like the government, you know--I don't want to 
keep bashing people, because we keep hearing that. But, 
Homeland Security is really trying hard. Customs and Borders is 
trying hard. We have a problem in the United States of the 
entry process. It starts when you make a reservation for a 
hotel, you've got to be sweet because that's when the vacation 
starts.
    Senator Ensign. Yes, I just want to make a couple of 
comments on that: We know that this is a very difficult time, 
post-911. We all understand that. I think that everybody does; 
and they have a delicate balance, balancing security with, you 
know, getting tourists into the country. But, we also know what 
works. And, you mentioned, if this was the private sector, you 
would hire 500 to 1,000 new people. One is, it doesn't cost any 
money to do that, although the logistics of some of that with 
some of the space may come play, as was mentioned today, but 
still, that should be overcome.
    Because we hear a lot about outsourcing of jobs; you know, 
manufacturing. We outsource jobs. Well, you can't outsource 
tourism jobs. In other words, our jobs are here, unless you 
don't get the tourists to come here; thereby you outsource the 
jobs to other countries, which is exactly what we're doing, by 
losing market share.
    We can in-source those jobs very easily by not a heck of a 
lot of dollars spent, $20 earned; I mean, that's a pretty good 
investment on anybody's balance sheet; and we need to recognize 
that. I think that's one of the reasons this hearing was very 
important, is to bring these kinds of issues to the forefront 
so that the folks who are in the government understand what's 
at stake here; how much economic prosperity can be gained by 
all of this.
    So, I think this hearing is very important going forward.
    Mr. Cloobeck. Thank you, Senator. And, we've known each 
other for a long time, and I've known others on this great 
committee. You know that I don't take no for an answer, and I'm 
not exactly, you know, the guy with kid gloves. I'm a bull in a 
china shop. So, I'm going to continue to do that in a very 
polite and delicate way, to push this forward, because we've 
got a lot of money to market this great land with.
    Other countries are doing the same thing against us, and 
this is--this is a non-brainer for GDP and jobs for this.
    Senator Ensign. Thank you, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Bennet? Senator Begich.
    Senator Begich. Thank you, Madam Chair. I'm listening to 
this discussion, and I think we're all on the same path in 
wanting to increase the volume. I mean, when you mentioned the 
South Korea visa issue and how quickly tourism went up, I know 
Alaska--15 percent of our market is international travelers, 
and that's a huge number for us; and as everyone knows, they 
stay longer and spend more. And, we like that. And, they come 
back. They're repeat customers.
    And, so, I guess the frustration I have is, I'm trying to 
figure out--you're going to increase supply, which I am 100 
percent for; but what I just heard the panel before is a slow 
process to make sure that supply comes through the gates.
    And if a customer--it's like a restaurant--you know, when 
they come once and they don't like the soup--the service the 
first time, they're not coming back. Or, they'll take a longer 
time to come back.
    So, I'm struggling with what's the trigger here to pull. I 
know, Steve, I'm not worried about you and what you'll do to 
get some of those guys focused in the bureaucracy, but maybe 
what really should happen here--and I don't want to add burden 
to the Chair and the Ranking Member, but maybe we have to say, 
from this committee's standpoint, we want those interagency 
people to sit down with you in a time certain, to develop what 
strategies will be.
    For example, when I heard that they were going to have some 
temporary folks hired and they actually have a schedule, and--I 
don't know if you've seen that schedule, any of you, because 
that will determine how you market, I'm assuming. What I see 
here is a lack of coordinated plan by the agencies with you 
folks who are about to fill the lineup, which I'm excited 
about.
    So, maybe we have to say, look, if the agencies that are 
here--and I'm kind of looking through you, Steve, to write to 
Helen there, because she's one of the agency people still 
here--and I don't know who else is here from the agencies, but 
to get you in a room and say, OK, they have these plans, these 
programs, how do we integrate that with the supply to 
marketing, which I'm all for. I mean, the more money you put 
into marketing, the better off we're going to be down the road.
    But, when you plow that money in, the system's going to 
feel the pinch, and I--I have your sense, and many of you that 
testified--that the system is not ready to accept this full 
load that's about through.
    Thank you.
    Mr. Cloobeck. Senator, if you could ask the Secretary of 
State to have this as a high priority, we would really 
appreciate that.
    Senator Begich. Well, we need it from both, the Secretary 
of State----
    Mr. Cloobeck. In Congress we have terrific support from 
Congress.
    Senator Begich. Good.
    Mr. Cloobeck. We have terrific support from Homeland 
Security.
    Senator Begich. OK.
    Mr. Cloobeck. I don't think--you know, we have other things 
going on in the world that the Secretary of State has to deal 
with right now, but we really need the attention at the highest 
levels, or attention to be brought to the folks within that 
department to visit with us. We welcome that.
    Senator Begich. Excellent.
    Mr. Dow?
    Mr. Dow. Yes. We've been working just as hard as you work 
on putting the travel promotion together. There's a 2.0 plan of 
a blueprint of what could be done quickly and with little or no 
cost to taxpayers, and that will be coming out in May. And, 
we'll get that right to you as it comes out.
    But, it is detailed, step-by-step-by-step of things that 
you can do that are no-brainers. And if you could encourage 
that kind of dialogue, it would really be terrific and add a 
lot.
    Senator Begich. Are you going to present that plan to State 
Department, Commerce, also?
    Mr. Dow. Yes.
    Senator Begich. OK.
    Mr. Dow. We'll submit it to them; we'll submit it to our 
Congressional leaders and Senators.
    The other thing is, you have to look beyond just the 
economics. When President Obama went over to speak on behalf of 
the Olympics, the very first question he was asked was: Mr. 
President, why should anyone come to your country to see the 
Olympics when getting into the country's a fairly harrowing--
exact words--experience? And, we lost the Olympics.
    And, we also lost the Pan Am Games. And when people come 
here, they're 74 percent more likely to feel very good about 
America and American policy. This is our own public diplomacy.
    Senator Begich. Yes, it's a great foreign affairs policy, 
you're absolutely right. There's no question about it, and it's 
not only from people that own the businesses, but the minute 
they walk out the door into a hotel or restaurant that--that 
person at the front is a powerful, you know, foreign affairs 
person in a lot of ways. So, I guess my--knowing that you're 
having this plan, I'm just trying to figure out the lever point 
here. But, if you have a plan, I think maybe what we have to do 
is then turn to the agencies and say, OK, how do you integrate 
what you're doing with what you think can be done, and move 
forward?
    Because otherwise, I see two paths happening, and it makes 
me very nervous because the government path is always slow to 
respond, but in this case, the way you said it, Steve, is, we 
got to make some decisions. And, yes, there may be a little 
risk, and we might not be as successful in some areas but, hey, 
that's the way it works. But, if we go by our history--and I 
use again, Korea as an example, we know, if done right, 
everything goes the right direction, and we have some bumps in 
the way.
    So, I--I just encourage maybe from a committee standpoint, 
when you finish that, submit it to the Chairwoman and Ranking 
Member will be helpful, and then maybe we have to take a role 
of saying to the agencies, now, give us your response and your 
timetable; because as you noticed in the last panel--and no 
disrespect to them--what I learned about government officials 
when they testify, they always use certain phrases: Soon, 
possible, we're working on it, we have some ideas, we're 
thinking about it; never a timetable until it's too late. And, 
so that's why I was very aggressive on holding them to a 
schedule. So, if you have this plan, I think from our end I 
think it would be a great opportunity----
    Mr. Dow. We'll see that you get it first and I can offer 
the encouragement and share one together.
    You asked a question, and I'll answer it for you: What 
happens when the government shuts down? Regarding 1996, there's 
a CRS report that said that shutdown cost 20,000 to 30,000 visa 
applications. So, at $4,000 a pop, you're talking some serious 
money.
    Senator Ensign. Real money.
    Mr. Cloobeck. And, Senator Blunt, if I could just answer 
one question you asked before: We're collecting about $350,000 
a day, and we don't know what's going to happen in May, June, 
July peak periods, but that's a sizable amount of money that 
we'll have to market with.
    Senator Klobuchar. OK. Very good.
    Well, Mr. Dow, I wanted to follow up. Thank you very much. 
Thank you for giving us that report immediately. As you know, 
we've been pushing. We've gotten clearly more focused on this 
in terms of processing these visas, but nowhere where we need 
to go; and when you look at ten people--and I think Mr. 
Cloobeck's point was a good one of how many we really need and 
the fact that it won't cost us taxpayer money; that we can make 
it off the visa applications.
    If you had to pick one or two things you think would be the 
most important thing to move forward on right now to increase 
tourism and add jobs to America of your blueprint, what would 
it be?
    Mr. Dow. I think some of the most important things would be 
greatly increasing those facilities, putting targets in place, 
knowing the measurements of what it would cost----
    Senator Klobuchar. Talking about the visa processing?
    Mr. Dow. That's for the visa processing, yes.
    Also, when it was asked about video conferencing, you can 
put people in Kansas and Missouri, and they can speak Mandarin 
and be looking at this person interviewing. You could rapidly 
increase capability just like that, and not have the hassle and 
the hurdle of getting someone in-country and all the cost and 
housing.
    Senator Klobuchar. Exactly.
    Mr. Dow. So that would be very important. The ability to, 
as Mr. Cloobeck said, to get reciprocity, to take the first 
step forward.
    What we're doing with China, although there are some issues 
that Homeland Security has, but the main issue is that China 
won't blink and we won't blink on a 1-year visa; and someone 
ought to step forward and say, OK, we're going to do a 3-year 
visa.
    That is 30 percent of the capacity right there in China, is 
their----
    Senator Klobuchar. That 3-year visa.
    Mr. Dow. Yes.
    Senator Klobuchar. OK, and the video conferencing, is that 
done by other countries?
    Mr. Dow. I'll have to get back to you on that. I think 
they've been trying it in Australia and a couple places, but 
let me get back with a specific answer.
    Senator Klobuchar. OK. All right, very good.
    Mr. Sprouls, the same question. What do you think should be 
our top priorities?
    Mr. Sprouls. Well, I think clearly, adding a lot more of 
the--excuse me--adding significantly greater amounts of people 
in the consular offices to work in the backlog.
    The idea of video conferencing, and being able to put 
people in Kansas or somewhere else, also gives us the advantage 
that you could shift those people very, very quickly so that we 
could manage the seasonality of it.
    I think another part, which may require a bit of a 
legislative solution is, there are groups of people--and we've 
had conversations with the State Department--that are very low 
risk; for example, Chinese students returning for another year, 
because of the way we're dealing with them currently, have to 
get a visa again; have to go stand in line again.
    Brazilian children, under the age of 15, have to travel 
with their parents to go for the visa interview as opposed to 
just the parents receiving a visa interview, and being able to 
manage them through documentation. We could take some people 
out of the line, which would help to reduce the backlog as 
well, if we could give the State Department some discretion in 
terms of identifying specific groups of people where the 
interview isn't mandatory.
    Senator Klobuchar. OK. Ms. Johnson?
    Ms. Johnson. Well, I would agree with what has been said. I 
believe that the video conferencing is a solution for the 
future. I think it is something that we--we should be trying 
and looking at in allowing us to keep the jobs in the United 
States, if you will.
    And also, I think that the measurement of the metrics being 
unified across the government agencies so that we collect the 
wait times, so that we know where we are----
    Senator Klobuchar. You want to expand a little bit on that? 
I know you mentioned it.
    Ms. Johnson. Yes. We, in collecting the data for the report 
that we made to Secretary Locke, we were getting mixed 
information from different agencies, and no one agency could 
really give us true facts on wait times to get through the port 
of entry visa process--immigration process. And it was, you 
know, Homeland Security had some numbers, Congress was great 
with their numbers, but they weren't all the same.
    So, what we recommended is that we would establish key 
metrics across, you know, State, Homeland Security, and 
Commerce and say, OK, these are the metrics that we're going to 
collect; and then we are going to set a goal, you know, 20 
minutes to get through. That's the goal. And so the average 
time would be 20 minutes.
    You establish a goal, and everybody works to that goal, and 
has the same understanding; and you know, you can't manage what 
you can't measure, and if you want to improve it, you need to 
know what you're doing.
    So it is just a simple logic of being able to collect the 
data and the numbers to really improve the processes.
    Senator Klobuchar. OK. Mr. Cloobeck, last question.
    Mr. Cloobeck. Senator, let's take a little risk. Let's 
market Brand U.S.A., and let's do it in a way that shows what 
great American hospitality's all about. We have a great land 
here. We can't let the CEO of Emirates Airlines, who's coming 
in to buy tens and tens of Boeing business jets, wait weeks for 
a visa.
    We know what the issues are. We've got a lot of marketing 
dollars to go forward and spend in visa waiver countries and 
we're going to do a great job of it. And we're going to 
increase GDP and jobs, but I ask you again, let's take a little 
bit of a risk.
    Senator Klobuchar. OK, very good. Well, I wanted to thank 
all of you; and I kept this chart up here for a reason, to 
point out even though we've had some increases in tourism, 
which we want, the issue for us is how we get an even bigger 
increase, and how we recapture some of that market share that 
we had before.
    Just the example used, the one example of a business person 
trying to get over to buy things, I recently learned that 
international patients planning to receive medical care at the 
Mayo Clinic in Minnesota had to cancel their plans because of 
delays in processing visas.
    So, this is a big deal in our country, and I believe that 
we have the wherewithal to change it.
    As we approach this, number one, we'll be getting that 
Promotion Act implemented, which I know you and your board, are 
working on. I understand that October is the first time under 
the law that you can start advertising, that's correct, so we'd 
love to have it sooner, but the way Washington works right now, 
I don't know if we could open that up, but we could certainly 
look at that. But, the hope would be we would get the 
advertising going on in October; and then second, the model 
ports of entry, expanding on some of these pilots and other 
things that we've been working on I think will be key.
    The visa backlog, for me, is my personal interest, because 
I think either it is adding those numbers--it just makes no 
sense to me that we can't add those. We have people that want 
jobs. We have a way to support this, which won't be taxpayer 
money; and this should be our major push with the State 
Department.
    And, guess what? It sounds like we can do it without 
Congress having to do everything except call attention to it, 
which we're pretty good at doing.
    And so, that's why I like seizing on that, as well as 
trying to get that video conferencing going as we tried for so 
long to do.
    The Visa Waiver Program, another thing we can push on to 
try to add or countries to that, and get that going.
    So, I just want to thank all of you. These are jobs for our 
country. It is a way I like that point that this is an issue 
and an area where you have such labor-intensive jobs compared 
to some of these great high tech things that I adore, and are 
great in my state and one of our biggest economic drivers.
    I know that as we become more and more advanced that the 
jobs are there, they are better-paying jobs, but there are less 
jobs; and so we have to also look at areas where we have high 
labor-intense jobs so people have a place to work; one of them, 
clearly, is tourism. The jobs are right here in our country, so 
we have to make this our top priority as we move forward.
    So, I want to thank all of you for being here. I don't know 
if you wanted to add anything, Senator Blunt.
    Senator Blunt. You know, again, Madam Chairman, thanks 
again for having this conference. I think we all are focused on 
the visa challenge, though, I believe that we could look at a 
letter, Chairman, and other things that--to the State 
Department that would help there. I didn't hear quite as much 
today as I'd hoped to hear, about what we're doing to make it 
better for people who can get here. There are plenty of people 
who can get here, and, you know, I don't know if, under this 
program we designed, Roger and Mr. Cloobeck, either one, I 
don't know if there's a way to encourage the actual ports of 
entry to be more appealing when you get here, whether there is 
some kind of matching grant potential out there that--ports of 
entry airports----
    Mr. Cloobeck. Senator, we're not authorized under the 
statute to spend any money for capital expenditures, or any 
kind of physical assets.
    Senator Blunt. OK.
    Mr. Cloobeck. But I believe that we can, in conjunction 
with stakeholders like USTA and other people in Travel and 
Tourism, to get corporations, perhaps, to handhold our ports of 
entry, our international ports. I believe in Orlando----
    Mr. Sprouls. Yes, Senator, in Orlando, we've done exactly 
that. We've been able to partner, actually, with DHS, and 
partner with all of the stakeholders in Central Florida, to get 
together and do something about the experience coming in; 
everything from gathering some funds in terms of doing Capitol 
paintings and pictures and those kinds of things; but also 
consulting with, and advising about lines should be done, all 
of the things dealing with the experience from the moment the 
plane lands.
    And, we've been pretty successful; in fact, I think we'll 
be demonstrating Orlando as a true model port sometime later 
this spring, to show the other model ports how it can really be 
done; and it has been a great public/private partnership there.
    So there are--there is a lot that can be done, and that can 
be done very, very quickly.
    Mr. Dow. Another simple thing that can be done is directing 
CBP officers to say, welcome home, welcome to the U.S., as 
you've heard Mr. Wagner testify.
    Mr. Cloobeck. How about smiling?
    Mr. Dow. It's nice to have. And, also talk to the 
travelers. We've offered from hotel companies, et cetera, to do 
customer service training, offered to do it for free. I think 
if CBP was directed to do this, it would be very helpful. The 
industry will put their own skin in the game, their own people, 
et cetera, and we could really help, because security and a 
hospitable attitude are not mutually exclusive. You can have 
great security and you can be friendly and welcome people.
    Senator Blunt. Right. And, I guess my point would be that 
the marketplace of people who can come without a visa problem 
is not saturated.
    Ms. Johnson. Yes, absolutely.
    Senator Blunt. And, you know, we need to be sure that when 
they do come, and they go home, that they're telling everybody 
what a great experience this was, not what a bad experience 
this was. And, these are for people who can come now just 
because we've opened--we do have lots of visa waiver countries.
    Those are actually the travelers who fund this program 
and--and I'm interested in that, as well as what we can do to 
make it easier for travelers who have a hard time coming here.
    Let's also remember there are a lot of travelers who have 
an easy time coming here if we make this the kind of place that 
we--that they want--that they want to come and they want to 
return to; and--and that's really the target, whether it's 
making it easy, and by growing that group with easier visa 
policies or not, we have lots of people who can come to the 
country that aren't coming; and part of this is--part of this 
is how we encourage them to come here, and then how we ensure 
collectively, this is the best possible experience when they 
are here.
    Mr. Dow. To your point, the London Times ran a full-page 
article on a Sunday with a Statue of Liberty over a stop sign 
saying: Ten reasons not to go to America. You can get the 
Disney experience in Paris; you can shop in Milan; you can 
gamble in Macau; you can ride the beaches in Australia. And we 
have to change that, because that's what we're up against.
    Ms. Johnson. And, Senator Blunt, in the long presentation 
and in the copy of the documentation that was sent to Secretary 
Lock on the recommendations for travel facilitation it does 
speak specifically to a private/public sharing of model airport 
entries so they can market like Orlando is doing with Universal 
Studios and Minneapolis could be with Carlson or--you know, the 
ports of entry would all have a private partner that could help 
market the country, and the destination, and really make it 
welcoming. But, you're absolutely right, greeting the people 
when they come into our borders is essential in treating them 
in a hospitable manner.
    Senator Klobuchar. All right. Well, very good. I see that 
Mr. Olson from the Minnesota Chamber of Commerce is here, so I 
can call to talk about our direct issues here of business, and 
I really, truly believe that if we can increase tourism here, 
we're going to increase jobs; we're going to do a lot better of 
a job for our country.
    I want to thank Senator Blunt for being our Ranking Member. 
You did a great job today. It comes with a vast amount of 
knowledge over from the House. I think you saw a huge number of 
Senators that stayed here the entire time; weren't running off, 
were engaged, and are interested, Mr. Dow, in taking that 
blueprint you have, and really taking ideas into action.
    So, I want to thank all of you for being here.
    Good luck, Mr. Cloobeck; we're looking forward to seeing 
those first ads, and we will meet again soon to see the 
results.
    Thank you, everyone.
    We'll keep the record open for 2 weeks.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico

    New Mexico describes itself as the ``Land of Enchantment,'' and 
each year my state welcomes 10 million visitors. This is 5 times the 
number of people who call New Mexico home.
    Visitors travel from around the world to attend New Mexico's many 
festivals and cultural events, such as our annual Balloon Fiesta and 
Santa Fe Indian Market. With its unique local art community and 
stunning landscapes from Shiprock to the White Sands dunes, New Mexico 
has a lot to offer to visitors.
    Tourism and travel support over 100,000 jobs and contribute $6.1 
billion to the state's economy. Many of these jobs are in rural areas 
with high rates of unemployment.
    Yet tourism in New Mexico and other parts of the United States 
provide more than an economic boost. Tourism is a form of public 
diplomacy that fosters good will for our country around the world.
    I am pleased that Congress passed the Travel Promotion Act, a bill 
that I was proud to co-sponsor. Giving the tourism sector a voice 
within the federal government that is commensurate with its economic 
and strategic importance is an important step to ensure our nation's 
competitiveness
    Thankfully, the tourism industry is projected to improve in the 
next 5 years. But America must continue to compete for its share of the 
international tourism market in a tough economic climate.
    I look forward to learning about the Corporation for Travel 
Promotion's progress and hearing from this panel on how we can make our 
country more welcoming for foreign visitors.
    In conclusion, I want to extend my thanks to Senator Klobuchar for 
calling this hearing today and thank our witnesses for sharing their 
input and insights into how tourism can thrive again here in the United 
States.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                        Hon. Nicole Y. Lamb-Hale

    Question 1. One issue which I want to pursue on an ongoing basis is 
our current system (or lack thereof) for tracking travel metrics. In an 
era where we know exactly how many Twitter followers we have, I was 
surprised to find that we do not have simple answers to offer 
prospective travelers to the following types of questions: how long 
will it take to be interviewed for a visa? How many citizens of each 
country fail to leave the U.S. on time? How many CBP officers would we 
need at Dulles to process flights in under 30 minutes? We are ceding 
market share because we lack the basic business model our country needs 
to compete with other countries. I would like for this subcommittee's 
members to receive these statistics so that we can publish them as part 
of our effort to improve our country's visa and port of entry systems. 
What travel statistics do you receive from the State Department or the 
Department of Homeland Security on a regular basis?
    Answer. The Department of Commerce and the Department of Homeland 
Security (DHS) share data on a regular basis to enable Commerce to 
publish the official monthly, quarterly, and annual census of overseas 
travelers to the United States. Specifically, DHS supplies Commerce 
with entry data tapes from the I-94 immigration forms completed by 
arriving international visitors and from DHS' Electronic System for 
Travel Authorization.
    Additionally, Commerce distributes its international travel 
forecasts to DHS and the Department of State to assist them with 
strategic planning. DHS regularly shares with Commerce information on 
its Customs and Border Protection staffing levels at U.S. ports-of-
entry, processing times at U.S. borders, and initiatives to enhance the 
international visitor's customer experience when arriving in the United 
States. State frequently sends Commerce statistics on demand for U.S. 
visas, visa interview wait times, visa refusal rates, and staffing 
levels at U.S. Embassies and Consulates around the world. State also 
maintains on its public website, travel.state.gov, appointment wait 
times for every single visa- issuing post worldwide. This information 
is updated weekly. All of the available information is used 
collaboratively by the three Departments to strategize on solutions to 
better facilitate travel to the United States.

    Question 2. Will you commit to working with us to bring this type 
of visibility on travel metrics?
    Answer. The Department of Commerce welcomes the opportunity to work 
with you to bring visibility to travel metrics.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                        Hon. Nicole Y. Lamb-Hale

    Question. Will you please let my office and the Commerce Committee 
know when a permanent director is appointed to head the Office of 
Travel Promotion?
    Answer. The Department of Commerce shall be glad to notify your 
office as soon as a permanent director of the Office of Travel 
Promotion is appointed.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                        Hon. Nicole Y. Lamb-Hale

    Question. The Commerce Department is projecting significant growth 
in international arrivals to the U.S., especially from expanding 
markets like China, India, and Brazil. However, it does not appear that 
the State Department or CBP is working under the same factual scenarios 
in projecting their needs on staffing and infrastructure. Can each of 
you explain the degree of common planning across agencies and how our 
government is working effectively to meet the expected growth in 
travel?
    Answer. The Department of Commerce's International Trade 
Administration (ITA) is working closely with the Department of Homeland 
Security's (DHS) Customs and Border Protection (CBP) and the Department 
of State to address travel facilitation issues in support of the 
expected growth in international travel to the United States. Commerce, 
State, and DHS meet regularly to discuss travel issues under the 
auspices of the President's Economic Council and the Travel and Tourism 
Advisory Board. ITA, through its Office of Travel Promotion and Office 
of Travel and Tourism Industries, has worked closely with CBP to 
support CBP's efforts to implement the Electronic System for Travel 
Authorization (ESTA) fee collection system, which collects the fees to 
fund the Corporation for Travel Promotion (CTP). Through the 
interagency Tourism Policy Council, ITA has partnered with CBP and 
State to disseminate information regarding the implementation of the 
ESTA fee and to explore ways to facilitate the entry process for 
foreign visitors into the United States. These efforts will support and 
complement the work of the CTP in promoting international visitation to 
the United States.
    The Department of Commerce is also working with both DHS and State 
on an interagency team led by the National Security Council's 
Interagency Policy Committee to more effectively communicate to 
industry and travelers the efforts the three Departments are making to 
address travel facilitation issues and better serve the traveling 
public.
    More broadly, DHS has put in place programs to improve security and 
facilitate the flow of legitimate trade and travel. This includes the 
Model Ports of Entry Program and Global Entry trusted traveler program.
    State is working to meet demand for visas by making visa processing 
more efficient, secure, and customer-friendly and shifting resources to 
its embassies and consulates experiencing higher levels of visa demand. 
Visa demand in Brazil, China, and India, for example, is up 29 percent 
year to date and demand continues to grow. State's Bureau of Consular 
Affairs (CA) has responded to this demand with increased resources, 
peak-season temporary staffing, management and procedural innovation, 
and improved technology. Additionally, since November 2008, DHS 
designated nine new countries into the Visa Waiver Program. This brings 
the total to 36 countries under this program, which represents 62 
percent of tourist or business travelers entering the United States by 
air.
                                 ______
                                 
United States Department of State,
Washington, DC.

Dear Senators Klobuchar and Blunt,

    I want to thank you for the opportunity to share with you the 
accomplishments of my colleagues in the Bureau of Consular Affairs in 
our efforts to facilitate the legitimate travel of millions of 
visitors, businesspeople, students, and others to the United States.
    As I stated in my testimony on April 5, 2011 before the 
Subcommittee you chair, the good news is that international arrivals to 
the United States continue to climb. The Department of Commerce's 
Office of Travel and Tourism Industries reports that 2010 was a very 
good year for the United States tourism industry. In 2010, 60 million 
international visitors entered the United States, 5 million more than 
the year before. Visits from Asia, South America, and the Middle East 
demonstrated the strongest growth, due to record level visits from 
Brazil, India, and China.
    I listened carefully to the testimony of the second witness panel 
and want to assure you that the Bureau of Consular Affairs has a long-
term plan to address the concerns expressed. Our challenge is to meet 
the increasing worldwide visa demand from these potential visitors 
without compromising the security of our nation's borders. I would like 
to extend an invitation to you and your colleagues to visit any of our 
consulates to see first-hand how we are managing and meeting this 
challenge.
    Attached you will find answers to the four questions raised at the 
hearing as well as charts which outline our consular repositioning 
plans. I understand that our respective staff will be meeting to 
discuss additional questions and concerns which were raised by the 
private sector witnesses. I look forward to our fruitful cooperation on 
the implementation of the Travel Promotion Act.
            Sincerely,
                                          David T. Donahue,
                      Deputy Assistant Secretary for Visa Services.

    Question 1. Has there been any increase in travel to the U.S. from 
countries which entered VWP since 2005?
    Answer. The chart shows the admission data, provided by DHS, for 
all nonimmigrant travelers from the nine countries that have joined the 
VWP since 2005. All countries joined early in FY 2009, except Greece, 
which joined mid-FY 2010. While some amount of the change from FY 2009 
to FY 2010 may be a result of countries joining the VWP, other factors, 
such as the global economic recovery, may also contribute.

----------------------------------------------------------------------------------------------------------------
                                  Nonimmigrant Admissions to the United States
-----------------------------------------------------------------------------------------------------------------
          Country                      FY 2008                      FY 2009                     FY2010
----------------------------------------------------------------------------------------------------------------
                         Czech Republic         59,805                      77,395                      78,856
                  Estonia                       13,179                      20,437                      15,105
                   Greece                       82,518                      75,426                      85,968
                  Hungary                       53,664                      60,937                      70,626
                   Latvia                       14,533                      15,892                      22,237
                Lithuania                       15,991                      20,188                      23,613
                    Malta                        5,556                       5,258                       6,139
                 Slovakia                       28,702                      36,341                      41,609
              South Korea                    1,007,466                     906,006                   1,198,900
----------------------------------------------------------------------------------------------------------------


    Question 2. How many countries are in the process of entry into 
VWP?
    Answer. Several countries have inquired about joining the VWP, but 
none currently meets all of the requirements, nor has any been 
nominated by the Secretary of State to the Secretary of Homeland 
Security for designation in the program. DHS and State have held in-
depth discussions with Chile, Croatia, and Taiwan, at their request, on 
specific requirements for membership in the program, including the 
information-sharing mandates of the 9/11 Commission Act. However, no 
aspirants currently meet all of the eligibility requirements. The 
Department, with DHS, will continue to discuss VWP requirements with 
interested aspirants; although VWP membership may not be imminent, many 
of the VWP requirements are best practices that are beneficial to all 
countries and the security of international travel.

    Question 3. Please share the CA spread sheet on visa demand and NIV 
staffing needs projections with the Committee.
    Answer.
Non-Immigrant Visa Demand and Staffing Projections
    The Bureau of Consular Affairs evaluates consular workload demand 
for all consular posts on a yearly basis taking into consideration the 
following factors: (1) year-to-year increases in volume demand; (2) 
changes in processing requirements; (3) environmental complexity 
factors; (4) input from individual posts on staffing via Mission 
Strategic Plans, Consular Workload Statistics System, Office of the 
Inspector General Reports, reports from Consular Management Assistant 
Teams, reports from Regional Consular Officers, and interactions with 
consular and front office management at post; and (5) external economic 
factors and their impact on consular demand. In reviewing these 
materials, CA determines a priority order for staffing needs and works 
within the Department to create and fill new consular positions as 
expeditiously as possible. In addition, CA suggests the 
``repositioning'' of consular officer positions if a decrease in 
workload merits it. In the case of ``repositioning", a post which is 
overstaffed will lose an officer position to an understaffed post.
Consular Repositioning FY 2011--Phase One




Mission China
Beijing                       2 FS04 positions
Chengdu                       1 FS04 position
Guangzhou                     1 FS04 position
Shanghai                      3 FS 04 positions; 1 FS03 position
Shenyang                      1 FS04 position
Mission Brazil
Brasilia                      1 FS04 position
Recife                        1 FS04 position
Rio                           2 FS04 positions
Sao Paulo                     3 FS04 positions; 1 FS03 position
Mission Haiti
Port au Prince                2 FS04 positions
Mission Israel
Tel Aviv                      1 FS03 position


Consular Repositioning FY2011--Phase Two (proposed new positions)


                          Number of    Grade of
    Mission       Post    positions    positions           Notes

Mission         Buenos           2          FS04   Increased visa demand
 Argentina       Aires
Mission         Yerevan          2          FS04   Iranian applicants
 Armenia
Mission Brazil  Brasili          1          FS04   Workload demands
                 a                                  (all)
                Rio              2    FS03, FS04
                Sao              1          FS03
                 Paulo
Mission China   Beijing          1          FS03   Workload demands
                                                    (all)
                Guangzh          2          FS04
                 ou
                Shangha          1          FS03
                 i
Mission India   Mumbai           1          FS03   Add NIV manager
                New              2          FS04   ACS volume/complexity
                 Delhi
Mission Kenya   Nairobi          1          FS03   FPM--regional IV
                                                    cases
Mission Kuwait  Kuwait           1          FS04   ACS volume
                 City
Mission Russia  Moscow           1          FS04   Workload demand
                Vladivo          1          FS04   Workload/district
                 stok                               size
Mission Saudi   Dhahran          1          FS04   Workload demand
 Arabia
Mission Turkey  Ankara           1          FS04   ACS and IV volume
Mission         Hanoi            1          FS04   ACS and NIV volume
 Vietnam
                Ho Chi           1          FS04   IV growth
                 Minh
                 City
Mission Yemen   Sana'a           1          FS03   Complexity of work
Regional                         1          FS02   Increase RCO visits
 Consular
 Officer
Total                           25   1 FS02; 7 FS03; 17 FS04

Repositioned jobs
Mission Australia--Abolish Canberra FS04 position, number 30073004, and
  establish new FS04 consular position in Melbourne.
Total--1 abolished position, 1 new position

                             Mission China
               Interview Windows and Adjudicators Needed

----------------------------------------------------------------------------------------------------------------
                     Mission China
                -----------------------   Windows Needed to
                  Adjudicators Needed      Process Consular
  Fiscal Year      to Manage Consular    Workload (15% Annual
                  Workload (15% Annual         Growth)
                        Growth)
----------------------------------------------------------------------------------------------------------------
         2011                     97                     62               Total No. of Adjudicators (2010): 90
         2012                    108                     70                   Total No. of Windows (2010): 103
         2013                    118                     83
         2014                    128                     90                             FY 2013 New Guangzhou Consulate:
         2015                    142                     96                                    Gain 24 Windows
         2016                    156                    104                                           FY 2013 Chengdu Renovations:
         2017                    173                    113                                     Gain 8 Windows
         2018                    193                    123                                  FY 2013 Shanghai Consular Expansion:
         2019                    214                    135                                    Gain 15 Windows
         2020                    242                    148                         FY 2014 New Beijing Annex:
                                                                                               Gain 15 Windows
----------------------------------------------------------------------------------------------------------------
Assumptions:
** 15 percent annual growth in visa applications
** Windows being used for two shifts per day.
** Does not take into account possible economic downturn or other factors that could negatively impact Chinese
  travel.
** Chinese government grants permission and permits for construction projects


    Question 4. Please share the list of the countries with growing NIV 
demand and which are a challenge to staff.
    Answer. Of particular concern over the next several years will be 
staffing levels in Brazil, China, and, to a lesser extent, India. We 
increased staffing considerably in India in the mid-2000s, and expect 
that we will need further resources there within the next two to 3 
years. In Brazil and China, CA has added 18 new positions (China) and 
15 new positions (Brazil) since 2008. We expect to add 14 more 
positions to each of those countries within the next year (some of 
those positions will be limited non-career appointments). Mexico is 
also one of our ``Big Four'' posts. In fact, it is the largest consular 
demand post in the world. In the mid 2000s, CA added 10 positions to 
Mission Mexico to help meet workload demands there. At this time, 
workload in Mexico is steady.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            David T. Donahue

    Question 1. Since 2000, the U.S. has lost a significant market 
share of Brazilian visitors. Due largely to difficulties in the visa 
process, Brazilian travelers have chosen other destinations around the 
world. One potential solution to this problem would be the addition of 
Brazil into the Visa Waiver Program (VWP). To be admitted to the 
program a country must fulfill several requirements including a current 
overstay rate under 3 percent. Even if they currently do not meet all 
the requirements, I believe it may be appropriate for the two countries 
to initiate a bilateral dialogue on steps Brazil can take to enhance 
its prospects to qualify for the VWP. As you know, the U.S. engaged in 
initial discussions with 13 countries in 2005--leading to the addition 
of 7 countries into the VWP in 2008.
    Can you provide to the Committee information on Brazil's current 
and historical overstay rates? Building on the President's recent 
comments in South America, would the Department be willing to begin 
discussions with Brazil on the requirements to be considered for 
admission to the VWP? During the hearing, you committed to providing 
the Committee with a list of countries currently being considered for 
the VWP. Can you provide a status report with respect to each such 
country, including timelines for discussions of particular security 
requirements, scheduled reviews or meetings, or other metrics related 
to their inclusion in the VWP?
    Answer. The Department of Homeland Security has responsibility for 
overstay data as it is based on data from travelers in the United 
States. Please refer to U.S. Customs and Border Protection for 
information on overstay rates.
    For the purposes of membership in the Visa Waiver Program (VWP), 
refusal rates are currently the leading metric and are calculated for 
visitor (B category) visas each Fiscal Year. Going back to Fiscal Year 
2005, the visa refusal rates for Brazil are as follows:

        FY 2005: 24.2%

        FY 2006: 13.2%

        FY 2007: 9.6%

        FY 2008: 5.5%

        FY 2009: 7.0%

        FY 2010: 5.2%

    The Department of Homeland Security (DHS) has the lead on the VWP, 
with support from the Department of State. Any engagement with Brazil 
on VWP will be determined by DHS; the Department of State would support 
DHS with any discussions as appropriate.
    At this time, Brazil does not meet most of the key requirements for 
membership. Among other requirements, Brazil does not meet the 3-
percent visitor visa refusal rate requirement, does not offer 
reciprocal visa free travel to U.S. travelers, and has not engaged on 
any of the information-sharing requirements.
    Several countries have inquired about joining the VWP, but none 
currently meets all of the requirements. DHS and State have held in-
depth discussions with Bulgaria, Chile, Croatia, Poland, Romania, and 
Taiwan, among others, at each of their requests, on specific 
requirements for membership in the program, including the information-
sharing mandates of the 9/11 Commission Act; however, none currently 
meets all of the eligibility requirements. The Department and DHS will 
continue to discuss VWP requirements with interested countries. 
Although VWP membership may be a future occurrence for some, many of 
the VWP requirements are best practices that are beneficial to all 
countries and the security of international travel.
    The Secretary of State has the authority to nominate new countries 
to DHS for VWP membership. However, we don't usually exercise this 
authority until a country has met most of the major requirements for 
membership, including the refusal rate. We have learned that formal 
nominations create unmanageable expectations if the outstanding 
requirements are out of our control. Both DHS and State will discuss 
VWP requirements with countries and, as appropriate, engage with them 
on the requirements absent formal nomination by the Secretary of State.

    Question 2. I understand that the State Department has authority to 
determine the duration of a visa to the U.S., but that it has made it a 
policy to provide terms that are only equal to or less than what an 
American would receive if headed to the other country. In some 
circumstances, this may be counterproductive; especially given the 
amount of money repeat tourists spend in our country. Not only is it an 
added hassle, but making a repeat visitor get another interview also 
blocks the interview slot for another visitor. How is the Department's 
current policy in our country's best interest? Is the Department of 
State's current policy regarding reciprocity mandated by statute or a 
regulatory decision by the department, and would the Department be open 
to re-evaluating this policy?
    Answer. Sections 221(c) and 281 of the Immigration and Nationality 
Act (INA) require that U.S. visa validity be determined on the basis of 
reciprocity. The goal of visa reciprocity is to obtain progressive visa 
regimes, consistent with U.S. national interests, laws and regulations, 
while encouraging international travel that benefits U.S. citizens and 
the U.S. economy. U.S. law requires the validity of visas, including 
number of entries and fees, to be based insofar as practicable on the 
treatment accorded to American citizens.
    The INA sets the legal requirements of reciprocity. We defer to 
Congress on whether these sections of law should be changed.
    INA 221 (c) Period of Validity; Requirement of Visa [8 U.S.C. 
1201]: ``A nonimmigrant visa shall be valid for such periods as shall 
be by regulations prescribed. In prescribing the period of validity of 
a nonimmigrant visa in the case of nationals of any foreign country who 
are eligible for such visas, the Secretary of State shall, insofar as 
practicable, accord to such nationals the same treatment upon a 
reciprocal basis as such foreign country accords to nationals of the 
United States who are within a similar class; except that in the case 
of aliens who are nationals of a foreign country and who either are 
granted refugee status and firmly resettled in another foreign country 
or are granted permanent residence and residing in another foreign 
country, the Secretary of State may prescribe the period of validity of 
such a visa based upon the treatment granted by that other foreign 
country to alien refugees and permanent residents, respectively, in the 
United States.''
    INA 281 nonimmigrant visa fees [8 U.S.C. 1351]: ``The fees for the 
furnishing and verification of applications for visas by nonimmigrants 
of each foreign country and for the issuance of visas to nonimmigrants 
of each foreign country shall be prescribed by the Secretary of State, 
if practicable, in amounts corresponding to the total of all visa, 
entry, residence, or other similar fees, taxes, or charges assessed or 
levied against nationals of the United States by the foreign countries 
of which such nonimmigrants are nationals or stateless residents: 
Provided, that nonimmigrant visas issued to aliens coming to the United 
States in transit to and from the headquarters district of the United 
Nations in accordance with the provisions of the Headquarters Agreement 
shall be gratis.''

    Question 3. With respect to consulates in Brazil, China, and India: 
Based on a 40 hour work week, approximately how much time does each 
officer spend conducting nonimmigrant visa interviews, and how is the 
allocation of time determined? How much of the 8 hour work day of each 
consular officer is spent conducting nonimmigrant visa interviews?
     Answer. Consular officers devote the vast majority of their time 
to visa adjudication. Typically, officers spend more than half their 
workdays interacting with visa applicants face-to-face in an interview 
window, but adjudicatory work extends beyond the face-to-face 
interaction. As part of the adjudicatory process, officers must verify 
the identity of the applicant, assess the applicant's qualifications 
for the visa, review historical data about the applicant, and resolve 
any issues that emerge. In many cases, officers can complete certain 
activities outside of the applicant's presence--this improves the 
applicants' experience and allows us to reduce demand for interview 
windows. For example, in China, consular officers reuse previously 
captured fingerprints and make extensive use of waiver of interview 
procedures to process applicants renewing their visas without a face-
to-face interview. The Department is working to expand these waivers of 
interview procedures to posts in Brazil and India through the 
establishment of offsite biometrics collection centers that will allow 
us to complete computer-based adjudications for many more Brazilian and 
Indian applicants.
    Given our ability to complete certain processing steps outside the 
applicant's presence, the Department does not focus on ``time in 
interview window'' as a core metric but rather emphasizes overall 
productivity across the consular section. The Department relies on 
consular managers to actively monitor and manage the overall 
adjudication process to determine how best to deploy consular officer 
resources.

    Question 4. With respect to consulates in Brazil, China, and India: 
1How many consular officers do you have conducting nonimmigrant visa 
interviews in each consulate in each country?
    Answer. At present, the Department has 55 consular officer 
positions in Brazil (including 8 positions established in May 2011), 90 
in China, and 88 in India. To ensure the Department is able to respond 
to all types of consular requirements--from supporting an evacuation in 
the Middle East to responding to a surge in visa demand--the Department 
does not assign officers to a single task. Instead, every consular 
officer overseas is authorized and expected to complete those tasks 
which are the highest priority for that consular post at any given 
time. At present, the majority of our officers assigned to these three 
countries are focused on nonimmigrant visa processing.
    The Department has recently undertaken a comprehensive review of 
consular officer needs and staffing options for Brazil and China in 
particular. Over the coming year, the Department plans to create four 
more consular officer positions in Brazil and 13 in China, and is 
working on a pilot program to hire an additional 10 visa adjudicators 
in each country through the use of limited non-career appointments 
(LNA). If the pilot is successful, we hope to expand this program. The 
Department believes India has sufficient consular staffing to address 
its workload at present.

    Question 5. With respect to consulates in Brazil, China, and India: 
How many interview windows are available to conduct the nonimmigrant 
interviews in each consulate in each country? How many windows are used 
for other types of visas?
    Answer. The Department has 53 interview windows in Brazil, 103 in 
China, and 112 in India. Interview windows are not dedicated to 
specific types of visas, and they may be used for a variety of 
different purposes at different times, such as serving American 
citizens or conducting immigrant visa or anti-fraud interviews.

    Question 6. With respect to consulates in Brazil, China, and India: 
On average, how many applicants are interviewed by each consular 
officer per day in each consulate in each country?
    Answer. As noted above, the Department does not track ``interviews 
per officer'' as a core performance metric. Instead, we focus on the 
overall productivity of our consular sections since we are able to 
process growing numbers of applicants without requiring an interview. 
Year to date, the Department has processed 41 percent more visas in 
Brazil, 29 percent in China, and 17 percent more visas in India 
compared to last year.

    Question 7. With respect to consulates in Brazil, China, and India: 
How many days a year do consular officers conduct nonimmigrant 
interviews at each consulate in each country?
    Answer. Generally, consular sections are open for consular services 
except for U.S. and local holidays (as defined by the host government) 
and one training day each month. Consular officers are entitled to 
these holidays plus any annual and sick leave they have accrued (in 
accordance with the Department's policies). Consular officers are 
expected to provide consular services whenever the section is open to 
the public and they are at work.

    Question 8. With respect to consulates in Brazil, China, and India: 
Are there a minimum number of applicants that each officer and each 
consulate is required to process daily, monthly or yearly? What is the 
maximum number of visa interviews scheduled in each consulate in one 
day or month?
    Answer. The Department does not establish either a minimum or 
maximum number of applicants/interviews by officer or by consular 
section. The Department relies on its consular managers in each 
consular section to schedule an appropriate number of appointments 
based on demand, case complexity, and officer availability.

    Question 9. With respect to consulates in Brazil, China, and India: 
How does each consulate set the availability of future visa interview 
appointment slots-for example, after how many days do you cutoff 
scheduling future visa interview appointments?
    Answer. The Department relies on its consular managers in each 
consular section to make future visa appointments available in a 
reasonable fashion given local conditions.

    Question 10. With respect to consulates in Brazil, China, and 
India: What is the average interview time per applicant in during non-
peak periods?
    Answer. Consular officers are trained to obtain the required 
information and render a decision as quickly as possible. Interview 
length depends on a variety of factors including the complexity of the 
language used during an interview, the sophistication of the visa 
applicant, any issues that might arise during the course of the 
interview that must be resolved, and the nature of the visa requested.

    Question 11. With respect to consulates in Brazil, China, and 
India: When are the peak periods for visa application activity at your 
consulate? What is the average visa interview wait time during these 
peak periods compared to the rest of the year?
    Answer. Peak seasons vary from country to country and post to post. 
Peak demand in China is May through September. Peak season in Brazil is 
June through November. Peak seasons in India are May through July and 
the month of November.
    While visa appointment wait times tend to be longer during these 
peak periods, they are also affected by other factors, such as the 
staffing situation at a particular post at a given time. In FY 2010, 
the average peak and non-peak visa wait times were respectively 47 days 
and 20 days for Brazil, 33 days and 14 days for China, and 15 days and 
12 days for India.

    Question 12. With respect to consulates in Brazil, China, and 
India: Does your consulate ever conduct visa interviews on Saturdays or 
in the evenings? If so, when?
    Answer. The Department has offered special interview hours on 
Saturdays and U.S./local holidays under exceptional circumstances, but 
consular sections are not staffed to do so on a regular basis. Limits 
on our local staff and restrictions imposed by landlords of many of our 
host country facilities also hinder our ability to do this. Consular 
managers are responsible for deciding when these extra interview slots 
are needed and how best to schedule those extra slots to accommodate 
local conditions and staff availability.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            David T. Donahue

    Question 1. Mr. Donahue, as the Corporation for Travel Promotion 
begins to market Destination USA, it is likely the Department of State 
will need additional capacity to process the expected increase in 
foreign visitors. During the hearing you indicated the Dept. of State 
has a spreadsheet of where it anticipates resources for processing 
visas will be needed, and that you would be able to provide it for the 
Committee. Can you please provide the above mentioned spreadsheet for 
the Committee?
     Answer. The spreadsheet is enclosed.
                             Mission China
               Interview Windows and Adjudicators Needed

----------------------------------------------------------------------------------------------------------------
                     Mission China
                -----------------------   Windows Needed to
                  Adjudicators Needed      Process Consular
  Fiscal Year      to Manage Consular    Workload (15% Annual
                  Workload (15% Annual         Growth)
                        Growth)
----------------------------------------------------------------------------------------------------------------
         2011                     97                     62               Total No. of Adjudicators (2010): 90
         2012                    108                     70                   Total No. of Windows (2010): 103
         2013                    118                     83
         2014                    128                     90                             FY 2013 New Guangzhou Consulate:
         2015                    142                     96                                    Gain 24 Windows
         2016                    156                    104                                           FY 2013 Chengdu Renovations:
         2017                    173                    113                                     Gain 8 Windows
         2018                    193                    123                                  FY 2013 Shanghai Consular Expansion:
         2019                    214                    135                                    Gain 15 Windows
         2020                    242                    148                         FY 2014 New Beijing Annex:
                                                                                               Gain 15 Windows
----------------------------------------------------------------------------------------------------------------
Assumptions:
** 15 percent annual growth in visa applications
** Windows being used for two shifts per day.
** Does not take into account possible economic downturn or other factors that could negatively impact Chinese
  travel.
** Chinese government grants permission and permits for construction projects


    Question 2. What is the average wait time from application to 
issuance of a travel Visa?
    Answer. In 95 of our 220 posts worldwide, wait times for visa 
appointments are less than 7 days, and in another 166 posts, wait times 
are less than 20 days. After the interview, the vast majority of 
qualified applicants--97 percent--receive their visas within 2 to 3 
days.

    Question 3. If a consulate or embassy hires additional officers to 
interview visa applicants, will the increased revenue from processing 
additional Visas make these hires self-sustaining?
    Answer. Assuming visa demand remains unsated, the revenue generated 
by each consular officer will help to offset most of the costs of their 
positions, but not all.
    Consular fee revenues support consular operations. Because of the 
complicated and intertwined nature of the work of our missions abroad 
and the State Department, many of the support functions, such as 
facilities, the General Services Office, and human resources, are 
funded through appropriations, not fees. Appropriations which help 
support our work abroad include: Diplomatic and Consular Programs, 
Embassy Security, Construction and Maintenance, and the Working Capital 
Fund. Thus, the fees generated from the additional consular positions 
will contribute to supporting consular operations related to their 
costs, but not all of the associated support costs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                            David T. Donahue

    Question 1. It is my understanding that each consular officer 
generates an average of $2.7 million in revenue for the State 
Department through visa fees on applications and interviews. Can you 
explain how State currently uses those funds and, specifically, what 
portion of that funding goes to hire new consular employees who perform 
duties relating to visa processing?
    Answer. The Department of State uses visa fees to cover costs 
related to providing consular services worldwide. The Department funds 
the Border Security Program (BSP) through a combination of Machine 
Readable Visa (MRV) fees, other Enhanced Border Security Program fees, 
the Western Hemisphere Travel Surcharge, and Visa Fraud fees.
    The MRV fee is a critical revenue stream that funds most of the 
BSP. Within the BSP, MRV fee revenue funds the salaries and support 
costs for overseas consular officers, a number of Locally Employed 
Staff, domestic consular staff, and other Department of State bureau 
staff directly involved in Border Security support (e.g., Diplomatic 
Security, Information Resources Management, the Office of the 
Secretary, and Administration). In FY 2011, an estimated $435 million, 
or twenty-two percent of BSP funding, will be used to fund the salary 
and support costs associated with hiring and maintaining consular 
employees who perform duties related to visa processing.
    Note: As visa fee revenues vary based on visa demand, the 
Department of State does not calculate or track revenue on a per 
officer basis. Such calculations would vary widely year over year, from 
post to post, and by officer, and is not a useful measure for planning 
purposes.

    Question 2. I recognize that the Department of State has an 
unbelievably diverse portfolio of challenges and crises to manage but 
it also has to fulfill its basic missions. Its role to vet the desire 
of the millions of foreign visitors to the U.S. is such a core mission. 
However, this mission does not appear in key mission statements, it 
does not appear to be part of any planning for building of facilities 
or use of advanced technology, and it is barely even mentioned in the 
department's budget submission. Is the constant imbalance between what 
we need and what we are getting inevitable or are there ways to make 
attracting visitors to the U.S. part of the department's long-term 
planning?
    Answer. The Department recognizes the importance of travel and 
tourism to the United States and is committed to adjudicating and 
issuing visas to eligible applicants, effectively and efficiently. For 
this reason, Consular Affairs (CA) has sought to utilize our existing 
physical infrastructure efficiently and increase capacity and 
capability through the use of advanced technology instead of 
dramatically increasing our overseas staff and facilities. This is a 
strategic priority for the Department and has been featured prominently 
in our strategic plans. The opening sentences of the Congressional 
Budget Justification for Consular Affairs states: ``The mission of the 
Bureau of Consular Affairs is to protect the lives and interests of 
U.S. citizens overseas and to strengthen U.S. border security through 
the vigilant adjudication of U.S. passports and visas.''
    In FY 2011, the Department's nonimmigrant visa workload is 
anticipated at approximately 8.4 million applications. After our 
adjudication, we anticipate issuing more than seven million 
nonimmigrant visas.
    To keep up with the visa demand while effectively adjudicating each 
eligible application, the Department is employing advanced identity-
verification techniques such as biometrics, and pursing information-
sharing agreements with interagency partners. To increase productivity 
and more effectively use our human resources, we are using electronic 
processing and pre-interview analysis of applications. Further, the 
Department is developing modern, integrated systems that provide 
maximum information to adjudicators and make adjudication and issuance 
of visas more efficient. For example, we are leveraging new 
technologies to enhance our Security Advisory Opinion procedures and 
Global Citizen Services program, CA's next-generation software, which 
will result in more effective and efficient service provision and more 
secure document issuance.
    In addition to improving on our technologies, we are beginning a 
pilot program of hiring limited non-career appointments (LNAs) to meet 
demands at our highest-volume posts. At two of our highest volume 
posts, China and Brazil, we plan to hire ten LNAs as entry-level visa 
adjudicators for each country. Our goal is to have this new staff on 
the job in Brazil and China in early 2012.
    These initiatives also serve to improve our customer service and 
responsiveness. While the task of marketing the United States to 
possible foreign tourists is outside of the Department's purview, we 
hope to encourage applications for visas by tourists, businesspeople, 
and students by ensuring that the public is aware of the visa process, 
can easily meet information requirements, and is served in an efficient 
and timely manner.
    CA's budget request is different than most Department of State 
budget requests because CA is, uniquely, primarily fee-funded. While CA 
keeps a portion of its fees and surcharges to fund consular operations, 
CA does not retain all of the fees and surcharges. Approximately 30 
percent of all revenue collected goes to the Department of Treasury. 
The other 70 percent is shared with other bureaus within the Department 
of State, mostly in support of the Border Security Program (BSP). CA's 
portion of that funding helps to maintain current services; to provide 
base level funding for passport, visa, and other essential services to 
American citizens overseas; and to modernize current technologies. The 
BSP chapter provides additional details on the fees used to support 
domestic and overseas consular operations. The BSP supports domestic 
and overseas consular operations and focuses on five fundamental 
objectives: information, connectivity, infrastructure, integrity, and 
human resources.

    Question 3. The lack of transparency and lengthy wait times 
seemingly create a burdensome visa process for international visitors 
from non-VWP countries. While these issues remain one of the main 
obstacles for potential visitors, I remain particularly concerned with 
the English language requirement in the visa process. The need for the 
visa application to be submitted in English provides a significant 
challenge for travelers from non-English speaking countries. Would 
State look into changing these requirements to ease the visa 
application?
    Answer. We use visa applications for three principal purposes: to 
gather information from the visa applicant, to use in interagency 
security screening, and to use as evidence in court cases involving 
violations of U.S. law. While we agree that allowing visa applicants to 
complete their visa applications in their native language would ease 
the visa application process for them, such a policy would pose 
unacceptable security vulnerabilities for the United States.
    We provide visa applicants with translations of the questions on 
the visa application form in 20 foreign languages. U.S. embassies and 
consulates overseas and local service providers are available to assist 
visa applicants with questions on the visa application. In the last 5 
years visa applications worldwide have increased 34 percent, and are up 
124 percent in China, 51 percent in India, 52 percent in Russia, 24 
percent in Mexico, and 234 percent in Brazil.
    At 95 of our 220 posts worldwide, wait times for visa appointments 
are under 7 days and at another 166 posts, wait times are under 20 
days. We have an aggressive program to increase staffing in China and 
Brazil to bring down wait times in these countries. All embassies and 
consulates have websites that clearly explain the visa application 
process to increase transparency. We also note that many applicants are 
issued visas valid for up to 10 years and they may be able to renew 
their visa without returning to the consular section.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                              John Wagner

    Question 1. International visitors are a critical component of the 
U.S. travel economy, but between 2000 and 2007, overseas travel to the 
U.S. fell 8 percent (or approximately 2 million travelers) even though 
overseas travel around the world grew by 28 percent (or 35 million 
travelers) over the same period. The average international visitors 
spends approximately $4,000 during a trip, therefore, the failure to 
keep pace with the growth in international travel since 2000 has cost 
the U.S. economy an estimated $509 billion in total spending and $32 
billion in direct tax receipts. In an effort to increase the U.S. share 
of international visitors, we must ensure that the entry process does 
not deter first time or repeat travelers from visiting the U.S. To that 
end, has DHS established baseline data and developed clear metrics 
going forward in order to assess the efficiency of the CBP workforce? 
If not, does the Department intend to look into developing performance 
metrics as a way to ensure effective use of their current resources?
    Answer. CBP management is always looking for effective ways to use 
our resources. We continually evaluate our performance and our way of 
doing business. We also continue to engage with our stakeholders to 
improve the entry process for international travelers. Some of the 
recent efficiencies that CBP has implemented include the expansion of 
trusted traveler programs, the automation of forms such as the I-94W, 
and the recent pilot programs such as One Stop Clearance and Express 
Connections.
    In terms of metrics, we measure compliance through a random sample 
of travelers in a program called COMPEX (the Compliance Measurement 
Examination System) that analyzes the sampled pool to determine the 
compliance of the travelers with the various CBP programs. Developed 
under the former U.S. Customs Service, COMPEX randomly selects 
travelers entering the country for more detailed inspections to include 
baggage, immigration and agriculture inspections. Its results are used 
to estimate the total amount of potential illegal activity passing 
undetected through U.S. ports of entry in the Land Privately Owned 
Vehicle and Air passenger environments.
    Additionally, CBP measures the amount of time international 
passengers wait for CBP processing upon arrival at a U.S. airport. One 
of the key wait time measures is the percentage of passengers with wait 
times less than or equal to 30 minutes, which has increased slightly 
over the last four quarters from 79.0 percent to 80.0 percent.
    CBP has also launched the Global Entry program for frequent, low-
risk travelers. Approved participants can use an automated kiosk to 
complete the immigration/customs/agriculture requirements. There are 
currently over 650,000 travelers eligible to use the program. Global 
Entry is active at the USA's twenty busiest international airports. 
Global Entry has reduced average wait times for Global Entry users by 
more than 70 percent for the participants, with more than 75 percent of 
travelers using Global Entry processed in less than 5 minutes. The 
Global Entry kiosks have been used over 937,000 times. This equates to 
a savings of approximately 15,617 inspectional hours. These hours are 
then expended on the normal passenger processing, helping to reduce 
overall wait times.

    Question 2. What performance metrics currently exist at airports of 
entry to ensure effective use of resources?
    Answer. CBP continually reviews the performance of personnel and 
programs in the airport environment to make sure that we are using our 
resources correctly and efficiently. Additionally, CBP closely monitors 
wait times and passenger ratios (U.S. citizen, lawful permanent 
resident, and nonimmigrant) as these groups require slightly different 
processing procedures. CBP is working to develop a workload staffing 
model (WSM) to assist in requesting personnel and aligning staffing 
levels at the ports of entry. The WSM for CBP officers is expected to 
focus on all aspects of CBP processing for passengers and cargo in the 
air, land, and sea environments.
    The model is expected to assess staffing needs based on workload 
data, processing times, complexity, and threat level factors. The WSM 
is expected to provide a proposed level of staffing for CBP officers 
for each port of entry. The data and factors in the model will provide 
guidance regarding the shifts in traveler and trade volumes that change 
year over year, processing time changes, effects of transformational 
initiatives and other key items that influence the model's assessment 
of the number of officers required to manage the workload.

    Question 3. As for officer staffing, does CBP have a system in 
place which anticipates various staffing needs at ports of entry in 
order to properly allocate resources and meet officer demand?
    Answer. CBP uses the metrics described above as a notional guide in 
the allocation of available resources. As explained below, the model is 
under development.
    The WSM will not eliminate the judgment of experienced personnel 
when making decisions on allocating staff. The model will be a decision 
support tool. It will not entirely capture the complexity of the 
operations at the ports of entry, and thus cannot completely and 
accurately determine resource requirements. Therefore, final decisions 
regarding resource allocations will continue to be made in consultation 
with operational managers and program managers at the ports of entry 
and headquarters.
    CBP must take other factors into account when allocating resources, 
such as overtime constraints, special enforcement initiatives, wait 
times and specific local issues.
    The WSM is expected to analyze multiple factors that influence 
staffing needs. Some of the operational assumptions and metrics the WSM 
is expected to include are:

  <bullet> The workload of key CBP officers;

  <bullet> The level of effort or processing times for carrying out 
        tasks;

  <bullet> Staffing for supervisors and special targeting or 
        enforcement teams; and

  <bullet> The expected time away from direct work for holidays, leave, 
        training and Temporary Duty (TDY).

    Question 4. What is the status of the CBP airport staffing model 
that has been promised to Congress?
    Answer. The model remains under development. When it is finalized, 
the model will be provided to additional stakeholders.

    Question 5. With regard to customer service issues, I believe it is 
in everyone's best interest to ensure that the treatment of 
international visitors and returning U.S. citizens is pleasant. 
Unfortunately, I often hear complaints from constituents about poor 
customer service or treatment by CBP officers and would like to see 
that CBP continues to make improvements in this area. I understand that 
CBP has processes in place to collect feedback from travelers on their 
entry experience through the use of comment cards. How does CBP 
currently use the travelers' comments to make improvements in the 
process?
    Answer. CBP compiles the comment card responses and distributes 
them to the field for each port of entry on a monthly basis. Written 
comments are reviewed at Headquarters and distributed to the field for 
corrective action when necessary.

    Question 6. Also, I would be interested in receiving a report from 
CBP on traveler feedback--can you please provide the Committee with 
that report, with information about the most frequently cited areas of 
concern, and any actions the agency has to address these concerns?
    Answer. A customer service survey in which over 25,000 travelers 
will be interviewed concerning their experience during the arrival 
process will be completed over the next 3 months. Results of the survey 
are expected to be available before the end of this Fiscal Year.

    Question 7. All aspects of the travel experience should be 
conducted professionally and with highest level of customer service. 
Can you describe the current customer service training in place at CBP? 
Have you consulted with the private sector on customer service issues 
in the past or would you be willing to work with them to improve 
internal training?
    Answer. Through the Model Ports Initiative, CBP has developed 
additional requirements for the Office of Training and Development, 
Field Operations Academy. Modifications were made to the program to 
reinforce professionalism and core values throughout the entire basic 
academy training program. The changes included the presentation of a 
professionalism curriculum, requirements for drill and ceremony (where 
the trainees undergo regular uniform and Personal Appearance Standards 
inspections), and professionalism topics threaded into every class. The 
private sector has been a partner in the Model Ports Initiative.
    Outside of the Model Ports Initiative, the Field Operations academy 
has not consulted with the private sector to develop or improve 
internal customer service training. The basic training program for 
CBPOs is accredited by the nationally recognized Federal Law 
Enforcement Training Accreditation (FLETA) Board. To achieve 
accreditation, an agency must undergo a voluntary assessment of their 
training program to ensure that the program's administration, training 
staff, training development, and training delivery meet the highest 
standards.
    As part of our broader efforts to strengthen customer service, CBP 
procured contractors to design, install and implement audio and video 
technology in the passport primary queuing area through the Model Ports 
program. CBP's informational video, ``Welcome to the United States 
`Simple as 1, 2, 3,' '' presents travelers with step-by-step 
instructions on what to expect during CBP processing. The video is 
subtitled in Arabic, Spanish, Japanese, German, Russian, French, 
Chinese and Korean. Walt Disney Parks and Resorts donated a video, 
``Welcome: Portraits of America,'' that provides arriving travelers 
with welcoming images of the United States. This video is also 
available on the U.S. Department of State website and is being shown in 
consular offices throughout the world.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              John Wagner

    Question 1. Mr. Wagner, I look forward to working with you toward 
facilitating the reintegration of transit programs at our international 
airports. Prior to the suspension of ITI and TWOV, Ted Stevens 
Anchorage International Airport (ANC) had a long history of 
accommodating international transit passengers and would be a logical 
airport for a pilot program. During the hearing we discussed the 
International-to-International (ITI) program, which previously allowed 
international transit passengers to remain in the secure international 
transit lounge, without having to obtain a visa or clear U.S. customs. 
Given the geographical location of Alaska, the opportunity for 
international service has arisen by carriers continuing on to other 
destinations or making an en route stop prior to arriving in Alaska. 
This is the best viable opportunity for growing international direct 
service to our state.
    As you mentioned, this program, along with the TransitWithout Visa 
(TWOV) program, was suspended in 2003 and now CBP requires all 
passengers to have a visa and clear U.S. customs even if they don't 
plan to set foot in the U.S. outside of the airport. I am concerned 
with the impact the suspension of these programs is having on efforts 
to increase international travel to Alaska.
    When the program was suspended, CBP and the Dept. of State 
indicated an intention to reinstate a system for transit passengers 
after additional security measures were in place. During our 
discussion, you indicated CBP was not yet comfortable with re-
implementing either program but remains interested in finding a 
solution. Is CBP considering alternative processes which would both 
allow for passengers to deplane without having to secure a visa and 
would provide CBP with the necessary visibility of who is entering the 
country?
    Answer. The March 2011 Report by the President's Task Force on 
Puerto Rico's Status recommended that CBP initiate a resource impact 
analysis to assess the DHS facilities, personnel, and information 
technology resources that would be required to establish secure in-
transit programs for U.S. airports. Previously, the Departments of 
Homeland Security (DHS) and State (DOS) suspended the Transit Without 
Visa (TWOV) and International-to-International (ITI) programs on August 
2, 2003, due to national security concerns. The action was based on 
credible intelligence information concerning specific threats that 
could use these programs to circumvent the need for visas to enter the 
United States. Unfortunately, those risks continue today.
    Under section 7209(d) of the Intelligence Reform and Terrorism 
Prevention Act (Pub. L. No. 108-458), the Secretaries of DHS and DOS 
may not waive travel document requirements for aliens proceeding in 
transit through the United States until they implement a security plan 
for secure transit passage areas to prevent aliens from illegally 
entering the United States.

    Question 2. What types of outreach has CBP engaged in with air 
carriers and airports in an effort to accommodate international transit 
passengers?
    Answer. Since August 2, 2003, CBP has allowed carriers who meet 
specific conditions to exercise special transit procedures (STP) at 
particular ports of entry. Ports currently using this process include 
Dallas, Los Angeles and Houston. The special transit procedures 
facilitate passengers in transit, but do not waive any of the required 
entry and travel documents.

    Question 3. What criteria do airports and carriers need to meet 
which would eliminate the security risks that led to a suspension of 
ITI and TWOV?
    Answer. The criteria that need to be met include providing the same 
information found in existing entry and documentary requirements.

    Question 4. Almost 8 years have elapsed since ITI and TWOV were 
suspended. What is CBP's timeline for establishing a pilot program or 
process to reintegrate transit passengers at U.S. airports?
    Answer. The national security concerns identified in 2003 remain 
concerns today. CBP has established secure transit procedures at 
designated airports that facilitate passengers in transit.
    The March 2011 Report by the President's Task Force on Puerto 
Rico's Status recommended that CBP initiate a resource impact analysis 
to assess the DHS facilities, personnel, and information technology 
resources that would be required to establish secure in-transit 
programs for U.S. airports.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                              John Wagner

    Question 1. The entry process is the first experience for 
international visitors on U.S. soil and can greatly impact a traveler's 
first impressions of the U.S. A negative experience with long wait 
times and poor customer service can influence their future travel 
decisions and further perpetuate America's negative image as of a 
difficult travel destination. Conversely, a smooth and welcoming 
process could have a positive impact on U.S. diplomatic efforts world-
wide as visitors return home and share their experience with their 
peers. This is particularly true for influential visitors that travel 
internationally frequently for meetings and events on behalf of high 
profile international organizations or corporations.
    Since its implementation, the Global Entry program has vastly 
improved the entry process for pre-cleared U.S. citizens and 
international travelers from a select few countries. Does the 
Department have any plans to expand the Global Entry program beyond its 
current enrollment options?
    Answer. Yes, the Department has plans to expand the Global Entry 
program beyond its current enrollment options. U.S. Customs and Border 
Protection (CBP) recently expanded Global Entry participation to 
qualified Mexican nationals, as well as citizens & residents of Canada 
through the NEXUS program. Eligible SENTRI program members have also 
been granted Global Entry benefits. CBP has signed Joint Statements 
declaring the intention to develop trusted traveler arrangements with 
the United Kingdom, Germany, and the Republic of Korea.
    In addition, CBP works with the private sector to expand enrollment 
opportunities. CBP offers companies the opportunity to hold mobile 
enrollment events, where CBP goes to corporate offices and conducts 
Global Entry interviews. CBP has also worked with American Express and 
with several airlines--including Delta Air Lines, American Airlines, 
United Airlines, and Continental Airlines--to promote the program.

    Question 2. Notably, would you consider offering Global Entry 
enrollment to certain groups of foreign citizens of key international 
organizations and/or key business people of critical significance to 
our export economy?
    Answer. CBP is strategically engaging countries to develop trusted 
traveler arrangements. CBP has reached out to those countries with the 
highest numbers of frequent international travelers to the U.S.
    CBP is open to other discussions and would welcome any suggestions 
or recommendations regarding other partners to approach.

    Question 3. The President has proposed a goal for the U.S. to 
double its exports by 2015. This goal includes increasing service 
exports such as international travel to the U.S. The Commerce 
Department is projecting that there will be a 25 percent increase in 
overseas visitors between 2009 and 2015 most of which will come through 
our airports. At a time when agencies are being asked to do more with 
fewer resources it is critical to increase accountability and 
transparency to make certain CBP is operating in the most efficient 
manner in meeting this potential surge in arrivals at airports. Has CBP 
discussed the arrival projections with the Department of Commerce? What 
role does interagency planning play in projecting what resources CBP 
will need to meet this surge in arrivals while maintaining its goal to 
process visitors in under 30 minutes?
    Answer. CBP works very closely with the Department of Commerce 
(Commerce). Many of the statistics that Commerce uses in their 
estimates come from arrival/departure information from CBP. We also 
work closely with Commerce on tourism and travel promotion, in projects 
like the Travel and Tourism Advisory Board, the Corporation for Travel 
Promotion and the Interagency working group at the White House. 
Interagency planning will also be critical moving forward as a change 
in one part of the stream of visitors can adversely impact another 
stakeholder downstream.
    We are aware that Commerce is projecting an increase in overseas 
visitors and continue to work with our stakeholders to address the 
expected volume of passengers with our current resources and 
infrastructure. For example, CBP has recently met with air carriers at 
several major airports to discuss scheduling issues with flights and 
CBP personnel. We look forward to that continued support in dealing 
with our mutual priorities.
    CBP has recently started three new innovative programs with 
stakeholders that could help deal with the increase in passengers 
arriving in the U.S. ``One-Stop,'' which started in Houston, provides 
designated primary inspection lanes for international travelers 
arriving with no checked baggage, thereby allowing them to bypass the 
baggage carousels and exit quickly. Another innovative program is 
``Express Connection'' which designates inspection lanes specifically 
for those travelers with closely scheduled connecting flights. This 
program has the potential to save air carriers between $2.2 million and 
$5 million dollars a year.
    CBP has also launched the Global Entry program for frequent, low-
risk travelers. Approved participants can use an automated kiosk to 
complete the immigration/customs/agriculture requirements. There are 
currently over 650,000 travelers eligible to use the program. Global 
Entry is active at the USA's twenty busiest international airports. 
Global Entry has reduced average wait times for Global Entry users by 
more than 70 percent for the participants, with more than 75 percent of 
travelers using Global Entry processed in less than 5 minutes. The 
Global Entry kiosks have been used over 937,000 times. This equates to 
a savings of approximately 15,617 inspectional hours. These hours are 
then expended on the normal passenger processing, helping to reduce 
overall wait times.

    Question 4. The Model Ports of Entry program has seen slow growth 
since the expansion to the top 20 airports in 2007. This initiative was 
developed to improve and expedite the entry experience for foreign 
visitors and returning U.S. citizens. Can you explain what constitutes 
a ``Model Port'' and why has implementation been slow despite 
stakeholder commitment and appropriated funding for the program?
    Answer. A ``Model Port'' is a partnership with industry 
stakeholders to improve signage, brochures, instructional videos and 
technology such as the Global Entry program to expedite trusted 
travelers. Congress approved a one-time appropriation of $40 million in 
the Consolidated Appropriations Act, 2008 (Pub. L. No. 110-161). The 
appropriation was made for CBP to expand the Model Ports initiative to 
the largest 20 international airports by volume of visitors and hire 
200 additional CBP officers. CBP allocated the funding for the 
additional 200 CBP officer positions, overtime at model ports locations 
and model ports equipment and services such as audio and visual 
distribution systems, information technology costs, posters and 
signage.
    CBP deployed improved signage to the Model Ports that is clear, 
concise, and understood by most international travelers; revised and 
updated CBP's informational video, Welcome to the United States 
``Simple as 1, 2, 3'' in FY 2010 to reflect the elimination of the I-
94W and included subtitles in eight languages: Arabic, Spanish, 
Japanese, German, Russian, French, Chinese and Korean; implemented the 
use of special service representatives to aid in directing travelers to 
open CBP primary booths and partnered with airline representatives to 
ensure CBP forms are completed prior to arrival in the processing area. 
Additionally, CBP worked with the airport authorities or terminal 
operators to successfully design and install audio and video technology 
in the passport primary queuing area at the 20 model ports. The final 
project deployed over 200 monitors to 36 passport primary inspection 
areas and is seen by over 25 million visitors to the United States.
    CBP has developed additional requirements for the Office of Field 
Operations Basic Academy. Modifications were made to the program to 
reinforce professionalism and core values throughout the entire basic 
academy training program. The changes included the presentation of a 
professionalism curriculum, requirements for drill and ceremony (where 
the trainees undergo regular uniform and Personal Appearance Standards 
inspections), and professionalism topics threaded into every class.
    Since the establishment of the Model Ports Initiative in 2008, CBP 
has made improvements in various aspects to elevate the program to the 
next level of service. CBP has worked with its stakeholders to develop 
and implement processes and programs to improve the arrivals experience 
for international travelers. Some of those improvements include 
``Express Connection,'' ``One Stop'' and the expansion of Global Entry.
    The ``Express Connection'' pilot at Chicago O'Hare, JFK, Atlanta-
Hartsfield, Boston Logan, and Miami International Airports provides a 
special lane for expedited processing during peak international flight 
arrival hours for pre-selected passengers with connection times of 80 
minutes or less.
    The ``One Stop'' pilot at the Houston Intercontinental Airport 
enables pre-selected passengers with only carry-on luggage to receive 
full CBP processing at the primary booth, and then directly exit the 
facility through a dedicated exit point, rather than queuing up at the 
CBP baggage checkpoint.
    The Global Entry program is one of the key features of the Model 
Ports Initiative and has been operating under pilot program authority 
since 2008. DHS anticipates establishing Global Entry as an ongoing 
program and expanding the program to additional airports.
    Currently, CBP has arrangements with the Governments of the 
Netherlands, and Mexico. Canadian citizens and residents can acquire 
Global Entry benefits through membership in the NEXUS program. CBP has 
signed joint statements of intent with the United Kingdom (UK), 
Germany, and South Korea. There are over 650,000 trusted traveler 
members with Global Entry benefits.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                               Roger Dow

    Question. I am pleased to hear of the recommendations implemented 
to help make U.S. passport and customs control areas at airports more 
inviting, including adoption of a welcome video produced by Disney. 
Could you speak about any lessons learned from this experience that 
might also apply to creating a welcoming, inviting first impression at 
Canadian and Mexican border crossings where travelers arrive by car?
    Answer. Since 2006, we have collaborated with U.S. Customs and 
Border Protection officials to offer strategic advice from private-
sector experts on industry best-practices to help improve customer 
service and increase efficiency in traveler facilitation at our 
borders. One of recommendations that CBP has implemented quite 
effectively is the Global Entry Program to fast-track previously-vetted 
Americans and selected international visitors returning from 
international trips. Another, as you pointed out, is the Disney-
produced welcome video that is now played at all major international 
U.S. airports.
    Regarding your specific question, it may be difficult to show a 
welcome video at land ports of entry from Canada and Mexico, we believe 
the spirit of this approach can be applied to other aspects of CPB 
customer service at both land and airport. Some of the most obvious 
steps are simple and economical.. For instance, it is our view that 
land border entries could be improved by:

        1. Directing CPB officers to greet passengers visitors at 
        primary inspections with the following greeting ``Welcome to 
        the U.S.''

        2. Developing comprehensive CBP customer service reports and 
        including them in the Air Travel Consumer Report issued by 
        Department of Transportation's Office of Aviation Enforcement 
        and Proceedings.

        3. Establishing baseline metrics to measure the improvements in 
        passenger facilitation and customer service performance of CBP 
        Officers.

    Each of these reforms could be implemented quickly and at little or 
no cost; would increase management efficiency in facilitating the entry 
process; and would yield public diplomacy benefits by enhancing the 
entry experience for overseas visitors who will describe their 
impressions upon their return home. Toward this end, we will continue 
our partnership with CBP to ensure that additional progress is made 
both at land and air points of entry--and appreciate your continued 
interest in these objectives.
                                 JLW___
                                 
            Written Question Submitted by Hon. Tom Udall to 
                          Stephen J. Cloobeck

    Question. One of the CTP's goals is to ensure that the benefits of 
tourism are spread amongst the states and amongst urban and rural 
areas. How will the CTP ensure that the benefits of tourism reach rural 
states such as New Mexico?
    [The witness did not respond.]
                                 ______
                                 
          Written Questions Submitted by Hon. Mark Warner to 
                          Stephen J. Cloobeck

    Question 1. One of the major provisions of the Travel Promotion Act 
of 2009 was the creation of the Corporation for Travel Promotion (CTP), 
which is tasked with executing a plan ``to ensure that international 
travel benefits all States and the District of Columbia and to identify 
opportunities and strategies to promote tourism to rural and urban 
areas equally, including areas not traditionally visited by 
international travelers.'' Virginia offers tourism opportunities that 
span the full range from urban--such as the sites in Richmond on the 
Civil War Trail--to rural, including the Crooked Road heritage music 
trail in Southwest Virginia. What is the CTP doing to maintain the 
appropriate balance in promoting the variety of travel opportunities 
across the U.S.?
    [The witness did not respond.]

    Question 2. Section 203 of the Travel Promotion Act requires that 
the Office of Travel and Tourism Industries expand and continue its 
research and development activities, including ``expanding the number 
of inbound air travelers sampled by the Commerce Department's Survey of 
International Travelers to reach a 1 percent sample size and revising 
the design and format of questionnaires to accommodate a new survey 
instrument, improve response rates to at least double the number of 
States and cities with reliable international visitor estimates and 
improve market coverage.'' Data provided by this survey is an important 
source of information for state tourism agencies, allowing them to make 
informed decisions in how to use limited marketing funds. 
Implementation of the survey is currently underfunded. Would it be 
possible to develop a public/private partnership to share the increased 
costs of the data collection to increase the sample size?
    [The witness did not respond.]
                                 ______
                                 
                   Travel and Tourism Advisory Board
                    Travel Facilitation Subcommittee
    February 1, 2011--Presentation to Hon. Gary Locke, Secretary of 
                                Commerce

    Creating 500,000 new jobs and generating USD 60 billion in 
additional exports annually by facilitating international travel to the 
United States
Members of the Travel Facilitation Subcommittee of the Travel and 
        Tourism Advisory Board

        Chairman: Hubert Joly, President and Chief Executive Officer, 
        Carlson

        Vice Chair: Holly Agra, President, Chicago's First Lady Cruises

        Richard Anderson, Chief Executive Officer, Delta Airlines, Inc.

        Nicholas Calderazzo, Vice President Sales and Marketing, RMP 
        Travel

        John Klein, Chief Executive Officer, Premium Outlets, a 
        division of Simon Property Group

        Gina Marie Lindsey, Executive Director, Los Angeles World 
        Airports

        John Sprouls, Chief Executive Officer, Universal Orlando 
        Resort, and Executive Vice President, Universal Parks and 
        Resorts

        Perry John P. Tenorio, Managing Director, Marianas Visitors 
        Authority
Main agencies and organizations consulted as part of committee's work
U.S. Department of Commerce

        Helen N. Marano, Director, Office of Travel and Tourism 
        Industries

        Michael Masseman, Director, Office of Advisory Committees

        Jennifer Pilat, Deputy Director, Office of Advisory 
        Committees--International Trade Administration
U.S. Department of Homeland Security

        Douglas A. Smith, Assistant Secretary for the Private Sector

        Bridger McGaw, Director, Office of Private Sector

        Adrienne C. Wong, Policy Analyst, Private Sector Office
U.S. Department of State

        Patrick Kennedy, Under Secretary for Management

        Janice Jacobs, Assistant Secretary of State for Consular 
        Affairs

        David Donahue, Deputy Assistant Secretary for Visa Services, 
        Consular Affairs

        Edward Ramotowski, Managing Director, Office of Visa Services
U.S. Travel Association

        Roger Dow, President and CEO

        Patricia Rojas, Vice President, Government Relations
U.S. Chamber of Commerce

        Randel Johnson, Senior Vice President, Labor, Immigration and 
        Employee Benefits
American Hotel & Lodging Association

        Joe McInerney, President and CEO

        Marlene Colucci, Executive Vice President, Public Policy
Introduction

  <bullet> In January 2010, President Obama established the goal to 
        ``double the country's exports over the next 5 years, an 
        increase that will support two million jobs in America.''

  <bullet> Facilitating international travel to the United States 
        offers the opportunity to contribute to this goal in a major 
        way. Recapturing the market share that the U.S. has lost over 
        the last 10 years and growing with the market would create up 
        to 500,000 new jobs, i.e., a quarter of the President's target. 
        In addition, international travel to the U.S. indirectly 
        contributes to exports, as some of these visitors decide to 
        acquire U.S. products and services when they visit trade shows 
        and/or potential suppliers.

  <bullet> The administration and Congress understand the importance of 
        international travel to the U.S., as they have been working 
        together for example to adopt and then to implement the Travel 
        Promotion Act. Building on this, the Administration has the 
        opportunity to make a significant difference in this area by 
        addressing two issues:

    --Continuing to improve the visa process for visitors from key 
            emerging countries, most notably China, India and Brazil;

    --Enhancing the process for overseas international visitors as they 
            go through the country's borders.

  <bullet> The purpose of this document is to provide a summary of the 
        findings and recommendations of the Travel Facilitation Sub-
        Committee of the Travel and Tourism Advisory Board established 
        by Secretary Locke.

    This document covers three main points:

        1. The U.S. has the opportunity to create up to 500,000 new 
        jobs and generate up to USD 60 billion in additional exports 
        annually if it can recapture its lost market share of overseas 
        international travel by 2015, or, said differently, if it can 
        grow the number of international visitors from overseas from 
        23.8 million in 2009 to 40 million in 2015. Irrespective of the 
        target that one would like to select, it should be noted that 
        each additional million international visitors from overseas 
        generates USD 3.2 billion in additional exports and creates 
        27,000 new jobs;

        2. Challenges with visas and the experience crossing the 
        country's borders are important obstacles to travel to the U.S. 
        At a time when the country is in the process of beginning to 
        promote travel to the U.S. in international markets, it seems 
        quite appropriate to address these obstacles;

        3. Addressing the visa and customer service experience related 
        issues can be done through a few measures at minimal net direct 
        cost to the U.S. tax-payers and an effective partnership with 
        the State Department, the Department of Homeland Security, 
        Congress, local airport authorities and the travel and tourism 
        industry.

    In summary, the Travel Facilitation sub-committee has the following 
seven recommendations to address the key visa-related issues. The first 
four recommendations are focused on improving the quality of service as 
it relates to visa processing. The following three recommendations 
would drastically reduce the need for in-person interviews for visa 
processing, which is a major source of issues and workload today.

        Recommendation number 1: Establish a maximum wait time of 5 
        days for visa processing to make it competitive with the 
        European countries

        Recommendation number 2: Add a few hundred officers in visa 
        processing centers in key emerging countries to reduce wait 
        time and meet growing demand

        Recommendation number 3: Add 4-6 visa processing locations each 
        in China, Brazil and India

        Recommendation number 4: Enable the State Department to retain 
        all the visa processing and consular fees to cover the costs of 
        its consular staffing and visa processing activities

        Recommendation number 5: Increase the validity of non-immigrant 
        visas for Chinese visitors to 10 years

        Recommendation number 6: Give the State Department more 
        discretion as it relates to in-person interviews

        Recommendation number 7: Restore the ability of the Secretary 
        of Homeland Security to admit countries into the Visa Waiver 
        Program (VWP) with a refusal rate of 10 percent or less by 
        decoupling the air exit requirement from the VWP. Work with key 
        strategic partners to facilitate their entry into the program.

    The Travel Facilitation sub-committee has three recommendations to 
address the issues related to the customer service experience at the 
nation's borders:

        1. Establish a goal for wait time at international airports and 
        cruise terminals of less than 20 minutes and measure the 
        performance against that goal;

        2. Strengthen the implementation of the Model Ports of Entry 
        program, through an increased staffing flexibility and customer 
        service focus and through a public/private partnership 
        established at each model port (``Adopt an airport program'');

        3. Ramp up the Global Entry Program for U.S. citizens, 
        permanent residents, and trusted international visitors to 
        reach a number of participants sufficient to materially reduce 
        the workload of the Customs and Border Protection officers (10 
        million?).

    Finally, the Committee suggests a number of steps to accelerate 
progress and follow through on these recommendations:

        1. Organize early in 2011 a joint meeting of President Obama 
        with the Secretary of Commerce, the Secretary of State and the 
        Secretary of Homeland Security focused setting the goal of 
        achieving more than 40 million international overseas visitors 
        per year by 2015 and taking the measures necessary to 
        facilitate international travel to the U.S.;

        2. Ensure the participation of President Obama and Secretary 
        Locke at the World Travel and Tourism Summit to be held in Las 
        Vegas on May 17-19, 2011, which can provide a great platform 
        for the administration to send the right message to the world;

        3. Establish a public/private partnership or working group with 
        the mission to drive progress in the implementation of the 
        above recommendations and toward the goal of achieving more 
        than 40 million international overseas visitors per year by 
        2015.

    This document covers three main points:

        1. The U.S. has the opportunity to create up to 500,000 new 
        jobs and generate up to USD 60 billion in additional exports 
        annually if it can recapture its lost market share of overseas 
        international travel by 2015, or, said differently, if it can 
        grow the number of international visitors from overseas from 
        23.8 million in 2009 to 40 million in 2015. Irrespective of the 
        target that one would like to select, it should be noted that 
        each additional million international visitors from overseas 
        generates USD 3.2 billion in additional exports and creates 
        27,000 new jobs;

        2. Challenges with visas and the experience crossing the 
        country's borders are important obstacles to travel to the U.S. 
        At a time when the country is in the process of beginning to 
        promote travel to the U.S. in international markets, it seems 
        quite appropriate to address these obstacles;

        3. Addressing the visa and customer service experience related 
        issues can be done through a few measures at minimal net direct 
        cost to the U.S. tax-payers and an effective partnership with 
        the State Department, the Department of Homeland Security, 
        Congress, local airport authorities and the travel & tourism 
        industry.

    The U.S. has the opportunity to create up to 500,000 new jobs and 
generate up to USD 60 billion in additional exports annually if it can 
recapture its lost market share of overseas international travel by 
2015.

  <bullet> International travel to the U.S. is already a major source 
        of exports and jobs today:

    --In 2009, there were 23.8 million overseas arrivals in the U.S.

                    <bullet> These overseas visitors generated USD 75 
                billion in spending in the country (excluding 
                international air travel), . . .

                    <bullet> . . . representing about 700,000 jobs

    --In addition, international travel to the U.S. indirectly 
            contributes to exports, as some of these visitors decide to 
            acquire U.S. products and services when they visit trade 
            shows and/or potential suppliers.

  <bullet> However, the U.S. has lost a third of its market share in 
        the last 10 years. Particularly noteworthy for the future is 
        the fact that the U.S. performance has lost ground in the key 
        BRIC countries who represent the fastest growing part of the 
        world's economy and of the international travel market.

  <bullet> The value to the U.S. economy of recapturing the lost market 
        share of international travel is the creation of up to 500,000 
        new jobs and the generation of up to USD 60 billion in 
        additional exports annually.
International travel to the U.S. is already a major source of exports 
        and jobs today

        Contribution of international travel to the U.S. economy
------------------------------------------------------------------------
                       Impact of total travel
                       and tourism industry in   Long-haul international
                             the U.S.\2\          travel to the U.S.\2\
------------------------------------------------------------------------
Spending                  USD 704 billion \1\        USD 75 billion \1\
------------------------------------------------------------------------
Jobs                              7.4 million                   700,000
------------------------------------------------------------------------
\1\ Excluding international passenger fares
\2\ U.S Travel Association, 2009 data

In addition, international travel to the U.S. indirectly contributes to 
        exports, as some of these visitors decide to acquire U.S. 
        products and services when they visit trade shows and/or 
        potential suppliers.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Leisure travelers benefit a wide range of businesses when they visit 
        the U.S.

                                               Percent of Visitors
----------------------------------------------------------------------------------------------------------------
                                             Total       India     Australia    Brazil       Korea       China
----------------------------------------------------------------------------------------------------------------
Visiting amusement parks                        47%         48%         43%         51%         47%         44%
----------------------------------------------------------------------------------------------------------------
Visiting historic sites                         44%         42%         46%         48%         49%         33%
----------------------------------------------------------------------------------------------------------------
Visiting Parks: National, State, etc.           42%         39%         42%         39%         39%         52%
----------------------------------------------------------------------------------------------------------------
Visiting art or cultural Museums, Art           41%         33%         35%         48%         49%         41%
 Exhibits, etc.
----------------------------------------------------------------------------------------------------------------
Visiting zoos, aquariums or science             38%         31%         44%         48%         38%         31%
 museums
----------------------------------------------------------------------------------------------------------------
Unique dining experience                        38%         47%         35%         31%         51%         24%
----------------------------------------------------------------------------------------------------------------
Attending Concerts, Theatre, Dance, etc.        34%         31%         28%         44%         40%         29%
----------------------------------------------------------------------------------------------------------------
Shopping at an outlet mall                      30%         33%         24%         34%         31%         29%
----------------------------------------------------------------------------------------------------------------
Shopping at individual retail stores            28%         14%         12%         42%         35%         38%
 that were not part of a mall
----------------------------------------------------------------------------------------------------------------
Shopping in a mall                              25%         24%         20%         27%         22%         33%
----------------------------------------------------------------------------------------------------------------
Visiting a museum store                         25%         26%         22%         22%         21%         35%
----------------------------------------------------------------------------------------------------------------
Shopping at a museum store                      13%         19%          9%         12%          9%         17%
----------------------------------------------------------------------------------------------------------------
Source: Mandala Research commissioned by Shop America and Macy's
Total respondents n = 2,500

    The U.S. has lost a third of its market share in the last 10 years. 
While part of the market share loss can be explained by competition 
from an increasingly diverse set of countries, it is striking that most 
of the market share loss happened in the 2001-2 time frame, coinciding 
with heightened security concerns by the U.S.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Department of Commerce, Office of Travel & Tourism 
Industries and Tourism Economics (OTTI)

    Compared to 25.9 million in 2000, the U.S. would have had 34 
million overseas visitors in 2009 instead of 23.8 million if it had 
held share, i.e., almost 50 percent more.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Travel Association (USTA), Tourism Economics, Office 
of Travel & Tourism Industries and Tourism Economics (OTTI)

    The BRIC countries in general and Asia in particular represent a 
major, fast growing part of the world's economy and of the 
international travel market.

    --As a group, the GDP of the BRIC countries is expected to 
            represent 20 percent of the world's GDP in 2014 versus 15 
            percent in 2009 and 7 percent in 1999.

    --The middle-class of China and India will soon reach several 
            hundred million individuals with a purchasing power 
            comparable to that of the developed countries, many of whom 
            are and will be eager to travel internationally.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
    Source: IMF

    A report developed by Oxford Economics commissioned by Amadeus 
indicates that Asia will account for 32 percent of global travel spend 
in 2020, up from 21 percent today.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Oxford Economics

    This represents a dual opportunity for the United States: the 
opportunity to sell U.S. products and services to these countries; and 
the opportunity to attract visitors from these countries who are 
interested in visiting the United States as tourists or as business 
people. It is critical that the United States does not miss this 
opportunity.
    Yet, the U.S. has lost ground over the last 10 years with each one 
of the BRIC countries. As an example, the number of annual visits from 
China to Europe is around 3 million versus 500,000 to the U.S. Similar 
gaps exist for the other BRIC countries.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Travel Association (USTA)

    The U.S. has the opportunity to create up to 500,000 new jobs and 
generate up to USD 60 billion in additional exports annually if it can 
recapture its lost market share of overseas international travel by 
2015.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: The Office of Travel and Tourism Industries forecasts 36.7 
million international travelers to the U.S. from overseas in 2015.
    Source: Oxford Economics and U.S. Travel Association (USTA)

    This document covers three main points:

        1. The U.S. has the opportunity to create up to 500,000 new 
        jobs and generate up to USD 60 billion in additional exports 
        annually if it can recapture its lost market share of overseas 
        international travel by 2015, or, said differently, if it can 
        grow the number of international visitors from overseas from 
        23.8 million in 2009 to 40 million in 2015. Irrespective of the 
        target that one would like to select, it should be noted that 
        each additional million international visitors from overseas 
        generates USD 3.2 billion in additional exports and creates 
        27,000 new jobs;

        2. Challenges with visas and the experience crossing the 
        country's borders are important obstacles to travel to the U.S. 
        At a time when the country is in the process of beginning to 
        promote travel to the U.S. in international markets, it seems 
        quite appropriate to address these obstacles;

        3. Addressing the visa and customer service experience related 
        issues can be done through a few measures at minimal net direct 
        cost to the U.S. tax-payers and an effective partnership with 
        the State Department, the Department of Homeland Security, 
        Congress, local airport authorities and the travel & tourism 
        industry.

    Challenges with visas and the experience crossing the country's 
borders are important obstacles to travel to the U.S. At a time when 
the country is in the process of beginning to promote travel to the 
U.S. in international markets, it seems quite appropriate to address 
these obstacles.

        While it would be inappropriate to assume that the visa wait 
        time and travel required to a visa processing center are the 
        only drivers of the difference in number of visitors, every 
        element counts.

        Specifically, as the global economy becomes more integrated, 
        being able to fly to and from the key partners of the global 
        economy--at short notice and efficiently--becomes increasingly 
        important.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: Discover America Partnership

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Source: Discover America Partnership

    Visa and security related issues are major obstacles to travel to 
the U.S. for Chinese, Indian, and Brazilian travelers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Mandala Research

    Today, while some of the issue may be perception versus reality, 
and while some progress may have recently been accomplished, the U.S. 
does suffer from a real performance gap as it relates to the way it 
treats potential visitors. As an example, a Chinese citizen wanting to 
travel to the United States needs to wait several weeks to have an 
appointment for the required in-person interview. This compares to 5-12 
calendar days for a trip to a European country. This is quite an 
obstacle.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note:
    1. U.S. is typical wait time for visa appointment plus processing 
time
    2. U.K. is processing time for 80 percent of applications to be 
processed

    Wait time performance can be erratic and particularly high at 
times.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Consular Consolidated Database

    An aggravating factor is the fact that the United States has visa 
processing centers in only five cities, compared to 12 for the United 
Kingdom.
    As a result, there are 10 cities in China with more than 2 million 
urban inhabitants who do not have a U.S. visa processing center.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While another visa-related issue has been the high refusal rate 
experienced by prospective Chinese travelers, it has been declining 
sharply in the last 3 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Department of State database

    Anecdotal evidence highlights missed opportunities.
    ``As the lead agency for the international business development in 
Illinois, the most daunting challenge is to see the potential investors 
fail their visa interviews at the U.S. Consulates and Embassy in China.
    At last month's International Machine Tool Show I saw a booth with 
brochures and exhibits but no one manned the booth because the 
manufacturer from China didn't get visa approvals at the U.S. Embassy 
in Beijing for its sales people. It was a big loss for the company 
because they paid the full fare for the booth and other related cost.
    In May this year, when Chicago and Illinois hosted the 2010 BIO 
Conference at Chicago's McCormick Place, China had planned to send a 
delegation for 400 business leaders but only about 70 were able to get 
their visas.''
    ``Still another example, China's National Reform Commission and its 
affiliated National Investment Association has been working on an 
investment project to send about 200 Chinese companies to invest in 
Illinois. The State of Illinois Office of Trade and Investment hosted 
the Chinese organization in Chicago. They signed an agreement with the 
O'Hare Lake Office Park for a lease of over 400,000 square feet office 
space for 100 in-coming companies.
    The first two companies on this project got their visas denied at 
the U.S. Embassy on September 21 and 24 respectively and here is the 
dialogue between the visa officers and the visa applicants:

        Applicant number one----

                Question: Have you ever been to the U.S.?

                Answer: No.

                Question: Do you have relatives in the U.S.?

                Answer: No.

        Applicant number two----

                Question: How much is your monthly salary?

                Answer: 38,000 RMB

                Questions: How many employees do you have in your 
                company?

                Answer: 60

    The visa officer denied the visa and refuse to give a reason.
    Situations like such are numerous and shocking. It make it from 
very difficult to nearly impossible for Illinois' FDI promotion in 
China.''
    ``We have had employees from China and India decide not to accept a 
U.S. assignment because a family member was unable to accompany them 
after a visa was denied. In those cases, we have no clear understanding 
as to why the visas were not issued.''
    As relates to Brazil, the competitive issue is even more serious. 
The European Schengen countries do not require a visa for Brazilian 
citizens to visit them. In contrast, a Brazilian citizen will need to 
make an appointment at one of four U.S. visa processing centers and 
wait several months for that appointment (wait times in Brazil have 
been quite high).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note:
    (1) U.S. is typical wait time for visa appointment plus processing 
time
    (2) U.K. is processing time for 80 percent of applications to be 
processed

    Wait times in Brazil have been quite high and erratic.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    There are nine cities in Brazil with more than one million 
inhabitants without a U.S. visa processing center.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This means that a trip to the United States often requires a 
Brazilian citizen to make two trips if he or she wants to travel to the 
U.S.--one trip to a city with a visa processing center and then the 
trip to the U.S. itself. This is an expensive and cumbersome process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The situation of wait times is somewhat better in India, although 
quite uneven across visa processing centers.
    However, the number of U.S. visa processing centers is five 
compared to 11 for the U.K.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note:
    (1) U.S. is typical wait time for visa appointment plus processing 
time
    (2) U.K. is processing time for 80 percent of applications to be 
processed

    The situation of wait times is somewhat better in India, although 
quite uneven across visa processing centers

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    However, the number of U.S. visa processing centers is five 
compared to 11 for the U.K.
    As a result, there are eight cities in India with more than two 
million inhabitants who do not have a U.S. visa processing center.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The experience of international visitors at the country's borders 
is also a source of concern for two main reasons:

  --the general perception of international visitors as relates to 
        processing time and the way they may be treated at the border 
        is quite mixed;

  --in addition, delays in passenger screening is the major cause of 
        missed international connections, which is a significant source 
        of loss for U.S. airlines.

    In 2009, 39 percent of overseas travelers to the U.S. waited more 
than 30 minutes to be cleared through immigration at the nation's 
airports. This compares with 24 percent in 2000.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Department of Commerce survey of international 
travelers

    Actual wait times tend to vary widely during the day.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Actual wait times tend to vary widely across airports and peaks can 
be quite extreme.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    \1\ Longest processing time in minutes to process a passenger on 
any given flight in a 24 hour period
    \2\ Longest average processing time in minutes to process a 
passenger on any given flight in a 24 hour period

    This document covers three main points:

        1. The U.S. has the opportunity to create up to 500,000 new 
        jobs and generate up to USD 60 billion in additional exports 
        annually if it can recapture its lost market share of overseas 
        international travel by 2015, or, said differently, if it can 
        grow the number of international visitors from overseas from 
        23.8 million in 2009 to 40 million in 2015. Irrespective of the 
        target that one would like to select, it should be noted that 
        each additional million international visitors from overseas 
        generates USD 3.2 billion in additional exports and creates 
        27,000 new jobs;

        2. Challenges with visas and the experience crossing the 
        country's borders are important obstacles to travel to the U.S. 
        At a time when the country is in the process of beginning to 
        promote travel to the U.S. in international markets, it seems 
        quite appropriate to address these obstacles;

        3. Addressing the visa and customer service experience related 
        issues can be done through a few measures at minimal net direct 
        cost to the U.S. tax-payers and an effective partnership with 
        the State Department, the Department of Homeland Security, 
        Congress, local airport authorities and the travel and tourism 
        industry.

    It should first be noted that a number of efforts have been 
initiated by the administration and Congress to address some of the 
visa and border issues.
Recent Efforts

------------------------------------------------------------------------

------------------------------------------------------------------------
Global entry             The U.S. Customs and Border Protection agency
                          (CBP) initiated the Global Entry Program in
                          2004.
Model airport            In 2006, the U.S. Administration launched a
                          pilot ``model airport program.''
                         Initiated collaborative local airport
                          initiatives, e.g., in Orlando, Atlanta and Los
                          Angeles.
Visa waiver program      With the addition of Greece in 2010, 26
                          countries are now included in the visa waiver
                          program.
Travel Promotion Act     The Travel Promotion Act was signed by the
                          President on March 4, 2010.
Visa processing          In 2010, the State Department established a
                          task force to address visa issues in China.
------------------------------------------------------------------------

Global Entry

  <bullet> The U.S. Customs and Border Protection (CBP) agency has 
        initiated in 2004 the Global Entry program, a solution that 
        provides frequent low-risk travelers expedited processing 
        through U.S. immigration checkpoints. Global Entry applicants 
        are vetted by CBP through a name-based and biometric security 
        review, as well as a personal interview.

    Once admitted into the program, participants entering the U.S. 
        utilize automated kiosks located in the CBP inspection area to 
        move through the inspection process without undergoing a 
        person-to-person CBP interview.

  <bullet> The program launched on June 6, 2008, at JFK International 
        Airport and today the following 20 airports serve as global 
        entry enrollment and processing locations: Atlanta, Boston, 
        Chicago O'Hare, Dallas, Detroit, Fort Lauderdale, Fla.; 
        Honolulu, Houston International, Las Vegas, Los Angeles, Miami, 
        Newark, N.J.; Orlando (Sanford), Fla.; Philadelphia, San Juan, 
        P.R.; San Francisco, Seattle, Washington Dulles, and additional 
        JFK terminals.

  <bullet> Though the program was launched originally without a start-
        up appropriation, the House Homeland Security Appropriations 
        Subcommittee provided USD 10 million in FY09 for Global Entry 
        to promote its expansion.

  <bullet> As of today, approximately 100,000 individuals have been 
        enrolled in the program, and Global Entry members have used the 
        kiosks approximately 600,000 times.

  <bullet> In addition to being available to U.S. citizens and legal 
        permanent residents, CBP concluded an agreement in April 2009 
        with its counterpart in the Netherlands to harmonize Global 
        Entry with their international trusted traveler program. The 
        U.S. and Mexico recently signed a MOU to expand Global Entry to 
        Mexican nationals. Additional agreements with other interested 
        countries such as the United Kingdom, Germany, France and Japan 
        are under discussion and would allow nationals from these 
        countries to use the Global Entry program in the U.S.
Model Airport

  <bullet> In January 2006, then Secretary of State Condoleezza Rice 
        and then Secretary of Homeland Security Michael Chertoff 
        created a pilot ``model airport'' program to reduce passenger 
        processing wait times and establish a more welcoming 
        environment at inspection areas for travelers.

  <bullet> The pilot program was subsequently launched at Houston's 
        George Bush Intercontinental Airport (IAH) and Washington 
        Dulles International Airport (IAD).

  <bullet> In 2007, Congress fully authorized a Model Ports Program and 
        appropriated USD 40 million to expand it to the 20 U.S. 
        airports with the highest number of inbound international 
        visitors and hire no fewer than 200 new Customs and Border 
        Protection (CBP) officers at these model airports.

    With the addition of Greece in 2010, 36 countries are now included 
in the visa waiver program

                         Visa Waiver Countries:



Andorra                  Hungary                  New Zealand
Australia                Iceland                  Norway
Austria                  Ireland                  Portugal
Belgium                  Italy                    San Marino
Brunei                   Japan                    Singapore
Czech Republic           Latvia                   Slovakia
Denmark                  Liechtenstein            Slovenia
Estonia                  Lithuania                South Korea
Finland                  Luxembourg               Spain
France                   Malta                    Sweden
Germany                  Monaco                   Switzerland
Greece                   The Netherlands          United Kingdom

Source: travel.state.gov

Visa Issues--Example

  <bullet> Ambassador Janice Jacobs, the Assistant Secretary 
        responsible for consular affairs, has established an internal 
        task force to drastically increase the ability of the State 
        Department to process visas from emerging countries, starting 
        with China.

  <bullet> A number of measures have been taken to improve performance 
        in the short term, including opening certain centers on a 
        number of Saturdays. As a result, significant wait time 
        reductions have been accomplished in China, even though they 
        are not yet at competitive levels.

    In summary, the Travel Facilitation sub-committee has the following 
seven recommendations to address the key visa-related issues. The first 
four recommendations are focused on improving the quality of service as 
it relates to visa processing. The following three recommendations 
would drastically reduce the need for in-person interviews for visa 
processing, which is a major source of issues and workload today.

        Recommendation number 1: Establish a maximum wait time of 5 
        days for visa processing to make it competitive with the 
        European countries

        Recommendation number 2: Add a few hundred officers in visa 
        processing centers in key emerging countries to reduce wait 
        time and meet growing demand

        Recommendation number 3: Add 4-6 visa processing locations each 
        in China, Brazil and India

        Recommendation number 4: Enable the State Department to retain 
        all the visa processing and consular fees to cover the costs of 
        its consular staffing and visa processing activities

        Recommendation number 5: Increase the validity of non-immigrant 
        visas for Chinese visitors to 10 years

        Recommendation number 6: Give the State Department more 
        discretion as it relates to in-person interviews

        Recommendation number 7: Restore the ability of the Secretary 
        of Homeland Security to admit countries into the Visa Waiver 
        Program (VWP) with a refusal rate of 10 percent or less by 
        decoupling the air exit requirement from the VWP. Work with key 
        strategic partners to facilitate their entry into the program.

    The Travel Facilitation sub-committee has three recommendations to 
address the issues related to the customer service experience at the 
nation's borders:

        1. Establish a goal for wait time at international airports and 
        cruise terminals of less than 20 minutes and measure the 
        performance against that goal;

        2. Strengthen the implementation of the Model Ports of Entry 
        program, through an increased staffing flexibility and customer 
        service focus and through a public/private partnership 
        established at each model port (``Adopt an airport program'');

        3. Ramp up the Global Entry Program for U.S. citizens, 
        permanent residents, and trusted international visitors to 
        reach a number of participants sufficient to materially reduce 
        the workload of the Customs and Border Protection officers (10 
        million?).

    Finally, the Committee suggests a number of steps to accelerate 
progress and follow through on these recommendations:

        1. Organize early in 2011 a joint meeting of President Obama 
        with the Secretary of Commerce, the Secretary of State and the 
        Secretary of Homeland Security focused setting the goal of 
        achieving more than 40 million international overseas visitors 
        per year by 2015 and taking the measures necessary to 
        facilitate international travel to the U.S.;

        2. Ensure the participation of President Obama and Secretary 
        Locke at the World Travel and Tourism Summit to be held in Las 
        Vegas on May 17-19, 2011, which can provide a great platform 
        for the administration to send the right message to the world;

        3. Establish a public/private partnership or working group with 
        the mission to drive progress in the implementation of the 
        above recommendations and toward the goal of achieving more 
        than 40 million international overseas visitors per year by 
        2015.

    The goal: increase the number of international overseas visitors to 
the U.S. to more than 40 million by 2015.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: The Office of Travel and Tourism Industries forecasts 36.7 
million international travelers to the U.S. from overseas in 2015.
    Source: Oxford Economics and U.S. Travel Association (USTA)

    Recommendation number 1: Work with the Secretary of State to 
establish a target wait time for visa processing that would be 
competitive and adequate. A maximum wait time of 5 days would seem 
appropriate to make it competitive with the European countries.

        Out of the 222 overseas posts that the State Department 
        operates, the wait time for an in-person interview was less 
        than 7 days at 164 posts. However, the wait time in China, 
        Brazil, and to a lesser extent India, have tended to be quite 
        long (i.e., several weeks) and significantly higher than the 
        wait times for the countries that the U.S. is competing with. 
        Reducing the wait time in these critically important countries 
        to 5 days would help make travel to the U.S. more competitive.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Note:
    (1) U.S. is typical wait time for visa appointment plus processing 
time
    (2) U.K. is processing time for 80 percent of applications to be 
processed

    Recommendation number 2: Encourage the State Department to quickly 
ramp up the staffing of visa processing centers in key emerging 
countries by a few hundred officers.

    --A ballpark figure for incremental staffing is a few hundred 
            officers. Across China and Brazil, 500-600 additional 
            officers would seem sufficient to meet the growing demand 
            and reduce wait times.

    --The cost to the U.S. tax-payers of adding these resources is non-
            existent as each officer generates about USD 1.5 million in 
            fees per year.

    --According to the State Department, this incremental staffing 
            should take the form of officers with a limited time 
            contract to avoid creating a glut of permanent State 
            Department employees.

    --The State Department should consider the extent to which 
            implementing video conferencing would be helpful in 
            optimizing the deployment of their staff.

    --The actual staffing requirement may eventually be reduced if and 
            when recommendations number 5, 6 and 7 are implemented. We 
            believe that this is not a reason to delay the immediate 
            addition of incremental staff because of the attractive 
            return and the flexibility of limited time contracts.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
    * Note: FY2011 Final staffing numbers may shift slightly depending 
on the outcome of the FY2011 consular repositioning exercise. Positions 
will be established in FY2011 but officers may not arrive at post until 
FY20123
    Source: U.S. Department of State

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    * Note: FY2011 Final staffing numbers may shift slightly depending 
on the outcome of the FY2011 consular repositioning exercise. Positions 
will be established in FY2011 but officers may not arrive at post until 
FY2012
    Source: U.S. Department of State

    The net cost to the U.S. tax-payers of adding these resources is 
non existent as each officer generates about USD 1.5 million in fees 
per year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Department of State, Travel and Tourism Advisory Board 
analysis

    Recommendation number 3: Ask the State Department to quickly 
increase the number of processing locations in the key emerging 
countries, probably adding 4-6 visa processing locations each in China, 
Brazil and India.

        The key criteria for choosing the additional cities should be 
        their size and economic importance. Priority cities in China 
        should probably include: Chongqing, Dalian, Shenzhen, Tianjin, 
        and Wuhan.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Recommendation number 4: Enable the State Department to retain all 
the visa processing and consular fees to cover the costs of its 
consular staffing and visa processing activities.

        Rationale/expected benefits: enable the State Department to 
        develop its visa processing activities with a profit center 
        focus, i.e., keep adding officers until profitable demand is 
        met.

    Recommendation number 5: Increase the validity of non-immigrant 
visas for Chinese visitors to 10 years.
    Rationale/expected benefits:

    --reduce the work load of the officers as visa renewals represent a 
            significant share (30 percent) of the current work load in 
            China;

    --reduce the burden for Chinese visitors. We note that such a 
            measure has been taken for other countries, including 
            Brazil and India.

    Recommendation number 6: Work with Congress to give the State 
Department more discretion as it relates to in-person interviews.

        Congress should find out from State and Homeland Security 
        whether in-person interviews are necessary and appropriate for 
        100 percent of prospective visitors from non-visa waiver 
        countries or whether technology and judgment could enable the 
        State Department to grant visas to certain visitors without an 
        in-person interview and without compromising security.

        One option would be to move to a principle of interview-by-
        exception, i.e., the practice of many of the countries we 
        compete with. Another option would be for the Secretary of 
        State to take greater advantage of the authority she has under 
        INA sec. 222(h), subject to certain limitations, to waive the 
        personal interview requirement on the basis of a U.S. national 
        interest or if necessary because of unusual or emergent 
        circumstances. The State Department is in fact considering 
        possible categories of applicants for whom the Secretary might 
        exercise her interview waiver authority (for example, Brazilian 
        teens younger than 16 or Chinese students re-applying for 
        student visas).

    Recommendation number 7: Restore the ability of the Secretary of 
Homeland Security to admit countries into the Visa Waiver Program (VWP) 
with a refusal rate of 10 percent or less by decoupling the air exit 
requirement from the VWP. Work with key strategic partners to 
facilitate their entry into the program.

        As was experienced with South Korea, including a country in the 
        visa waiver program has a large positive impact on the volume 
        of international travel from that country to the U.S.

        We recommend that you ask the State Department to nominate 
        additional countries for inclusion in the visa waiver program 
        over the next few years. To the end, the TTAB recommends that 
        you ask Congress to separate the requirement to implement a 
        biometric air exit system from the Visa Waiver Program. Such a 
        change would once again allow the Secretary of Homeland 
        Security to designate new countries as Visa Waiver program 
        members by restoring the visa refusal rate cut-off of 10 
        percent. This action would pave the way for several strategic 
        markets to join the program, facilitating the entry of millions 
        of new visitors to the United States.

        Major international partners around the world that merit 
        consideration include, in particular, Brazil as well as other 
        key countries from South America, e.g., Argentina and Chile. 
        According to the Department of Homeland Security, there are 
        other factors, beyond the refusal rate issue, which make 
        Brazil, Argentina, and Chile ineligible for VWP membership 
        under current law. For example, they have not signed the 
        required information sharing agreements (PCSC and HSPD-6); the 
        required reporting of lost and stolen passports to INTERPOL is 
        either rare (in the case of Brazil) or non-existent (Argentina, 
        Chile); Brazil does not offer visa-free travel to U.S. passport 
        holders, and charges a combined USD 160 fee for entry; and only 
        Brazil currently issues biometric passports--another legal 
        requirement for entry into the VWP.

        While it may take a while before these countries are ready, we 
        recommend that the administration take a proactive approach to 
        moving the process forward, given the economic weight of these 
        countries and that Brazilian citizens do not need a visa to 
        visit the Schengen countries today.
Criteria for a Country to Be Included in the VWP

  <bullet> The requirements to join the VWP are set forth in Section 
        217 of the Immigration and Nationality Act, as amended by the 
        Implementing Recommendations of the 9/11 Commission Act of 
        2007, and in other statutes (for example, 8 U.S.C.  1732 sets 
        forth the applicable travel document standards).

  <bullet> The standard requirements include a non-immigrant visa 
        refusal rate below 3 percent, offering reciprocal visa-free 
        travel for U.S. citizens for business or tourist visits of up 
        to 90 days, issuing International Civil Aviation Organization 
        (ICAO) compliant e-passports; sharing lost and stolen passport 
        information with the United States through INTERPOL or other 
        means; sharing information regarding whether citizens and 
        nationals of that country traveling to the United States 
        represent a threat to the security or welfare of the United 
        States or its citizens; and cooperation on repatriation 
        matters. These requirements include conclusion of various 
        international agreements and/or arrangements.
    Source: Visa Waiver Program Criteria Take Away Paper, Unclassified 
document provided by the State Department to the Travel Facilitation 
subcommittee of the Travel and Tourism Advisory Board
Criteria for a Country to Be Included in the VWP

  <bullet> Regarding visa refusal rates, the 9/11 Act gave the 
        Secretary of Homeland Security the authority to waive the less 
        than 3 percent non-immigrant visa refusal rate requirement and 
        consider for VWP membership countries that have visa refusal 
        rates of between 3 percent and 10 percent and that meet 
        additional statutory and other program requirements, including 
        the strengthening of document security standards and airport 
        and aviation security. This authority was suspended on July 1, 
        2009, because a biometric air exit program was not implemented 
        by June 30, 2009. The Consolidated Security, Disaster 
        Assistance, and Continuing Appropriations Act, 2009, required 
        DHS to conduct pilot tests of the biometric air exit solution, 
        postponing DHS' s ability to notify Congress that the air exit 
        system fully satisfies biometric requirements set forth in the 
        9/11 Act. DHS has conducted biometric air exit pilots and is 
        currently evaluating the pilot program results; however, it 
        remains uncertain when DHS will implement a biometric air exit 
        solution that will enable resumption of the authority to waive 
        the less than 3 percent non-immigrant visa refusal rate 
        requirement for VWP membership.
    Source: Visa Waiver Program Criteria Take Away Paper, Unclassified 
document provided by the State Department to the Travel Facilitation 
sub-committee of the Travel and Tourism Advisory Board
The Case for Brazil


----------------------------------------------------------------------------------------------------------------
                                    GDP per capita      2010 GDP growth    Currently a visa
                                      (USD, 2009)          rate (%)         waiver country?    Visa refusal rate
----------------------------------------------------------------------------------------------------------------
Greece                                       29,195               -4.0                  Yes
Portugal                                     21,481                 1.3                 Yes
Malta                                        19,737                 1.7                 Yes
Czech Republic                               18,124                 2.0                 Yes
South Korea                                  17,059                 6.0                 Yes
Slovakia                                     16,222                 4.0                 Yes
Estonia                                      14,692                 1.8                 Yes
Hungary                                      12,900                 0.5                 Yes
Lithuania                                    11,273                 1.3                 Yes
Latvia                                       10,826               -1.0                  Yes
Chile                                         9,629                 5.0                                    5.0%
Brazil                                        8,116                 7.0                                    5.2%
Argentina                                     7,660                 6.0                                    3.1%
China                                         3,744               10.3                                    13.3%
India                                         1,134                 8.5                                   26.8%
----------------------------------------------------------------------------------------------------------------

    Recommendation number 8: Establish a goal for wait time at 
international airports and cruise terminals of less than 20 minutes and 
measure/publish the performance against that goal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. Department of Commerce survey of international 
travelers

    Recommendation number 9: Strengthen the implementation of the Model 
Ports of Entry program, through an increase staffing flexibility and 
customer service focus and through a public/private partnership 
established at each model port. Launch Adopt a model port initiative 
with the private sector.
Staffing Flexibility

  <bullet> Enable the use of flexible working hours and part-time labor 
        to be better able to meet fluctuations in the number of 
        incoming travelers

  <bullet> Enhance the use of scheduling system and staffing models
Customer Service Focus

  <bullet> Deploy DHS traveler satisfaction survey

  <bullet> Update Explore America International Travelers survey

  <bullet> Continue to deploy customer service training, and direct CBP 
        officers to greet arriving passengers with ``Welcome to the 
        United States'' or ``Welcome home''
Public/private Partnership at Each Port--``Adopt a Model Port''

  <bullet> Establish public/private partnership at port level with the 
        local port authority, DHS representatives, and main relevant 
        airlines and local travel and tourism companies, to make the 
        arrival experience more welcoming

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Recommendation number 10: Ramp up the Global Entry Program for U.S. 
citizens, permanent residents, and trusted international visitors to 
reach a number of participants sufficient to materially reduce the 
workload of the Customs and Board Protection officers (10 million?).

  <bullet> Ramp up the Global Entry Program for U.S. citizens and 
        permanent residents, e.g., by:

    --Enhancing marketing efforts, including encouraging the State 
            Department to provide information about Global Entry to 
            people who are applying for a U.S. passport; and by 
            leveraging the loyalty program of global travel and tourism 
            industry players;

    --Continuing to increase the number of participating airports, 
            e.g., by adding the Minneapolis-Saint Paul International 
            airport;

    --Ensuring that the Global Entry kiosks are well placed in the 
            arrival halls of participating airports;

    --Utilizing the Department of Commerce posts around the world to 
            educate travelers about the program.

  <bullet> Expand the Global Entry Program to international visitors, 
        e.g., by:

    --Finalizing negotiations with the U.K., France, Germany and Japan 
            to allow reciprocal use of the Global Entry Program;

    --Opening the Global Entry Program to holders of long-term, non-
            immigrant visas such as E, L or O visas;

    --Integrating the APEC Business Travel Card (ABTC) in the program. 
            The ABTC allows travelers designated by governments of the 
            APEC region as key business leaders to receive expedited 
            visa interviews and to use specialized entry lines upon 
            arrival in APEC countries.

    Finally, the Committee suggests a number of steps to accelerate 
progress and follow through on these recommendations:

        1. Organize early in 2011 a joint meeting of President Obama 
        with the Secretary of Commerce, the Secretary of State and the 
        Secretary of Homeland Security focused setting the goal of 
        achieving more than 40 million international overseas visitors 
        per year by 2015 and taking the measures necessary to 
        facilitate international travel to the U.S.;

        2. Ensure the participation of President Obama and Secretary 
        Locke at the World Travel and Tourism Summit to be held in Las 
        Vegas on May 17-19, 2011, which can provide a great platform 
        for the administration to send the right message to the world;

        3. Establish a public/private partnership or working group with 
        the mission to drive progress in the implementation of the 
        above recommendations and toward the goal of achieving more 
        than 40 million international overseas visitors per year by 
        2015.

    Establish a public/private partnership or working group with the 
mission to drive progress in the implementation of the above 
recommendations and toward the goal of achieving more than 40 million 
international overseas visitors per year by 2015.

  <bullet> Its members could include: representatives of the White 
        House, the State Department, the Department of Homeland 
        Security, the Department of Commerce, the Corporation for 
        Travel Promotion, the U.S. Travel Association, the Air 
        Transport Association, and a few U.S. airlines and travel and 
        tourism enterprises;

  <bullet> It would establish and track a set of key performance 
        indicators to monitor progress on the above mentioned issues;

  <bullet> It would meet quarterly to discuss progress and issues, and 
        would report annually to the President and Congress.

    Key metrics (examples):

  <bullet> Number of overseas international visitors and market share

  <bullet> Wait times at visa processing centers in key emerging 
        countries

  <bullet> Number of visa processing locations in key emerging 
        countries

  <bullet> Number of countries added to the Visa Waiver program

  <bullet> Wait times at model ports

  <bullet> Number of travelers enrolled in Global Entry Program

  <bullet> Number of countries with reciprocal agreements

  <bullet> Traveler satisfaction at the nation's borders

  <bullet> Image of the U.S. amongst international travelers

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
